<html>
<title> - CONTINUING INVESTIGATION INTO THE U.S. ATTORNEYS CONTROVERSY AND RELATED MATTERS (PART I)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   CONTINUING INVESTIGATION INTO THE U.S. ATTORNEYS CONTROVERSY AND 
                        RELATED MATTERS (PART I)

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2007

                               __________

                           Serial No. 110-56

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
35-603                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 23, 2007

                           OPENING STATEMENT

                                                                   Page
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     3

                                WITNESSS

Ms. Monica M. Goodling, former Senior Counsel to the Attorney 
  General and White House Liaison, U.S. Department of Justice
  Oral Testimony.................................................     7
  Prepared Statement.............................................    11

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Order Immunizing the Testimony of, and Other Information Provided 
  by, Monica Goodling, May 11, 2007..............................     6
Article from Newsweek, May 14, 2007, submitted by the Honorable 
  Linda T. Sanchez, a Representative in Congress from the State 
  of California, and Member, Committee on the Judiciary..........    29
Article from The New York Times, May 11, 2007, submitted by the 
  Honorable Linda T. Sanchez, a Representative in Congress from 
  the State of California, and Member, Committee on the Judiciary    30
Order for the Delegation of Certain Personnel Authorities, Office 
  of the Attorney General, March 1, 2006, submitted by the 
  Honorable Chris Cannon, a Representative in Congress from the 
  State of Utah, and Member, Committee on the Judiciary..........    72

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   114
Questions Submitted for the Record by the Honorable John Conyers, 
  Jr., a Representative in Congress from the State of Michigan, 
  and Chairman, Committee on the Judiciary, and the Honorable 
  Robert C. Scott, a Representative in Congress from the State of 
  Virginia, and Member, Committee on the Judiciary...............   123
Letter to the Honorable John Conyers, Jr., dated June 28, 2007, 
  from John M. Dowd, Attorney for Monica Goodling regarding 
  Answers to Questions Submitted for the Record..................   144


   CONTINUING INVESTIGATION INTO THE U.S. ATTORNEYS CONTROVERSY AND 
                        RELATED MATTERS (PART I)

                              ----------                              


                        WEDNESDAY, MAY 23, 2007

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:25 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Present: Representatives Conyers, Berman, Boucher, Nadler, 
Scott, Watt, Lofgren, Jackson Lee, Waters, Meehan, Delahunt, 
Wexler, Sanchez, Cohen, Johnson, Gutierrez, Sherman, Schiff, 
Davis, Wasserman Schultz, Ellison, Smith, Sensenbrenner, Coble, 
Gallegly, Goodlatte, Chabot, Lungren, Cannon, Keller, Issa, 
Pence, Forbes, King, Feeney, Franks, Gohmert and Jordan.
    Staff Present: Elliot Mincberg, Chief Oversight Counsel; 
Sam Sokol, Oversight Counsel; Renata Strause, Staff Assistant; 
Crystal Jezierski, Minority Oversight Counsel; and Daniel 
Flores, Minority Counsel.
    Mr. Conyers. Will the media move from the room and make 
sure that they are not interfering with the procedures in any 
way?
    I am going to ask the camera people to move away. We have 
got to have a reasonable appearance of a Judiciary Committee 
hearing here, and this is unreasonable at this point.
    Mr. Smith. Mr. Chairman, I would like to insist that they 
follow your instructions.
    Mr. Conyers. I would further like to ask the members of the 
press, the cameramen, in particular, to please move away from 
the table. We don't want pictures taken while the witness is 
trying to give testimony, if you don't mind.
    And I would appreciate it.
    Mr. Smith. Mr. Chairman, I do not believe that the folks 
with the cameras have been listening to what you have been 
asking them to do; and I would like to ask that we have regular 
order and ask that you have them move to the side and not be 
between us and the table.
    Mr. Conyers. Thank you very much, Mr. Smith.
    The fact of the matter is that we have more cameras than 
this room can accommodate. So, unfortunately, some of you will 
have to be excused; and we will have to clear the front of the 
witness table so that there are no cameras in front of it.
    I am sorry, but it is the great number of cameras that 
require that we invoke this instruction. I regret that very 
much, but please move away from the witness table.
    All cameras please move away from the witness table.
    All cameras. That means everybody with a camera please move 
away from the witness table.
    Mr. Watt. Mr. Chairman, would you mind lengthening your 
instruction to include people without cameras if they are down 
in the well?
    Mr. Conyers. Yes, Mr. Watt. It includes people without 
cameras that may be in the well in front of the witness table. 
Let's see, do we need a Webster's dictionary? For everybody in 
front of the witness table, please remove themselves.
    This is unusual, but I think it is necessary in fairness to 
everybody.
    Good morning, Madam Witness and to the Members of the 
Committee. Today, the House Judiciary Committee continues its 
investigation into the controversy surrounding the United 
States attorneys and related matters. Our sole witness today is 
Ms. Monica Goodling, who served as senior counsel to the 
Attorney General and White House Liaison until she resigned on 
April 7, 2007.
    As the Members know, 2 months ago, Ms. Goodling informed us 
that she would assert her fifth amendment right not to 
incriminate herself if she was called to testify. As a result 
of that assertion, this Committee, after careful consideration, 
authorized by a vote of 32 to 6 a grant of immunity to Ms. 
Goodling, which we have secured from the Chief Judge of the 
United States District Court for the District of Columbia.
    The Committee also authorized a subpoena to compel the 
testimony as well as the production of documents.
    Now these are steps that I did not take lightly but only 
after consultation with the Ranking Member, Lamar Smith, and my 
colleagues on both sides of the aisle with the Justice 
Department.
    I believe that this is an important and necessary step to 
help us get to the bottom of the U.S. attorney matter and other 
concerns regarding possible improper politicalization of the 
Justice Department. As the White House Liaison and one of the 
Attorney General's most trusted advisers, Ms. Goodling may well 
have information that will help us in our inquiry.
    Let me observe that the fact that we are granting limited 
immunity to Ms. Goodling for her testimony should not be taken 
as any indication that the Committee believes that she is 
guilty of a crime. Nor does the fact that she is testifying 
today mean that she necessarily has a greater role than some of 
the other individuals involved in the firings, whom we have 
already interviewed or who have testified. She is before us 
today in a public hearing simply because we have no other means 
of obtaining her testimony in a timely manner.
    We appreciate your cooperation.
    I would hope that the fact of her testimony would encourage 
others to come forward and cooperate with our inquiry; and that 
includes personnel in the White House itself, whose role in 
these firings appear to grow more central every day every time 
another Department of Justice official denies recommending 
putting any particular prosecutor on the firing list.
    The issues we are examining, which include possible 
obstruction of justice, misleading the Congress, violations of 
the Hatch Act, are obviously serious. If we cannot trust the 
Department of Justice to fairly and impartially enforce our 
Nation's laws, if we cannot trust the testimony of our most 
senior officials in the Administration, if it appears that the 
U.S. attorneys are merely pawns in a game of politics, then we 
will have suffered the loss of one of our Nation's most 
fundamental principles: the rule of law.
    I would now recognize our Tanking minority Member whom I 
commend for the cooperation that has existed between all of us 
on this Committee, the distinguished gentleman from Texas, 
Lamar Smith, the Ranking minority Member.
    Mr. Smith. Thank you Mr. Chairman.
    Ms. Goodling, welcome. You are apparently the last witness 
we are going to hear from who has worked within the Department 
of Justice, and let me say at the outset I know this is not an 
easy process for you to go through. I know you have never had 
to endure anything like this hearing before, which I think 
makes us all particularly appreciative of your being here and 
thank you for being here.
    Mr. Chairman, we, our staffs, the public and the media have 
pored over reams of documents, heard from nearly 20 witnesses, 
issued a plethora of subpoenas and taken the extraordinary step 
of immunizing your testimony. The Senate has received and 
examined evidence as well.
    For some time, many have been on the edges of their seats 
waiting for the moment in which you, Ms. Goodling, as the 
Department's former White House Liaison, might lead the U.S. 
attorneys' dismissals to any inappropriate action by Karl Rove 
or Harriet Miers. I understand that the majority staff already 
has learned that you never have had any contact with Mr. Rove 
or Ms. Miers. I do not share their disappointment.
    When this investigation began, the Department defended its 
actions on the grounds that the dismissed U.S. attorneys served 
at the pleasure of the President. When pressed, the Department 
volunteered that the dismissals were mainly performance 
related. When examined, the evidence of performance problems 
was in some cases well documented and in other cases not.
    The questions about the differing degrees of proof as to 
whether this or that U.S. attorney really was dismissed for 
performance reasons have helped fuel the speculation.
    With regard to the dismissals, the right interpretation may 
just be that the dismissals were in fact for performance 
reasons or, in one case, to offer an opportunity to another 
qualified candidate.
    Finally, with regard to this investigation itself, we and 
our investigators see ever more clearly that the accusations of 
wrongdoing in these eight U.S. attorney dismissals don't seem 
to have legs. But they won't stop. Instead, some try to graft 
on new legs, whether with regard to other U.S. attorneys or 
with hearings in which we hear about the Attorney General's 
activities as White House counsel or as new allegations against 
you, Ms. Goodling.
    We want to hear from you today so that we can find out the 
truth, clear the air or take other appropriate steps. We have 
not reached any final conclusion, and we should not until we 
know all of the relevant facts.
    I thank you, Mr. Chairman; and I yield back.
    Mr. Conyers. I thank the gentleman; and, without objection, 
all other Members' opening statements will be included in the 
record.
    We will now hear from Ms. Monica Goodling.
    Ms. Goodling served in a variety of capacities in the 
Department of Justice, beginning in the Office of Public 
Affairs, then for a short period in the U.S. Attorney's Office 
in the Eastern District of Virginia, then in the Executive 
Office for U.S. Attorneys, and most recently in the Office of 
the Attorney General where she was senior counsel to the 
Attorney General and White House Liaison.
    She received her law degree from Regent University School 
of Law in 1999.
    Ms. Goodling is accompanied by counsel, and we would please 
ask that he introduce himself for the record.
    Mr. Dowd. Good morning, Mr. Chairman.
    Mr. Conyers. Good morning, Mr. Dowd.
    Mr. Dowd. Mr. Chairman, John Dowd and Jeff King and Jim 
Sherry from Akin Gump Strauss are available on behalf of Ms. 
Goodling.
    Mr. Conyers. Thank you very much. We welcome you and are 
happy that you are here.
    Under our House Rules, Ms. Goodling is entitled to have 
counsel present for the purpose of advising her as to her 
constitutional rights; and we thank you very much, sir.
    Mr. Dowd. Thank you, Mr. Chairman.
    Mr. Conyers. I want to make sure you understand that your 
authorized role is to advise Ms. Goodling and, more 
specifically, to advise her as to her constitutional rights. 
With that understanding, we have furnished you with your own 
copy, Counsel, of the notebook we have given Ms. Goodling 
containing a number of documents that she may be questioned 
about today to facilitate you and her memory and cooperation. 
Have you received those documents?
    Mr. Dowd. I have, Mr. Chairman; and I appreciate it very 
much.
    Mr. Conyers. Thank you.
    Have you received them, Ms. Goodling?
    Ms. Goodling. Yes, thank you.
    Mr. Conyers. The documents are tabbed to make it easier to 
locate them if and when there is any necessity to use them. We 
have also provided copies of the notebook to our friends up 
here for the same purpose.
    Mr. Lungren. Mr. Chairman, point of personal privilege.
    Mr. Conyers. What is it?
    Mr. Lungren. You just referred to some documents. We don't 
have them at our place.
    Mr. Conyers. We gave a number of them----
    Mr. Lungren. Are those the ones that were just given to us 
beforehand?
    Mr. Conyers. Yes. Yes, sir. They are being copied now, Mr. 
Lungren.
    One housekeeping matter before we proceed, Ms. Goodling, 
our subpoena requires that you furnish us documents in your 
possession, custody or control relating to matters we are 
investigating; and although we have mentioned this to your 
counsel, we believe that the Committee is entitled to receive 
the documents without delay.
    We understand from counsel that you wish to confer with 
your former employer, the Department of Justice, before they 
are released to us; and we will work with you to give you a 
reasonable time to take care of that, reserving the right to 
take further action if necessary.
    Mr. Dowd. Mr. Chairman, we have the document.
    Mr. Conyers. You do have them. Thank you. Thank you, 
Counsel Dowd.
    Mr. Dowd. Mr. Chairman, I think we have already 
corresponded and communicated about the balance of them with 
both you and the Department of Justice.
    Mr. Conyers. Exactly.
    Mr. Dowd. Thank you sir.
    Mr. Conyers. Thank you, sir.
    Ms. Goodling, given the gravity of the issues we are 
discussing today and your role in the hearing and to help 
ensure that there is no misunderstanding about your obligation 
here, we would ask that you be sworn in before we proceed.
    Would you kindly raise your right hand?
    Stand and raise your right hand.
    [Witness sworn.]
    Ms. Goodling, let us begin. I will ask you who made the 
recommendations to place on the list of the United States 
attorneys to be fired each of the nine U.S. attorneys who were, 
in fact, terminated in 2006?
    Ms. Goodling. Upon the advice of my counsel, I respectfully 
decline to answer the question based upon my fifth amendment 
right not to be a witness against myself and my sixth amendment 
right to rely on my counsel's advice.
    Mr. Conyers. Ms. Goodling, I am hereby communicating to you 
an order signed by Chief Judge Hogan of the United States 
District for the D.C. District. The Clerk is bringing to you 
now a certified copy of the order, and we made a copy for your 
counsel. And, without objection, the order will be placed in 
the record.
    [The material referred to follows:]

 Order Immunizing the Testimony of, and Other Information Provided by, 
                     Monicva Goodling, May 11, 2007

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Conyers. The order provides, in substance, that you may 
not refuse on the basis of your fifth amendment privilege 
against self-incrimination to provide testimony or other 
information to this Committee under compulsion. The order also 
provides that testimony or other information obtained from you 
under compulsion pursuant to the order may not be used against 
you in any criminal proceeding nor may information derived from 
what you provide us under compulsion be used against you as 
long as the testimony and other information you provide us is 
truthful.
    As I am sure your counsel has no doubt advised you, you are 
obligated to answer each question completely and truthfully; 
and failure to do so could subject you to prosecution for 
perjury or for giving false statements to Congress. So I want 
you to be careful about how you answer each question; and if 
you occasionally need to confer with your counsel, Mr. Dowd, 
before answering a question, we will be happy to accommodate 
you in that regard. And if a Member has that happen, the clock 
will be suspended so that our time won't be running while she 
might be conferring with her counsel.
    With that said, Ms. Goodling, pursuant to the order you now 
have in front of you, I direct you to answer the questions that 
will be put to you regarding our investigation as I have just 
described it.
    This, Ms. Goodling, completes the procedure for conferring 
use immunity on you pursuant to the order.
    Now, before we begin questioning, Ms. Goodling, I 
appreciate that you have a statement in writing that you would 
like to make; and we welcome it at this time. We will include 
your statement in the record and invite you to begin whenever 
you would like.
    I ask the Clerk to distribute copies of Ms. Goodling's 
written statement to every Member of the Judiciary Committee.
    You may proceed whenever you would like.

 TESTIMONY OF MONICA M. GOODLING, FORMER SENIOR COUNSEL TO THE 
 ATTORNEY GENERAL AND WHITE HOUSE LIAISON, U.S. DEPARTMENT OF 
                            JUSTICE

    Ms. Goodling. Thank you, Mr. Chairman.
    Good morning, Chairman Conyers, Ranking Member Smith and 
Members of the Committee. Thank you for allowing me to make 
this statement.
    With the Committee's permission, I would like to submit 
lengthier written remarks to be entered into the record.
    Mr. Conyers. Without objection, so ordered.
    Ms. Goodling. My written remarks will address four topics 
that I expect will be of interest to the Committee.
    First, I wish to set the record straight regarding what I 
understood to be the Deputy Attorney General's allegation to 
Senator Schumer that I withheld information from him prior to 
his public and private testimony before the Senate Judiciary 
Committee.
    The allegation is false. I did not withhold information 
from the deputy. To the contrary, I worked diligently to 
compile and provide the Deputy with dozens of pages of 
statistics and other information that I thought he was likely 
to need based on the questions that were being asked at that 
time. Despite my and others' best efforts, the Deputy's public 
testimony was incomplete or inaccurate in a number of respects.
    As explained in more detail in my written remarks, I 
believe the Deputy was not fully candid about his knowledge of 
White House involvement in the replacement decision, failed to 
disclose that he had some knowledge of the White House's 
interest in selecting Tim Griffin as the interim U.S. attorney 
in the Eastern District of Arkansas, inaccurately described the 
Department's internal assessment of the Parsky Commission and 
failed to disclose that he had some knowledge of allegations 
that Tim Griffin had been involved in vote ``caging'' during 
his work on the President's 2004 campaign.
    After the Deputy's public testimony, I continued to work to 
assemble information that the Deputy had promised to provide in 
a future private session. On February 14, 2007, the Deputy 
attended a private briefing with the Senate Judiciary 
Committee. That afternoon, I rode with him to the Senate 
building, intending to observe the session and support the 
Deputy by providing any information that I had.
    However, a few minutes before the private Senate briefing 
was to take place, the Deputy made clear to me that he did not 
think I should attend. The Deputy suggested that if somebody 
recognized me as the White House Liaison, the Members would be 
more likely to ask questions about the White House. As a result 
of that conversation, I waited outside the room while the 
Deputy briefed the Senate committee.
    During a break, Richard Hertling told me the briefing was 
not going well and recommended that I return to the Department 
immediately. Like the Deputy, Mr. Hertling suggested it could 
complicate matters if I was recognized as the White House 
Liaison. As a result, I returned to the Department in a taxi.
    In light of these events, I was surprised to learn the 
Deputy has blamed me for his incomplete or inaccurate 
information.
    Second, I wish to clarify my role as White House Liaison.
    Despite that title, I did not hold the keys to the kingdom, 
as some have suggested. I was not the primary White House 
contact for purposes of the development or approval of the U.S. 
Attorney replacement plan. I have never attended a meeting of 
the White House Judicial Selection Committee. The Attorney 
General and Kyle Sampson attended those meetings.
    To the best of my recollection, I have never had a 
conversation with Karl Rove or Harriet Miers while I served at 
the Department of Justice; and I am certain I never spoke to 
either of them about the hiring or firing of any U.S. Attorney. 
Although I did have discussions with certain members of their 
staffs regarding specific aspects of the replacement plan, I 
never recommended to them that a specific U.S. attorney be 
added to or removed from Mr. Sampson's list; and I do not 
recall that they ever communicated any such recommendation to 
me.
    Third, I wish to address my role in selecting U.S. 
Attorneys for replacement.
    I first learned that others more senior to me were 
discussing the possibility of replacing some U.S. attorneys at 
some point in mid-2005, and I believe I first saw a list of 
candidates for replacement in January, 2006, when Mr. Sampson 
showed me a draft memorandum he was preparing for Harriet 
Miers. At that time, I recommended that two of the U.S. 
attorneys Mr. Sampson had listed be retained in office and that 
certain other U.S. attorneys be considered for replacement.
    Paul Charlton and Daniel Bogden were two of the U.S. 
attorneys that I recommended considering for replacement. 
However, it appears from the documents produced to Congress by 
the Department that Mr. Sampson did not initially accept that 
recommendation. Mr. Bogden and Mr. Charlton did not appear on 
iterations of the list sent to the White House in January, 
April or May and first appeared on the list in September, 2006, 
presumably for reasons unrelated to my initial recommendation.
    Although I am prepared to tell the Committee what I know 
about the eight replaced U.S. attorneys, the truth is that I do 
not know why Kevin Ryan, John McKay, Carol Lam, Paul Charlton, 
Daniel Bogden, David Iglesias and Margaret Chiara were asked to 
resign in December of 2006. I can describe what I and others 
discussed as the reasons for their removal, but I just can't 
guarantee that these reasons are the same as those contemplated 
by the final decision makers who requested these resignations.
    However, I am not aware of anybody within the Department 
ever suggesting the replacement of these U.S. Attorneys to 
interfere with a particular case or in retaliation for 
prosecuting or refusing to prosecute any particular case for 
political advantage.
    Fourth, I wish to clarify my role in career hiring at the 
Department.
    During my 5 years at the Department, I believe I 
interviewed hundreds of job applicants. The vast majority of 
these were applicants for political appointee positions, but 
some were applicants for certain categories of career 
positions.
    Specifically, I interviewed candidates who were to be 
detailed into confidential, policy making positions and 
Attorney General appointments, such as immigration judges and 
members of the Board of Immigration Appeals. I also reviewed 
requests for waivers of hiring freezes imposed on districts 
with an outgoing U.S. Attorney or an interim or acting U.S. 
attorney.
    In every case, I tried to act in good faith and for the 
purpose of ensuring that the Department was staffed by well-
qualified individuals who were supportive of the Attorney 
General's views, priorities and goals. Nevertheless, I do 
acknowledge that I may have gone too far in asking political 
questions of applicants for career positions; and I may have 
taken inappropriate political considerations into account on 
some occasions. And I regret those mistakes.
    In conclusion, I would like to give the Committee a little 
better sense of who I am, because the person that I read about 
on the Internet and in the newspaper is not me. At heart, I am 
a fairly quiet person. I try to do the right thing, and I try 
to treat people kindly along the way. I always knew that I 
wanted to grow up and do something to serve or help other 
people. I went to public schools growing up, but I chose 
Christian universities in part of because of of the value they 
place on service.
    I have seen in my life what violent crime can do to its 
victims, and I knew at some point I wanted to do my part to 
seek justice on their behalf. That is why I loved the 
Department of Justice, particularly my time as a prosecutor. 
For the 5 years that I spent there, I worked as hard as I could 
at whatever task that was put before me; and I hope that is the 
reason that I was promoted five times during my time at the 
Department.
    I considered the people that I worked with to be my family, 
and I care about them deeply. I have no desire to say anything 
negative about anyone that I worked with, including the 
leadership team or the U.S. attorneys who are the subject of my 
testimony. But I am here to be a fact witness to what I heard, 
saw, did, or know; and I will do that to the best of my 
recollection.
    Thank you for allowing me the time to make this statement. 
I am prepared to answer your questions.
    Mr. Conyers. And I thank you for your statement.
    [The prepared statement of Ms. Goodling follows:]

                Prepared Statement of Monica M. Goodling

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Conyers. Let me begin the questioning, and I want to 
just go back to the beginning here. Could you tell the 
Committee who made the recommendations to place on the list of 
U.S. attorneys to be fired each of the nine U.S. attorneys who 
were in fact terminated last year?
    Ms. Goodling. Mr. Conyers, let me just say that, in 
relation to Todd Graves, who I believe you are considering as a 
ninth, my recollection on that is slightly conflicting 
testimony--or memories, so I would prefer to leave him out of 
most of what I talk about today, if I could.
    Mr. Conyers. You are going to be talking about the eight.
    Ms. Goodling. Right. Right. I am happy to tell you what I 
remember about Mr. Graves, but in my mind I have slightly 
conflicting memories of what happened there. So for purposes of 
the testimony I would prefer to reference the eight.
    In terms of those eight, I know that Mr. Sampson compiled 
the list; and I know that he told me at different times he 
talked to different people about it. He never told me exactly 
who recommended which name and at what time they did that, and 
that is----
    Mr. Conyers. So, from your point of view, your answer to 
the question would be Kyle Sampson.
    Ms. Goodling. Mr. Sampson compiled the list. I know that he 
did speak to the Deputy Attorney General about it, and I know 
he presented it to the Attorney General.
    Mr. Conyers. And the Attorney General being Mr. Alberto 
Gonzalez?
    Ms. Goodling. Yes, sir.
    Mr. Conyers. Now, let's just take one example, the one that 
is so paramount here. David Iglesias, who was not put on the 
list to be fired until November 2006, according to our records, 
who put his name on the list, ma'am?
    Ms. Goodling. I don't know.
    Mr. Conyers. Well, who would you recommend a Committee, 
just seeking the facts in this matter, who would you recommend 
to answer that question?
    Ms. Goodling. I think Mr. Sampson is the only person who 
can tell you at what point he put that name on the list. I can 
tell that you before I left the Department, because there were 
questions about Mr. Iglesias, we had a staff meeting; and I 
believe the Attorney General, the Deputy Attorney General were 
in the room, as well as a number of those of us who had been 
involved in this process.
    Mr. Conyers. The Deputy Attorney General and the Attorney 
General.
    Ms. Goodling. Right. It was toward the end of my time, and 
I said--I asked the question at that point, I still don't know 
how Mr. Iglesias got on the list, and someone in the room just 
said that has been addressed. And that was all they said, so I 
didn't get from that answer an answer that I could provide to 
the Committee.
    Mr. Conyers. Do you know who it was that gave that answer?
    Ms. Goodling. I don't remember.
    Mr. Conyers. Now, what did Mr. Kyle Sampson tell about the 
origins of the process and how he came up with the names that 
were on the list? And I know you have had a number of 
discussions with him, but just pulling them all together, as 
you can best recall.
    Ms. Goodling. To the best of my recollection, the first 
time he mentioned it to me was in January when he stopped by my 
office with a draft copy of the memorandum and asked me to take 
a look at that. I don't believe he gave me any context at that 
time.
    I had heard that he was engaged in this effort mid-2005 
because I was working in the Executive Office for U.S. 
attorneys, and I know that he had spoken with both Mary Beth 
Buchanan and Mike Battle at various points, and they had 
mentioned it to me. So I knew that he had been engaged in some 
effort to evaluate U.S. attorneys before I spoke to him in 
January about it, but that is the first time I recall, and I 
don't remember him telling me--giving me any background at that 
point other than just handing me the memo and asking me to take 
a look at it.
    Later in the year, he sent me a memo in September--an e-
mail in September; and, again, because he sent me the e-mail, I 
don't remember that he gave me any context, of course, other 
than what was in the e-mail. I think----
    Mr. Conyers. That was last year, in 2006?
    Ms. Goodling. Yes. I am sorry, September of 2006.
    When we had the November 27th meeting, I feel like he did 
discuss a little bit of the context of this is something that 
he had been working on for a while. But, you know, I don't 
recall that we had any specific conversation where he sat down 
and laid out to me the origins of the entire thing.
    There was some point that I remember him mentioning to me 
that he had consulted with different people throughout, you 
know, throughout time. But, you know, he was my boss; and he 
didn't necessarily explain everything that he was doing or why 
to me. He just sometimes asked for my help, and I tried to 
provide it.
    Mr. Conyers. He didn't have to explain everything he was 
doing and why, did he, because he was your boss.
    Ms. Goodling. Because he was my boss. I am sure that there 
were other conversations, but if your question is asking, you 
know, did he ever sit down and lay out for me exactly what this 
was all about, I don't recall that there was ever any point 
that he did that. It was just kind of from time to time he 
would show me something and ask for my thoughts; and, you know, 
I would gather some context from it.
    That is the best I can do.
    Mr. Conyers. Thank you very much.
    My time is expired. Ranking Member Lamar Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Ms. Goodling, thank you for your comment about how 
important you consider public service to be and that being the 
motivation for what you had done. I certainly can appreciate 
your heartfelt comment about not recognizing a lot of what has 
been written about you. I think you would do a lot to counter 
that in your testimony today.
    Also, I want to thank you for your candor. You have said 
that you would, in fact, do some things differently; and we 
appreciate hearing that as well.
    I just want to emphasize a couple of points in your 
testimony and then ask you a couple of additional questions as 
well.
    Once again, did you ever have any contact with, say, 
Harriet Miers about the replacement of any of these U.S. 
attorneys?
    Ms. Goodling. No.
    Mr. Smith. Did you ever have any contact with Karl Rove 
about the replacement of any of these U.S. attorneys?
    Ms. Goodling. No conversation before the decision was made. 
There was one meeting at the White House after the decision had 
been implemented and he attended a meeting that I was also at, 
but that was the only time I was in the room when this topic 
was discussed.
    Mr. Smith. Did you talk to anybody at the White House about 
the need to replace U.S. attorneys?
    Ms. Goodling. About the need to replace U.S. attorneys? I 
don't believe--I don't recall any conversations, but, to be 
complete, I should inform the Committee that there was--I 
believe in 2005 I had a social call at some point with Tim 
Griffin who indicated to me--and he was working at the White 
House at the time--that he may have the opportunity to go back 
to Arkansas because some U.S. attorneys may be replaced; and if 
Mr. Cummins was one of them, he might get a chance to go home.
    And, of course, I did exchange e-mails with Scott Jennings 
about meeting with some lawyers from New Mexico, but I don't 
remember that Scott Jennings even told me what the subject of 
that meeting was supposed to be.
    Mr. Smith. You testified a few minutes ago about your role. 
How would you describe your role in the decision to replace 
U.S. attorneys? Would you describe it as direct or indirect or 
significant or minor? How would you describe your role?
    Ms. Goodling. You know, I am not sure that I am comfortable 
characterizing it. I will let others make that assessment. 
Certainly, I saw a draft memo in January. I had forgotten it, 
frankly, for a long time. But I did.
    And I saw an e-mail in September, and I was involved in the 
November 27 meeting. The way I probably would characterize my 
role without giving it a qualifier is to say I was responsible 
more for what happened after the plan was implemented than 
maybe the plan itself.
    My role was really to help ensure that once we had a 
vacancy that we were carrying out the process of interviewing 
candidates and doing the paperwork that's necessary to make 
sure that we have a nomination eventually.
    Mr. Smith. Thank you for that answer.
    A couple more questions. When you were helping prepare 
individuals to testify, did you ever intentionally withhold 
information from or mislead those you were helping to prepare 
to testify?
    Ms. Goodling. No.
    Mr. Smith. And last question for you, to the best of your 
knowledge, do you know whether the Department or the White 
House requested a resignation of any of the eight U.S. 
attorneys to retaliate for, interfere with or gain a partisan 
advantage in any case or investigation, whether about public 
corruption or any other type of offense?
    Ms. Goodling. I have no knowledge along that line.
    Mr. Smith. Thank you, Ms. Goodling, for your testimony 
today.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Conyers. Thank you.
    Congresswoman, Subcommittee, Committee Chair, Linda Sanchez 
is recognized.
    Ms. Sanchez. I thank the Chairman.
    Ms. Goodling in your written testimony you stated that you 
had some concerns about Deputy McNulty's testimony before 
Congress. In what way were Deputy McNulty's statements to 
Congress misleading?
    Ms. Goodling. I think in some ways he simply didn't 
communicate all that he knew. And I am certainly not saying 
that he did it deliberately. Testifying is, as I am finding out 
right now, a difficult thing, and I am sure there will be 
things I don't remember, and I am going to try to be complete, 
but there may be things that I leave out as well.
    So I am not saying it was deliberate. But what I am saying 
is, when I looked back on the testimony, I believe that there 
were a number of things that I did brief him on; and that 
information wasn't fully revealed. I am just trying to address 
the fact that I felt like he accused me of withholding 
information, and I felt like I had provided some information 
that didn't get communicated.
    Ms. Sanchez. I understand. Can you be more specific? What 
things did you specifically brief him on that you felt that he 
was not entirely forthcoming before Congress when he testified?
    Ms. Goodling. He was asked whether the White House was 
involved in any way; and he said, well, these are Presidential 
appointments, so I am sure White House personnel was informed 
at some point. Certainly----
    Ms. Sanchez. Why would that not be a complete answer?
    Ms. Goodling. I think because of the way it came across I 
think that people believed he was downplaying the role to a 
certain extent. And the White House had been involved for 
several--he was aware that the Department had worked for at 
least several months with the White House and that many offices 
in the White House had signed off and that they were, in fact, 
you know, participating and making phone calls and different 
sorts of things with Members.
    Ms. Sanchez. Would it be fair to say that you believed that 
Deputy McNulty knew about the White House's role in the firing 
of the U.S. attorneys but wasn't--sort of diminished that 
before Congress, wasn't completely forthcoming with how active 
a role the White House played or was involved in?
    Ms. Goodling. They were involved in the sign-off. There 
were many offices that did sign off on the plan before it was 
implemented; and I am just taking about the sign-off and then 
the actual notification, phone calls and that sort of thing.
    I just felt that the statement didn't fully express the 
fact that the White House was involved in the sign-off of the 
plan at the end. At least that is the part that I knew about. 
And that that--he at least knew that that was a process that 
had been going on for some period of months.
    There were--there were other things.
    Ms. Sanchez. Such as?
    Ms. Goodling. His knowledge of how Tim Griffin came to be 
recommended for the appointment in the Eastern District of 
Arkansas. I met with the Deputy Attorney General almost every 
week to talk about specific U.S. attorney vacancies because he 
was so interested in the topic. As far as I know, that may be 
the first time that someone--he was involved in the process, 
provided weekly briefings. But he was very interested, and so 
every week I would meet with him, and we would go down a list 
of where we had vacancies and if there was any new news there, 
whether we received names from Senators, whether we set up 
interviews, how the interviews had gone----
    Ms. Sanchez. So you believe his knowledge of how Tim 
Griffin became recommended for that position--he wasn't fully 
forthcoming?
    Ms. Goodling. I know I would have told him over the 6 
months that that process was going on that he had worked with 
the White House, and the White House did want to provide him 
with an opportunity. I am not sure I would have told him who in 
the White House, because I am not sure that I ever knew who in 
the White House wanted it. But certainly I believe there was 
some information about Tim Griffin's appointment that I would 
have communicated in those weekly meetings.
    Ms. Sanchez. Aside from those two examples, are there any 
others?
    Ms. Goodling. He testified that the Parsky Commission 
worked very well. That is a Commission that refers to the 
California selection process. And one of the things that I had 
been briefing him on was the fact that we had a vacancy in the 
Central District of California; and, in the fall, we did take 
steps to interview some candidates outside that weren't 
recommended by the Commission. And the reason that we did that 
was because Mr. Sampson told me that he and the Attorney 
General believed that in some cases the Parsky Commission was 
rather slow and that they sometimes didn't include all the 
candidates that they had an interest in considering. And so we 
actually had interviewed candidates outside that process.
    Ms. Sanchez. So you believed that his testimony that it 
worked very well was not exactly accurate, because you had--
there had been a way to go around that because it wasn't 
working----
    Ms. Goodling. In January, he was accurate in saying that we 
were committed to working with it. By the time January had come 
along, we--the decision had been made, I believe at the White 
House, that we would continue to use the Parsky Commission; and 
we were using it in relation to the two new vacancies that were 
created there.
    And the last thing was the voter--the caging issue, which 
was a reference to Tim Griffin.
    Ms. Sanchez. Can you reference what caging is? I am not 
familiar with that term.
    Ms. Goodling. My understanding--and I don't actually know a 
lot about it--it is a direct mail term that people who do 
direct mail, when they separate addresses that may be good 
versus addresses that may be bad--that is about the best 
information that I have. That it just--it is a direct mail term 
that is used by vendors in that circumstance.
    But, in any case, I knew that that was an issue that might 
arise, because there had been stories about it.
    Ms. Sanchez. That Tim Griffith was involved in that to some 
degree or may have been involved?
    Ms. Goodling. Right. And I believe that Mr. Griffin doesn't 
believe that he did anything wrong there and there actually is 
a very good reason for it, a very good explanation.
    Ms. Sanchez. But Mr. McNulty was aware of that?
    Ms. Goodling. He was aware that was an issue. I told him 
the day before that there was a good chance that it could come 
up, and I did provide him with information the night before to 
make sure that he had some information to review so he could 
help to answer those questions.
    Mr. Conyers. Gentlelady's time is expired.
    The Chair now recognizes Chris Cannon, the Ranking Member 
on the Subcommittee for Commercial and Administrative Law. The 
gentleman from Utah is recognized.
    Mr. Cannon. Thank you, Mr. Chairman.
    Ms. Goodling, I would like to thank you for having--
actually, I am over here, Ms. Goodling. Down the line here next 
to my good friend, Mr. Lungren.
    I want to thank you for being here today and for your 
equanimity in difficult times.
    I would like to read a couple of things into the record 
here. One is a statement--I think this is Mr. Moschella, who 
was asked about Mr. Sampson and you and Mr. McNulty. He 
responded, I found these people to be hardworking, smart 
people, trustworthy, exercised good judgment. So that is my 
general feeling about them. I mean, it is not unusual to find 
Monica Goodling BlackBerrying people at 2 in the morning and 
just working hard and being diligent about a number of matters.
    This is Mr. Moschella again. I specifically asked Monica if 
she would put this together, because I didn't think the chart 
was very user friendly.
    And why did you choose Ms. Goodling to make this document 
was the question. Well, she was, you know, actively involved in 
my preparation. We didn't have a lot of stuff. As you see, this 
was a sent to me at 9:56 the night before; and she was willing 
to put it together. So, very obviously, very hardworking.
    And this, I believe, is--so I think that you have a good 
reputation in the Department. I think that Mr.--I had earlier 
read into the record statements by Mr. Margolis about what a 
thoughtful and capable person you are, and you certainly showed 
that thus far in your testimony. So thank you for being so 
forthcoming, and I apologize for the inconvenience.
    I know that we have had many discussions with your lawyer 
and also with--about the nature of your testimony. That has 
been very direct. I don't see that it is going to advance the 
debate very much.
    Mr. Conyers initiated the discussion today by talking about 
getting to the bottom of U.S. Attorney matter and the 
politization of the Department of Justice. And I think that has 
probably not gotten us--what we have done here over the many, 
many hours of Committee work and staff work and dozens of 
interrogations of people, I am not sure we have advanced those 
two issues. Because I don't think that we have had a problem 
with these. At least you haven't been able--the Committee has 
not been able to show that there has been a problem there.
    But, on the other hand, we are not doing this in a vacuum; 
and would I like to read from the L.A. Times about another 
problem we have facing Congress that we are not actually 
dealing with here, which I think is relevant in balancing out 
the vituperation that has tended to go on.
    May 23, 2007: ``Murtha's misstep. The Pennsylvania Democrat 
tarnishes the party's image and nearly receives a reprimand 
playing `earmark' politics.
    ``With Democrats like Representative John P. Murtha of 
Pennsylvania, House Speaker Nancy Pelosi doesn't need 
Republicans. After Pelosi promised that Democrats would preside 
over the most honest, the most open and the most ethical 
congress, Murtha, whom Pelosi unsuccessfully pushed for 
majority leader, described a Democratic lobbying proposal as 
total crap.'' his words. ``he graciously added, however, that 
he would support the legislation because that is what Nancy 
wants.
    ``Murtha's latest gift to Pelosi is a confrontation in 
which he allegedly told Representative Mike Rogers, Republican 
of Michigan, who had opposed one of Murtha's pet projects, I 
hope you don't have any earmarks in the defense''--I can't 
quite say it the way Mr. Murtha said it. But with a great deal 
more intensity than I am putting in my voice, he said, ``I hope 
you don't have any earmarks in the defense appropriations bill 
because they are gone, and you are not going to get any 
earmarks now and forever. Rogers, a former FBI agent, asserted 
that Murtha had turned the House floor into a episode of The 
Sopranos, and he filed a resolution accusing his colleague of 
violating House Rules. On Tuesday, the resolution was 
tabled''--meaning it is not going to proceed--``on a largely 
party line vote''--actually, it was a party line vote with 
Members of the Ethics Committee voting present, as is our 
custom here. So--``on a largely party line vote, but not before 
Democrats were put excruciatingly on the defensive on what 
Pelosi has made a signature issue.''
    Ms. Wasserman Schultz. Mr. Chairman, parliamentary inquiry.
    Mr. Cannon. I am about done with this article, Mr. 
Chairman.
    ``on what Pelosi has made her signature issue.'' that is 
ethical reform. ``expect Republicans to continue making 
Sopranos jokes.
    ``actually, Tony Soprano is less likely a model for Murtha 
than Lyndon Johnson''--who was a tough guy and who played by 
rules that we tried to change.
    He goes on, ``It doesn't help the Democrats' image that 
this dispute over Murtha's comments originated in an earmark, a 
special-interest provision''----
    Thank you, Mr. Chairman; and I yield back the balance of my 
time.
    Mr. Conyers. There wasn't any balance left.
    The Chair recognizes the senior Member of the Judiciary 
Committee, Howard Berman of California.
    Mr. Berman. Thank you, Mr. Chairman; and I yield my time 
for relevant questioning to the gentlelady from California, Ms. 
Sanchez.
    Ms. Sanchez. And I thank the gentleman for yielding.
    To get back to the subject matter of this hearing, Ms. 
Goodling, you said you had some concerns about Mr. McNulty's 
testimony before Congress. To whom at the Department of Justice 
did you voice those concerns?
    Ms. Goodling. I voiced them to a number of people, and some 
of my concerns related--or the majority of my concerns related 
more to I thought where we were going to be headed after the 
testimony. I was very concerned. I didn't want us to go out and 
say bad things about our U.S. attorneys.
    Ms. Sanchez. But to whom did you----
    Ms. Goodling. So when I left the hearing I spoke first with 
Will Moschella, and I expressed some concern that--I expressed 
concern about providing negative information about people who 
had worked for us first. I went back to the Department, and I 
went into Kyle Sampson's office, and I told him that I did not 
think that the hearing had gone all that well, and I told him 
some of the things that the Deputy had indicated he would 
provide.
    And I believe I did mention some of my concerns about some 
of the things that I thought he had said, but I think the focus 
of what my concern was really that I was afraid that we were 
going to go down a road of saying bad things about people who 
had worked for us publicly.
    Ms. Sanchez. So you didn't express a concern to either Mr. 
Moschella or Mr. Sampson that the testimony might not have been 
complete or might have been misleading to some degree? It was 
just you didn't want to say bad things about people?
    Ms. Goodling. I did say to Mr. Sampson--I did say there 
were a couple of things that I didn't think were fully right.
    Ms. Sanchez. Aside from Mr. Moschella and Mr. Sampson, was 
there anybody else that you voiced those concerns to?
    Ms. Goodling. I talked to Mike Elston after that.
    Ms. Sanchez. Anybody else besides Mr. Elston?
    Ms. Goodling. I talked to Tasia Scolinos, but our 
conversation just related more to--it was a very short 
conversation.
    Ms. Sanchez. Besides those four, anybody else?
    Ms. Goodling. I don't think so.
    Ms. Sanchez. Okay, thank you.
    Before you joined the Executive Office of U.S. Attorneys in 
the spring of 2005, did you have any experience in making 
personnel decisions involving the hiring or the firing of 
employees?
    Ms. Goodling. Yes. Putting aside college, where I was a 
student body president and we actually did hire people to work 
on various organizations----
    Ms. Sanchez. In a professional capacity outside of college.
    Ms. Goodling. At the Republican National Committee, I was 
the deputy director there of research and strategic planning 
and----
    Ms. Sanchez. Hiring and firing----
    Ms. Goodling. I did some in the research department----
    Ms. Sanchez. How did you get your position at the EOUSA? 
Who hired you?
    Ms. Goodling. I interviewed with Mary Beth Buchanan, who 
was the director at the time.
    Ms. Sanchez. At EOUSA you were involved in the hiring 
process for nine of the assistant U.S. Attorney positions in 
offices of acting or interim U.S. Attorneys, is that correct?
    Ms. Goodling. Yes.
    Ms. Sanchez. And press reports say that you insisted that 
you retain your power to review the hiring of AUSA's after you 
became an aide to Alberto Gonzalez, is that correct?
    A.Yes, when I first--when I was in the executive office, I 
would refer significant requests to Mr. Sampson, who was in the 
AG's office at the time. So when I moved to the AG's office and 
basically took that role, my position in the executive office 
remained vacant for a long time, so there was somebody in the 
executive office to do it----
    Ms. Sanchez. But you did retain your power to review the 
hiring as an AUSA--what leverage did you have to make any 
demands on the Attorney General to retain that power? If the 
position became vacant and you were doing the interim, I am 
assuming you filled the position, and why would you still 
retain power of hiring and firing?
    Ms. Goodling. Because I had referred significant requests 
to Mr. Sampson before I moved--you know, those were things that 
they just kept referring to me. I didn't mind doing it. I kind 
of liked having--being able to provide input on----
    One of the questions I would often ask Mr. Sampson was, do 
we think we are going to have a new U.S. Attorney soon? How 
long would it be? You know, if we held on to the waiver--you 
know, if it was going to be 6 more months before a new U.S. 
Attorney showed up, the waiver request might be more 
reasonable. But if a new U.S. attorney was going to be there in 
a few weeks, of course, you would want them to be involved in 
the hiring decision.
    Ms. Sanchez. Let me ask you about this. Recent press 
reports state that you moved to block the hiring of assistant 
U.S. Attorneys with resumes that suggested that they might be 
Democrats. A recent Newsweek article said you attempted to 
block the hiring of a prosecutor in the office of Jeff Taylor, 
the U.S. attorney for D.C., for being a, ``liberal democratic 
type;'' and the New York Times reports that this was a Howard 
University law school graduate who worked at the EPA. Did that, 
in fact, occur?
    Ms. Goodling. I think that when I did look at that resume I 
made snap judgment, and I regret it.
    Ms. Sanchez. So that did occur? You blocked that hiring?
    Ms. Goodling. I didn't block it permanently. He was hired, 
but I delayed it.
    Ms. Sanchez. How many applicants did you block or delay on 
the basis of what their potential political leanings might have 
been?
    Ms. Goodling. I wouldn't be able to give you a number. I 
don't think--feel like there were many cases where I had those 
thoughts. Most of the time I looked at waiver requests I made 
them strictly based on, you know, whether there wasn't 
extraordinary need and I agreed with it and how long it would 
be till the new U.S. Attorney got there----
    Mr. Conyers. The time of the gentlelady is expired. You can 
finish your comments, ma'am.
    Ms. Goodling. But I want to be honest. There were cases 
when I looked at resumes and I thought, you know, I don't know 
if this is the person the new U.S. Attorney would want to hire. 
Why don't we wait and let them take a look at the request; and 
if they want to hire them when they get there, they can.
    Ms. Sanchez. I would like to ask the Chairman for unanimous 
consent to enter into the record the New York Times and 
Newsweek articles about the decisionmaking for hiring and 
firing based on----
    Mr. Conyers. Without objection, so ordered.
    [The material referred to follows:]
 Article from Newsweek, May 14, 2007, submitted by the Honorable Linda 
T. Sanchez, a Representative in Congress from the State of California, 
                 and Member, Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Article from The New York Times, May 11, 2007, submitted by the 
Honorable Linda T. Sanchez, a Representative in Congress from the State 
         of California, and Member, Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Conyers. The Chair recognizes the former Chairman of 
Judiciary, Jim Sensenbrenner of Wisconsin.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. Ms. 
Goodling, welcome here. I know this is not a pleasant 
experience, and I think that basically what your testimony has 
been doing is confirming the documentation that has been 
submitted to this Committee. I have a few questions. The first 
is are you aware that U.S. Attorneys are appointed for terms of 
4 years?
    Ms. Goodling. Yes.
    Mr. Sensenbrenner. Were all of the U.S. Attorneys who were 
replaced, had their terms of 4 years expired?
    Ms. Goodling. The eight, yes.
    Mr. Sensenbrenner. Yes. With respect to Carol Lam, who was 
the U.S. Attorney in the Southern District of California, which 
is in San Diego, were you aware that on June 15th of 2006, 
Senator Feinstein wrote Attorney General Gonzales expressing 
concern about the fact that Ms. Lam had not been vigorous in 
prosecuting criminal alien smugglers within that district?
    Ms. Goodling. Yes.
    Mr. Sensenbrenner. And were you aware that the Attorney 
General did respond to Senator Feinstein in a letter that 
contained a lot of statistics?
    Ms. Goodling. Yes, although I don't think I saw it until 
sometime this year.
    Mr. Sensenbrenner. Well, this being the case that all of 
the U.S. Attorneys whose terms had expired, or were subject to 
replacement, what is so unusual about replacing somebody whose 
fixed term had expired and consequently would either have to be 
reappointed or would have to be replaced with somebody else?
    Ms. Goodling. I don't know that there is anything. I don't 
know that this is a road that I would have decided to go down 
if it had been up to me. But I certainly supported the effort 
because I believed the President does have the right to be 
served by the best people that he can find and people that he 
would like to have serve him. So I believe he has the right to 
make changes if he would like to.
    Mr. Sensenbrenner. Isn't this an exercise of legitimate 
executive power, which practically every President, up to and 
including the current one, exercises all the time with 
officials within the executive branch subject to his 
appointment?
    Ms. Goodling. I believe it is.
    Mr. Sensenbrenner. Now, you know, let me say that this 
Committee has spent $250,000 of the taxpayers' money basically 
in investigating the replacement of U.S. Attorneys whose terms 
had expired. I was the Chairman of this Committee for 6 years 
during the Bush administration and the Chairman of the Science 
Committee for 4 years during the Clinton administration. I 
never signed a subpoena because I didn't have to, and I never 
asked my Committee to request the Justice Department to obtain 
a grant of immunity to anybody. It seems to me that with this 
fishing expedition there ain't no fish in the water and we have 
spent an awful lot of time and an awful lot of money finding 
that out.
    I yield back the balance of my time.
    Mr. Conyers. The Chair recognizes now the Chairman of the 
Constitution Subcommittee, Jerry Nadler of New York.
    Mr. Nadler. Thank you, Mr. Chairman. Ms. Goodling, before 
you came here to testify you asserted your fifth amendment 
right against self-incrimination and you were granted immunity.
    Ms. Goodling. Yes.
    Mr. Nadler. To assert fifth amendment privilege you are in 
effect asserting that you are aware of crimes that may have 
been committed and you are saying that you don't want to be 
implicated. What crimes are you aware of that you feared your 
testimony might be asked about?
    Ms. Goodling. I don't believe that I committed any crime.
    Mr. Nadler. I didn't ask if you committed. I said what 
crimes were you aware of, or possible crimes were you aware of 
that caused you to be concerned enough to seek--to claim the 
fifth amendment.
    Ms. Goodling. I asserted the fifth amendment based on the 
fact these were very ambiguous circumstances in which to 
testify, and I believed that the Deputy Attorney General had 
made an allegation that I had deliberately withheld information 
from him. And I believed that that was a concern. And I 
wanted----
    Mr. Nadler. Okay. So in other words that his allegation 
might be construed by some as a crime was your concern?
    Ms. Goodling. Those were the--that was the basis for my 
exercise.
    Mr. Nadler. Okay. And are you aware of--well, let me--thank 
you. Let me pursue that a moment. You testified a few minutes 
ago about the Deputy Attorney General, Mr. McNulty, his 
testimony, which you said was not correct in all respects. In 
your written statement you go into some detail into how 
incorrect it was, and you talk about he did not have--that he 
testified that he did not have any knowledge of how Tim Griffin 
came to be recommended for an interim appointment. In fact, you 
had informed him of the effort to remove Bud Cummins in order 
to arrange an opportunity for Mr. Griffin since the spring or 
early summer. The status of the Arkansas office came up 
frequently in your briefings over the next 6 months. He 
testified that the Parsky Commission worked very well, and they 
respected the process, while in fact he knew that the 
Department's internal assessment was to the contrary. The 
deputy also knew that although a determination had been made to 
continue to use it, there had been some efforts to interview 
candidates outside the Parsky Commission process, and that he 
was aware of the Department's dissatisfaction with the 
commission's process because you briefed him. And you also 
testified that he testified that he did not know anything about 
allegations that Tim Griffin caged Black votes, but that in 
fact you had informed him that this issue could arise and you 
had prepared him to answer the questions about it.
    These would seem to be direct contradictions, and in effect 
your testimony is that the Deputy Attorney General misinformed 
the Senate Judiciary in sworn testimony. Is that not correct?
    Ms. Goodling. I am just saying that I didn't believe he was 
fully candid, and the point that I was trying to make is I did 
give him some information. I didn't withhold information. I 
gave him a lot of information. And he had some of that 
information and didn't use all of it.
    Mr. Nadler. Although in fact he stated things directly 
contrary to what your written statement says he knew to be 
true.
    Ms. Goodling. Those would be conclusions for others to 
draw.
    Mr. Nadler. Okay. That is fair enough. Now, let me switch 
topics for a moment and get back to follow up on some of what 
Ms. Sanchez was asking about hiring--or rather asking political 
questions of non-political hirings.
    The New York Times discussed Robin Ashton, a career 
prosecutor serving on detail to the Executive Office of U.S. 
Attorneys, who was slated to become a career Deputy Director of 
EOUSA at around that time. According to the article, the head 
of EOUSA told Ms. Ashton that she had a Monica problem, because 
you believed she was a Democrat and couldn't be trusted, and 
therefore shouldn't get the career job.
    Is that correct? Did you seek to deny her a promotion 
because you believed she was a Democrat?
    Ms. Goodling. It wasn't my decision to make or not make in 
terms of giving her a promotion. When I got to the Executive 
Office, I was actually excited about working with Ms. Ashton 
because she had a lot of really good experience as a 
prosecutor, much more than I did, and I thought that we would 
complement each other very well. You know, looking back on it, 
I think it was mostly the case of two type A women. She had 
been in the office as the only deputy----
    Mr. Nadler. You did not recommend that she should not be 
promoted?
    Ms. Goodling. You know, I don't really remember the 
discussions back at that time very well. What I remember was 
that she had been the deputy for a long time by herself, and 
when I arrived a lot of the responsibilities that she had were 
shifted to me. I thought she resented that, and as a result, it 
made for a tense office environment.
    Mr. Nadler. Okay. Now, in general you have testified in 
your--or there has been statements made, and you have 
essentially agreed with that and regretted it, and there is 
testimony today and in your written testimony that you did ask 
a number of people, either for career positions in the Justice 
Department or for assistant U.S. Attorney positions, questions 
about their political beliefs or affiliations.
    Ms. Goodling. Yes. Let me clarify, though, that I didn't 
actually interview AUSA candidates.
    Mr. Nadler. Did you ask such questions? My one question is 
were any of your superiors in the Justice Department aware, or 
did anybody instruct you or suggest that these questions should 
be asked, or agree with these questions being asked, or were 
aware that you were asking such kinds of questions either for 
assistant U.S. Attorneys or for any other career position--or 
for career positions at all?
    Ms. Goodling. In some cases, relating to immigration 
judges, when I started my position as White House Liaison, I 
was informed that the Office of Legal Counsel had said that 
because those were positions under a direct appointment 
authority of the Attorney General that we could consider other 
factors in those cases. Later, concerns were raised as a result 
of some litigation, and the Civil Division came to a different 
conclusion. As a result of that, we actually froze hiring late 
in December of last year. But certainly my super----
    Mr. Nadler. You froze hiring why?
    Mr. Conyers. The gentleman's time has expired. You can 
finish your answer, ma'am.
    Ms. Goodling. We froze hiring in relation to immigration 
judges. There were some other times when I was asked to help 
facilitate the placement of somebody that we knew to be 
Republican in career positions, and sometimes those were at the 
requests of other people in the Department.
    Mr. Nadler. Thank you.
    Mr. Conyers. The Chair is pleased to recognize the 
gentleman from North Carolina, the Ranking Member on the 
Intellectual Property Subcommittee, Mr. Howard Coble.
    Mr. Coble. Thank you, Mr. Chairman. Ms. Goodling, good to 
have you with us today. Ms. Goodling, as the distinguished 
Ranking Member stated earlier, the U.S. Attorneys do in fact 
serve at the pleasure of the President. That's been lost in the 
shuffle it seems. Having said that, I recall reading two 
articles, Ms. Goodling, and just because I read articles does 
not mean they are accurate. But one article indicated that the 
eight U.S. Attorneys were terminated because of poor 
performances. I read a second article that indicated most of 
the eight did in fact have good performances.
    Can you elaborate on that, A, and B, who was responsible 
for evaluating the performances of the U.S. Attorneys.
    Ms. Goodling. I believe the person responsible for 
evaluating the U.S. Attorneys is the Deputy Attorney General 
and the Attorney General of the United States. I think some of 
the confusion here is because offices do undergo what we call 
EARS evaluations. I would explain that more as a checkup of the 
office, but not necessarily of the U.S. Attorney. It is 
certainly true the EARS reports do make conclusions about the 
effectiveness of the U.S. Attorney. But for the most part, EARS 
evaluations are very in depth, and they are designed to look at 
the legal practice in the office and the administrative 
procedures. So for example, they would check to see if there is 
an inappropriate chain of indictment review. They would check--
they would evaluate the supervisory structure on the 
administrative side. They would check the books and make sure 
that the accounting is done properly, that security procedures 
were being followed appropriately. And they make a lot of 
recommendations. In some cases, EARS reports are hundreds of 
pages long because they are really looking at nuts and bolts of 
the offices. And certainly it is true that they do in some 
cases reveal that there are problems in the office that relate 
to the U.S. Attorney. And in some cases they make conclusions 
that the U.S. Attorney is very effective. But the person who 
would have the most information about the U.S. attorney's 
performance is I think going to be people at Main Justice, 
because they are the ones that are working with the U.S. 
Attorney every day. They are the ones that have the opportunity 
to see when there is problems. Those are things that are going 
to be elevated above the U.S. Attorney.
    Mr. Coble. Thank you, Ms. Goodling. Ms. Goodling, explain 
your role--I think most of us are familiar with it, but explain 
your role in serving as the White House Liaison to the Justice 
Department. What were your responsibilities in the White House 
and in the Justice Department, and what was your principal 
mission in serving at the White House as the White House 
Liaison to the Justice Department?
    Ms. Goodling. I didn't actually serve at the White House at 
all. I worked at the Justice Department as a department 
employee. My basic job responsibilities fell into three 
categories. The first was hiring of political appointees. I 
spent a lot of time doing interviews for what we call Schedule 
C, or non-career Senior Executive Service candidates. And I 
wasn't the only one that would do those. Obviously, the 
component head that would be ultimately hiring the person would 
also interview. They would have interviews at the White House, 
and in some cases with Mr. Sampson as well. So I was one of 
maybe three or four people evaluating everybody coming in or 
considering coming into the Department. So that personnel work 
took a lot of time. I also served a basic liaison function that 
related to information. You know, for example, the President's 
going to be on travel here, or we would pass over the Attorney 
General was going to be on travel here. Just information 
requests that would go back and forth relating to what the 
White House had going on or what we had going on. You know, 
things, just report-type things, along those lines. And then 
the third thing, which took a fair amount of time actually, was 
a lot of what we would call, you know, morale boosting for 
employees and kind of internal communications.
    Oftentimes the White House would have bill signings or 
Marine One would be landing or taking off, or there would be an 
opportunity to see the champions of the Stanley Cup, you know, 
come to the White House. And I so I would spend, you know, 
several times a week, send an e-mail to appointees and say, 
hey, who would like to go to the White House and see X, Y and 
Z? And we would gather their names and Social Security numbers 
and dates of birth and transmit those down to the White House 
so appointees would have the opportunity to do those sorts of 
things. And so there were a combination of things, and there 
were others I am sure I have not mentioned, but those were the 
three categories of things.
    Mr. Coble. I thank you. Finally, Ms. Goodling, did you 
have, did you ever see the initial list or the final list of 
the United States attorneys who were recommended for 
replacement?
    Ms. Goodling. If the initial list is the one in 2005, I 
don't have any memory of having seen that. The final list being 
the November 27th plan, yes, I was in the room with the 
Attorney General when that plan was presented, although 
actually I am not sure if Kevin Ryan was on the list at that 
point or not. It may have been only six on that day.
    Mr. Coble. I thank you again, Ms. Goodling, for your 
testimony. Mr. Chairman, I yield back.
    Mr. Conyers. Thank you. The Chair recognizes the 
Subcommittee Chairman on Crime, the gentleman from Virginia, 
Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman. Ms. Goodling, as you 
have heard, I was introduced as the Chairman of the 
Subcommittee on Crime. The criminal justice system cannot 
function if the public does not trust the system to be fair. We 
expect judges and prosecutors to strictly follow the rule of 
law. We expect witnesses in criminal cases and all phases of 
criminal cases to tell the truth. We expect juries to be fair 
and impartial, and this won't work if there are partisan 
political considerations becoming more important than fair and 
impartial decisions. Unfortunately, there have been credible 
allegations that attorneys have been hired because of their 
partisan views rather than their legal backgrounds, that the 
culture of loyalty to the Administration was more important 
than loyalty to the rule of law, and pressure and even firing 
of U.S. Attorneys for failing to pursue partisan political 
agendas rather than the rule of law. These allegations are 
serious, because if true they can clearly undermine the 
confidence the public will have in the criminal justice system. 
It has been hard for us to get to the bottom of it, because 
when you ask simple questions you have accused others of not 
telling the truth under oath. You in fact yourself pleaded the 
fifth. So it has been hard to get to the bottom of it. But let 
me just ask a couple of questions.
    In your testimony, you indicate that you ``may have taken 
inappropriate political considerations into account on some 
occasions.'' Do you believe that those political considerations 
were not just inappropriate, but in fact illegal?
    Ms. Goodling. That is not a conclusion for me to make. I 
know I was acting----
    Mr. Scott. No, do you believe that they were legal or 
illegal for you to take those political considerations in mind? 
Not whether they were legal or illegal, what do you believe? Do 
you believe that they were illegal?
    Ms. Goodling. I don't believe I intended to commit a crime.
    Mr. Scott. Did you break the law? Did you break the law? 
Was it against the law to take those political considerations 
into account? You had civil service laws. You had obstruction 
of justice. Were there any laws that you could have broken by 
taking political considerations into account ``on some 
occasions?''
    Ms. Goodling. The best I can say is that I know I took 
political considerations into account on some occasions.
    Mr. Scott. Was that legal?
    Ms. Goodling. Sir, I am not able to answer that question. I 
know I crossed the line.
    Mr. Scott. What line? Legal?
    Ms. Goodling. I crossed the line of the civil service 
rules.
    Mr. Scott. Rules, laws? You crossed the law on civil 
service laws. You crossed the line on civil service laws. Is 
that right?
    Ms. Goodling. I believe I crossed the lines, but I didn't 
mean to. I mean I----
    Mr. Scott. Okay.
    Ms. Goodling. You know, it wasn't----
    Mr. Scott. In reference to the U.S. Attorneys, was 
investigations and indictments of Republican officials, or the 
failure to investigate or indict Democratic officials a factor 
in the removal of any U.S. Attorneys?
    Ms. Goodling. Not as far as I know.
    Mr. Scott. Not at all?
    Ms. Goodling. Not as far as I know.
    Mr. Scott. Are you aware that Senator Domenici had called 
one of the U.S. Attorneys that was asked to leave?
    Ms. Goodling. I have seen the press accounts, yes.
    Mr. Scott. You have seen the press accounts?
    Ms. Goodling. Yes.
    Mr. Scott. Do you know that he had a problem with one of 
the U.S. Attorneys?
    Ms. Goodling. I was aware he had concerns with Mr. 
Iglesias' performance.
    Mr. Scott. Okay. On the back of tab 26 you have a note that 
says, ``Domenici says he doesn't move cases.''
    Ms. Goodling. Yes. That was a comment that was made by 
someone else in one of the meetings that we had in the Deputy 
Attorney General's room.
    Mr. Scott. Do you know what cases he was talking about?
    Ms. Goodling. I don't remember that the person who made the 
comment specified.
    Mr. Scott. Do you know what case he was talking about? Are 
you aware of a case of Manny Aragon, a Democratic office 
holder?
    Ms. Goodling. I think I have seen press accounts.
    Mr. Scott. Was that one of the cases that you could have 
been talking about?
    Ms. Goodling. I don't know.
    Mr. Scott. Now, the Deputy Attorney General's testimony did 
not include Domenici says he doesn't move cases as one of the 
reasons he was on the list.
    Ms. Goodling. It does not. The reason it did not, when we 
were meeting in his room somebody made the comment that that 
was one of the reasons. The Deputy Attorney General said that 
he did not think that that was something that he wanted to 
brief to the Senate because he didn't think it was his place to 
raise one Member's concerns with other Members, and that it 
would be better if Senator Domenici wanted to raise the 
concerns with his colleagues.
    Mr. Scott. Other than Domenici's problems that he doesn't 
move cases, how could Mr. Iglesias' name get on the list of 
fired attorneys? What else could he have possibly done wrong to 
get him on the list?
    Ms. Goodling. The other reasons that I heard discussed was 
that it was a very important border district, that people just 
didn't think that he was--that he was doing as good of a job as 
we might have wanted to expect. I know at one point I heard 
someone say that he had been kind--and this is a quote--kind of 
a dud on the AGAC. That's the Attorney General's Advisory 
Committee. And there were--there was at some point a reference 
to him being an absentee landlord that somebody had made. And 
Mr. Sampson had indicated that he heard Mr. Mercer express 
concerns about the amount of time that he spent in the office. 
But I also heard somebody else express a concern that he 
delegated a lot to his first assistant. So there were different 
comments that people made at different times.
    Mr. Conyers. The gentleman's time has expired. You may 
finish your statement if you choose.
    Ms. Goodling. I mean different people did make different 
comments at different times, and there were other comments that 
people made based on things that they felt or believed. And I 
wrote those down.
    Mr. Conyers. Thank you. The gentleman from California, 
Elton Gallegly.
    Mr. Gallegly. Thank you very much, Mr. Chairman. Ms. 
Goodling, I am the tall, good looking one here. Ms. Goodling, 
almost everyone, including the Attorney General, agrees this 
matter was mishandled, and that if he had to do it all over 
again he would have done several things differently. Do you 
agree with the assessment that things could have been handled 
much differently? And if so, how would you say that, in your 
opinion, should have taken place?
    Ms. Goodling. I do agree things should have been handled 
differently. I think it would have been better to try to 
document some things. It certainly would have been good to have 
made sure that the reasons that--you know, when we looked at 
the list, and when we had the meeting to discuss what we 
thought the reasons were, I think somebody would say a comment 
and somebody else would think that's what I thought, too. So I 
think when people looked at the list people generally had the 
same thoughts in their mind about people as far as I could tell 
from that meeting. Because somebody would say one thing and 
other people would nod, and I would write it down. But it would 
have been better to document it. And it would have been better, 
frankly, to have given some of these U.S. Attorneys a chance to 
understand what the problems were and a chance to address them. 
And, you know, at the November 27th meeting, there was a 
discussion about whether or not the U.S. Attorneys should be 
told in person. And someone made the comment that because they 
were Presidential appointees and served at the President's 
pleasure there wasn't a need to litigate the reasons with them. 
And I think there was some concern that if you sat down with 
the folks it would get into a back and forth on the reasons. 
And I think people felt like they wanted the U.S. Attorneys to 
be able to leave quietly and do good things with their lives. 
But I think there was a sense that they didn't want to make the 
departures more painful for people, I guess. But looking back 
on it, I think it would have been the right thing to do to have 
met with people individually and notified them in person and 
given them an opportunity to ask questions at that time.
    Mr. Gallegly. Ms. Goodling, in your opening statement, 
correct me if I misunderstood, but when you first saw the list 
of the eight, that I guess it was Mr. Sampson presented you 
with that list? Am I correct in my recollection that there was 
no explanation at that time for how any of those names got on 
the list?
    Ms. Goodling. I don't remember. And there were not eight at 
the time, it was a different number. But I don't remember that 
time very well. And I had actually forgotten it for a while. 
But I think he just kind of brought it in and said can you take 
a look at this and give me your thoughts? That's to the best of 
my recollection what I remember.
    Mr. Gallegly. However, subsequent to that, obviously, you 
have had some opportunity to learn a little bit more about 
specific cases, as I know you referenced in part of the 
questioning some statements regarding Mr. Iglesias; is that 
correct?
    Ms. Goodling. Yes.
    Mr. Gallegly. And can you recollect any other of the judges 
that--other than Mr. Iglesias--that may have been, the basis of 
their name appearing on that list?
    Ms. Goodling. I am sorry, what did I just agree to? I think 
I misheard the question.
    Mr. Gallegly. My understanding is you had--well, just a few 
minutes ago you did make reference to Mr. Iglesias.I assume 
this is something that you learned subsequent to first seeing 
the list as maybe one of the reasons that his name did appear 
on the list. Is that correct? Subsequent to originally 
receiving the list, when there was no direct explanation for 
how the names got on there, you have learned, or through 
conversations, and so on and so forth, that there had been 
certain justifications made public, or at least beyond the 
water cooler discussions?
    Ms. Goodling. Right.
    Mr. Gallegly. As was the case with Mr. Iglesias. Were there 
other members or other judges on that list that you recall any 
specific reasons why their name would have been placed on the 
list?
    Ms. Goodling. Yes. At the November 27th meeting, there was 
a discussion about Daniel Bogden specifically. I think somebody 
made the comment like, you know, I know why--I know why it's 
this group or I know why--I think I know why these are the 
people on the list. And the DAG said the one person I have a 
question about is Mr. Bogden. Did he do something wrong, or is 
it just a general sense that we could do better? And Mr. 
Sampson said in that meeting something about, you know, I think 
it was a general sense that, you know--it was a general kind of 
sense that we could do better or something along that line. And 
then I said that I was aware of one case involving use of the 
PATRIOT Act that had gotten a little messy a few years ago. But 
that was all I was aware of. And at that point we kind of 
looked at each other and at the Attorney General and said, you 
know, what do you want to do? And he--I think he nodded and 
said okay.
    So we had that one discussion in that November 27th 
meeting, which was just a brief reference. But that is the only 
one where I remember that the group as a whole discussed the 
reason for that question.
    Mr. Gallegly. But that clearly wasn't a statement saying it 
was for political reasons or implied that?
    Ms. Goodling. Oh, for political reasons no, no. And I 
didn't mean to imply that I thought it was for political 
reasons in Mr. Iglesias' case, if that was the question, sorry.
    Mr. Gallegly. Thank you very much. Mr. Chairman, thank you.
    Mr. Conyers. The Chair is pleased to recognize the 
distinguished gentleman from North Carolina, Mel Watt.
    Mr. Watt. Thank you, Mr. Chairman. Ms. Goodling, this 
obviously has national implications, but it has some 
repercussions at local levels, too, and so I would like to ask 
you a couple of questions that relate to North Carolina, which 
happens to be where I am from. You testified in your opening 
statement this morning that, ``I never recommended to them that 
a specific U.S. Attorney be added to or removed from Mr. 
Sampson's list.''
    Ms. Goodling. I mean them being the White House. I did 
discuss with Mr. Sampson, of course, removing individuals. I 
was referencing my interactions with the White House in my 
statement.
    Mr. Watt. That seems to be at odds with what Mr. Sampson 
testified in the Senate when he testified that you suggested 
taking Ms. Anna Mills Wagner of the Middle District of North 
Carolina off the list in September of 2006. Did you or did you 
not recommend taking Ms. Wagner off the list?
    Ms. Goodling. I did. I recommended retaining her in service 
in January and in September.
    Mr. Watt. So when you testified this morning that you 
didn't make a specific recommendation to take anybody off the 
list, you were really not accurate in what you were saying.
    Ms. Goodling. I believe my sentence was to them, meaning 
the White House. Mr. Sampson works at the Department of 
Justice. And I did make a recommendation to Mr. Sampson about 
people coming on and off the list.
    Mr. Watt. What is your relationship with Ms. Wagner?
    Ms. Goodling. She is just a U.S. Attorney that I have had 
some interactions with from time to time. She was very involved 
in Project Safe Neighborhoods, and did kind of a Project Safe 
Neighborhood gang conference that I attended with the Attorney 
General. And of course I have spoke with her at some U.S. 
Attorney conferences.
    Mr. Watt. And do you know who suggested putting Ms. Wagner 
on the list in the first place to be fired?
    Ms. Goodling. No. When I saw the list in January, she was 
on, and I recommended she come off. She was still on in 
September, and I recommended again that she come off, and she 
did.
    Mr. Watt. And what was your basis for recommending that she 
come off?
    Ms. Goodling. I think in January I remembered her Project 
Safe Neighborhood work. That was something that I focused on at 
the Department, so I had a good sense of--or thought I had a 
good sense of some of the districts that were doing really good 
things in the gun crime area. And I also remembered that she 
had been very, very helpful when we were doing some PATRIOT Act 
authorization efforts. We asked some of the U.S. Attorneys to 
be engaged, and she had been very helpful in that effort as 
well. In September I think I was thinking mostly PSN. I am not 
sure if I remembered the PATRIOT Act at that point.
    Mr. Watt. Now there is a document that we have had produced 
to us where you wrote that she ``bends over backward for AG 
visits.'' You remember making that note about----
    Ms. Goodling. Yeah, that was a reference to the PATRIOT Act 
visit that we had done.
    Mr. Watt. Okay. And you thought that was a meaningful 
reason to keep or replace an attorney or not replace an 
attorney?
    Ms. Goodling. I think it is an appropriate thing to 
consider, when the Attorney General asks a U.S. Attorney to be 
helpful and they do a really good job at it. I think that is a 
good thing. Sometimes we would ask U.S. Attorneys for help and, 
you know, you didn't get the same response. She was just 
someone that when you ask her for help she was very responsive. 
And I thought that that should be rewarded or taken into 
account.
    Mr. Watt. And what kind of help are you talking about 
there?
    Ms. Goodling. I am just talking about when you ask someone 
to, you know, write an op-ed or just help put together a visit, 
some U.S. Attorneys are just very engaged and just very 
responsive. I don't know that I can quantify it more than 
saying they are responsive.
    Mr. Watt. All right. The specific meetings in which you 
participated in which Mr. Iglesias was discussed, you indicated 
that a number of comments were made that could have been the 
basis for his being on a list to be terminated. Would you tell 
us who was in the room when those discussions were taking 
place?
    Ms. Goodling. After the deputy did his briefing on this----
    Mr. Watt. Would you tell us who was in the room for those, 
when those discussions took place?
    Ms. Goodling. The deputy, Mr. Sampson, myself, and then Mr. 
Elston, I believe was there for part of the time or maybe all 
of the time. And I think there was another individual that may 
have come in and gone out, and I don't remember if that was Mr. 
Moschella, but I felt like there was someone that moved at some 
point during the meeting, but I don't remember specifically.
    Mr. Conyers. The gentleman's time has expired.
    Mr. Watt. Thank you, Mr. Chairman.
    Mr. Conyers. The Chair is pleased to recognize the only ex-
Attorney General that we have on the Committee, Dan Lungren of 
California.
    Mr. Lungren. Thank you very much, Mr. Chairman. Ms. 
Goodling--I am over here--let me just say that we appreciate 
your testimony. I know this is not a particularly comfortable 
time for you. You also ought to be happy you are not hearing 
the clicking of the cameras that often, because they usually 
reserve those for gotcha moments, and there haven't been any 
today. Your testimony has been very strong. I think you have 
acquitted yourself well and have shown people who are here or 
watching elsewhere why people in the Justice Department thought 
you were worthy of your job.
    I have never been in the U.S. Justice Department, but as 
the Chairman said, I was the Attorney General of California, 
elected, not appointed, and when I ran in that campaign for 
election I had differences with my opponent, who happened to be 
of the other party. I had some differences with my predecessor. 
I decided I was going to put more emphasis on the criminal side 
of my office than on the civil side. I made decisions to shift 
people. We had folks in the California Department of Justice 
who were conscientious objectors to the death penalty, when we 
were the ones required to carry it out from a legal standpoint. 
And I had to make some decisions to transfer people out of the 
Criminal Division because they refused to do capital cases. And 
I made a decision that I was criticized for as being political 
to say that you couldn't be a supervisor in the Criminal 
Division if you didn't believe in the death penalty because it 
would affect your job. We moved them elsewhere.
    I thought it was appropriate to make decisions with respect 
to supervisors in my office, the ones who headed up certain 
divisions, certain offices, if they believed in what I was 
trying to do, because I actually thought that is the way the 
process works. During election I mentioned what I was going to 
do. I was elected. And then I said to the people who were 
there, including civil servants, this is what we intend to 
carry out.
    Analogously, doesn't a President have a right, when he 
appoints an Attorney General, to expect him and the people in 
the Justice Department, including civil servants, to use the 
emphases that the President wants to make the decisions in 
terms of priorities that the President wants? And isn't that an 
appropriate thing? And is that the kind of thing that you did 
while you were in the Department?
    Ms. Goodling. That is what I was trying to do. I was trying 
to find very well-qualified people who would be enthusiastic 
about, you know, supporting the Attorney General's priorities 
and focus. But like I said, I may not have always got it right.
    Mr. Lungren. You were permitted to do that, but weren't you 
even more than permitted? Didn't you feel an obligation to try 
and do that so that the American people could somehow have 
faith that the electoral process works when they have a 
President who says he is going to do certain things?
    Ms. Goodling. I certainly hope so.
    Mr. Lungren. And you said you believed you crossed the 
line, and there was some questioning and cross-examination of 
you. Let me get this straight. As I understand what you said, 
you believe in retrospect that you may have crossed the line in 
terms of civil service rules, but you don't believe in your own 
mind you had the intent to break any law at the time you did 
anything. Is that correct?
    Ms. Goodling. I guess what I meant is I was intending to 
try to find good lawyers who would do a good job and who would 
carry out the Attorney General's priorities. And my focus was 
on that. My focus--but in my focus I think there were times 
when I thought that it would be good if we could hire some 
people that could be, you know, that could be other U.S. 
Attorneys down the road. And we also--we brought a lot of 
people from the field to Main Justice. And I thought it would 
be good if we had, you know, people that would be wanting to 
come into leadership positions that would be--that would be 
enthusiastic of the priorities.
    Mr. Lungren. Let me ask you, is it 93 U.S. Attorneys that 
there are?
    Ms. Goodling. Yes.
    Mr. Lungren. Do you believe that there are more than 93 
qualified people in the United States who are attorneys to be 
U.S. Attorneys?
    Ms. Goodling. Yes.
    Mr. Lungren. Do you believe that a President has the right 
to refresh an office and to say you have had your 4 years, I 
would like to give someone else a chance?
    Ms. Goodling. Yes.
    Mr. Lungren. You think that is violative of the 
Constitution?
    Ms. Goodling. No.
    Mr. Lungren. Does that in any way interfere with the 
prosecution of the laws?
    Ms. Goodling. No.
    Mr. Lungren. Can you have two people, one who is in charge 
of an office, and then another one who comes in, both equally 
committed to prosecuting the laws of the United States?
    Ms. Goodling. Yes.
    Mr. Lungren. And you said in your written statement, 
however, I am not aware of anyone within the Department ever 
suggesting the replacement of these U.S. Attorneys to interfere 
with a particular case or in retaliation for prosecuting or 
refusing to prosecute a particular case or political advantage. 
Now, after you have had all the questioning from the panelists 
thus far about that, do you still stand by that statement?
    Ms. Goodling. I do. I mean certainly I knew that Senator 
Domenici had told the Attorney General he had some concerns 
with public corruption.
    Mr. Lungren. And Dianne Feinstein had complained about the 
lack of prosecution of coyote cases in San Diego.
    Ms. Goodling. Yes, but I didn't understand those to be the 
complaints--I didn't--my memory is not that it was of any 
specific case, that it was more of a focus or emphasis. But 
again, I didn't hear the Senator's comments because the 
Attorney General had the phone up to his ear. So I couldn't 
hear exactly what he said.
    Mr. Lungren. Thank you very much.
    Mr. Conyers. Thank you. The Chair is going to announce a 5-
minute recess after the gentlelady from California, Zoe 
Lofgren, Chair of the Immigration Subcommittee, has her 
questions. And we yield to her at this time.
    Ms. Lofgren. Thank you, Mr. Chairman. Ms. Goodling, I want 
to--we only have 5 minutes, so I want to ask you, if I could, 
two yes or no questions. Did you ever or did you ever have a 
member of your staff ask a job applicant who they voted for?
    Ms. Goodling. Political appointees, yes. I don't think we 
asked that of career appointees, but I can't be sure. Sometimes 
people would come in and would actually apply for both 
positions at the same time.
    Ms. Lofgren. So when it comes to your statement on hiring 
of immigration judges, BIA positions that were frozen, you 
never asked any of them who they voted for?
    Ms. Goodling. I don't remember that I did, but again I 
can't be sure, and I may have. Sometimes people----
    Ms. Lofgren. If I could ask on that, you mentioned that 
these positions, these immigration and BIA positions were 
frozen in December of 2006 after the Civil Division expressed 
concerns that civil service rules might apply. Would it be true 
then to say that we stopped hiring in this field because you 
couldn't apply a political litmus test to these individuals?
    Ms. Goodling. I think the hiring was frozen to give the 
division time to evaluate--and actually I would like to clarify 
my answer. There were some individuals that came in and applied 
for political positions and immigration judge positions at the 
same time, so those individuals would have been asked political 
questions, yes.
    Ms. Lofgren. About who they voted for?
    Ms. Goodling. Yes, because they were applying for both.
    Ms. Lofgren. The first of the U.S. Attorneys known to have 
been terminated in 2006 was Todd Graves in Kansas City. And Mr. 
Graves has stated publicly that he received a phone call from 
Michael Battle in January, and he was told to submit his 
resignation. And Mr. Sampson has stated that Graves was on a 
list of the U.S. Attorneys to be fired which he showed to you 
and that was sent to the White House in 2006. And Mr. Battle 
has told Committee investigators that it was you who called him 
and told him to call Graves and tell him to submit his 
resignation. Who did you discuss this with at the DOJ? Did you 
discuss this with anybody at the White House? Who gave you the 
permission to or directed you to make this call to Mr. Battle? 
And you said in your opening statement that you had conflicting 
memories about this Graves matter. Can you explain what you 
meant by that?
    Ms. Goodling. Sure. When I first heard Mr. Graves' name, 
months ago, my memory was that he had been asked to resign. 
That was what I thought. But there were two things that made me 
think that maybe my memory was wrong. One was in January Mr. 
Sampson was asked a question while he was staffing the Attorney 
General about how many U.S. Attorneys had been asked to resign 
in the previous year, and he gave the answer of eight. And 
because I knew that the eight were Mr. Cummins and then the 
seven in December, I thought that I must have just been 
remembering incorrectly, because Mr. Graves would have made 
nine. But, you know, perhaps Mr. Sampson just didn't think of 
Mr. Graves when he gave that answer. I don't know. But that was 
the first thing that made me think that maybe my historical 
memory just wasn't correct.
    Ms. Lofgren. So you do recall seeing his name now, though, 
or you don't?
    Ms. Goodling. Oh, yes, I do. I remember seeing it on the 
list.
    Ms. Lofgren. Do you think it is true one of the factors in 
removing Mr. Graves so quickly and installing his replacement, 
Mr. Schlozman, so promptly was to push forward with a vote 
fraud case that Mr. Schlozman was promoting and Mr. Graves was 
resisting in Missouri just before that election?
    Ms. Goodling. You know, I don't remember anything like 
that. My memory of the reason why I was thinking that Mr. 
Graves had been asked to leave related more to the fact that he 
was under investigation by the Inspector General, and there 
were some issues that were being looked at there. And I, like I 
said, I had conflicting memories on it. But I thought that that 
was--that was my memory of what was going on during that period 
of time.
    Ms. Lofgren. When Mr. Schlozman worked at Main Justice did 
you ever discuss the issue of voter fraud cases or voter ID 
laws with him?
    Ms. Goodling. You know, I think he did mention them to me 
from time to time. I remember one conversation where he told me 
that they had done an election law manual.
    Ms. Lofgren. Did you discuss it with anyone else? These 
voter fraud or voter ID cases?
    Ms. Goodling. Specific cases?
    Ms. Lofgren. M-hm.
    Ms. Goodling. I don't have any memories at this point. I 
certainly would have seen stories in the clips, and they may 
have come up in meetings that I was in.
    Ms. Lofgren. Did you ever discuss them you think with Mr. 
Hans von Spakovskyi, who was over at the Voting Section of 
Civil Rights?
    Ms. Goodling. No, I don't remember ever having met him or 
spoken with him.
    Ms. Lofgren. Do you remember who told you to have Mr. 
Battle fire Mr. Graves?
    Ms. Goodling. If I did make that phone call it would have 
been at Mr. Sampson's request. I wouldn't have had that kind of 
authority.
    Ms. Lofgren. Before my time expires I just want to make 
sure I understand you correctly. You never asked any 
immigration people applying just for immigration judge 
positions or BIA positions who they voted for?
    Ms. Goodling. If they were applying for other positions I 
did.
    Ms. Lofgren. But if they were just applying for that you 
never did?
    Ms. Goodling. I don't remember that I did, but I can't be 
sure. And I do know that we did research them, and in some 
cases we learned political information in the research process.
    Ms. Lofgren. My time has expired.
    Mr. Conyers. Thank you. Members of the Committee, we will 
stand in recess until 10 minutes after 12. Thank you very much.
    [Recess.]
    Mr. Conyers. I am pleased to recognize the gentleman from 
Virginia, the distinguished former Chairman of the Agriculture 
Committee, Bob Goodlatte.
    Mr. Goodlatte. Mr. Chairman, thank you very much. Ms. 
Goodling, welcome. I appreciate the forthright testimony that 
you have given. I understand the scrutiny that is going on here 
today, and we very much welcome your participation. I have a 
few questions. Were you ever in any way a principal decision-
maker in the review process and the removal process concerning 
the U.S. Attorneys?
    Ms. Goodling. Not a decision-maker.
    Mr. Goodlatte. Some have alleged that the Department 
requested the resignations of the U.S. Attorneys for partisan 
purposes, such as to exact retribution against U.S. Attorneys 
who prosecuted Republicans or failed to prosecute Democrats in 
public corruption cases. If that were true, would it have made 
any sense for the Department to have named career first 
assistant U.S. Attorneys as interim U.S. Attorneys to replace 
these individuals, as occurred in the District of New Mexico 
and the District of Nevada?
    Ms. Goodling. Some would say that might seem odd.
    Mr. Goodlatte. Can you elaborate on that at all? What was 
your experience in terms of who were the replacements for these 
U.S. Attorneys?
    Ms. Goodling. There actually was a lot of debate about 
those topics, just because we wanted to ensure that we put good 
people into those spots. And we were making those decisions in 
a time that there was a lot of scrutiny on what was happening. 
But we interviewed several people for all the spots and, you 
know, ultimately we chose the people that we thought could best 
lead, given the circumstances and the situation that we were 
under.
    Mr. Goodlatte. And are you satisfied that that was the 
result of those who were put in those positions? That they were 
indeed fulfilling the responsibilities that we expect of U.S. 
Attorneys to conduct these offices in a professional and non-
partisan fashion?
    Ms. Goodling. I certainly think that they will do a good 
job. I mean in some circumstances if it had been up to me, I 
might have made different decisions. We interviewed, like I 
said, a number of people in different spots, and there were 
disagreements, as there sometimes are when you interview 
multiple people for different spots. But ultimately, I think 
the people that are leading those offices will do a good job.
    Mr. Goodlatte. Now, with regard to the question of whether 
or not the Congress was misled in this matter, did you ever 
intend to mislead Congress through any of your activities in 
preparing the people who have testified for their testimony?
    Ms. Goodling. No. I never deliberately withheld any 
information. I think looking back trying to figure out, you 
know, what happened, I think sometimes we started preparing 
answers for questions A, and then we got questions B, and we 
started preparing answers for question B, and then we got 
question C. And at some point along the line people just 
started answering questions, and we had never really sat down 
and talked them out and put all the facts on the table and 
figured out what they were. And different people had forgotten 
different things. And it just snowballed into a not good 
situation.
    Mr. Goodlatte. Sure. With regard to the hiring of career 
officials into leadership or policy positions, in your approach 
to these interviews did you attempt to follow what you 
understood to be accepted models at the Department of Justice, 
such as that of David Margolis?
    Ms. Goodling. You know, there were different categories. 
Different categories. I am sorry, in the personnel context it 
is particularly hard for me to make a general statement because 
it won't be true in one category and then not true in another. 
And then there were sometimes odd situations that cropped up. I 
tried--if you are asking about detailed positions at Main 
Justice, you know, I tried to find people that would be part of 
the leadership team that would be on the same page in terms of 
philosophy. And in those positions, because they were in 
leadership offices, I really did want to ensure that 
ideologically they were compatible. In other cases, like 
immigration judges and Board of Immigration Appeals, I thought 
that we could consider other factors because I had been told 
that in relation to immigration judges. And I think my 
assumption was that applied to BIA as well. And you know, then 
there were other bizarre cases that kind of cropped up 
individually from time to time. And, you know, but my intent 
was to ensure that we had well-qualified, really bright lawyers 
that I wanted to have, you know, pull in the same direction in 
terms of priorities.
    Mr. Goodlatte. And with regard to the hiring of the career 
assistant U.S. Attorneys in the U.S. Attorney's offices led by 
interim U.S. Attorneys, did you ever act as a screener for 
Republican candidates for those positions?
    Ms. Goodling. I think that I probably did. Not in all 
cases. For the most cases, I looked at those waiver requests 
and I evaluated whether or not there really was an 
extraordinary need. The rule is to ensure that there isn't 
hiring during the times that there is a vacancy so that the new 
U.S. Attorney coming in has the opportunity to hire some people 
that they would like to work with. I thought that was a good 
rule, and I tried to enforce it. Sometimes there were cases of 
extraordinary need, and I looked at resumes or I might have 
made reference calls, or I did make reference calls in some 
cases. And in some cases, you know, I may have researched folks 
and learned some information that influenced my decision-
making. And I regret those mistakes.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Conyers. Thank you.
    Mr. Goodlatte. Thank you, Ms. Goodling.
    Mr. Conyers. The Chair recognizes the distinguished 
gentlelady from Houston, Texas, Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and 
thank you for committing this Committee and yourself to the 
American people. I welcome the witness. Just for the record, I 
think it is important to note, because we have an important 
debate about immigration, there couldn't have been a greater 
disservice to the American people by stalling on the 
immigration judges and others who would participate in the 
process, legal process, that we would hope most who are here 
would participate in.
    But allow me just to simply begin a series of questions, 
Ms. Goodling, and I would ask that your answers be as cryptic 
and as brief as possible, however truthful, because we do have 
a shortened period of time. I noticed that you were described 
as a loyal person or with extreme loyalty or deep loyalty to 
the President, President Bush. And certainly we welcome young 
people into this system of government of public service, as you 
have indicated. But you might have been better served if you 
were loyal to the American people. And I give you counsel, 
whether you are willing to accept it or not. You have been 
described by Bruce Fein, a former senior justice official 
during Reagan, the Reagan administration, both you and Mr. 
Goodling--excuse me, you and Mr. Sampson, that you knew 
politics and not the law. And I think that is the challenge 
that we face here today. I would like to know what your 
disagreement was with Seth Adam Meinero, a Howard University 
law school graduate that you apparently described or stalled in 
his hiring as a career prosecutor, a graduate of Howard 
University, one of the top, outstanding law schools in the 
Nation that graduates an array of diverse law students and 
future lawyers, but has an historical grounding in the African 
American community. But you described him as too liberal for 
the non-political position. He had formerly been a career 
attorney with the Environmental Protection Agency. Why did you 
dislike Mr. Meinero?
    Ms. Goodling. I didn't dislike him, and I regret the fact 
that I made a snap judgment based on the totality of the things 
that I saw on his resume. And I have no good explanation for 
it.
    Ms. Jackson Lee. But you did reject him. And it was only 
out of a career attorney's, Mr. Taylor, who pursued to get Mr. 
Meinero hired. Is that correct?
    Ms. Goodling. I didn't actually reject him. I actually in 
fact authorized the hire later. I delayed it.
    Ms. Jackson Lee. After Mr. Taylor pursued it. Is that 
correct?
    Ms. Goodling. Yes. Yes.
    Ms. Jackson Lee. Thank you very much. I understand that you 
have made a point that you say to the best of my recollection I 
had no meetings with Mr. Rove or Harriet Miers. Did you receive 
e-mail?
    Ms. Goodling. I don't remember receiving an e-mail from Mr. 
Rove. I did receive e-mail from Harriet Miers.
    Ms. Jackson Lee. But there was a possibility. You don't 
recollect, but there might have been a possibility of receiving 
an e-mail?
    Ms. Goodling. I can't say that it didn't happen during my 
time at the Department. I certainly had e-mail with the----
    Ms. Jackson Lee. Thank you. Can you tell us anything about 
what Karl Rove knew about the plan to fire the nine U.S. 
Attorneys? Or what he did to create the situation leading to 
those firings?
    Ms. Goodling. I know that Mr. Rove was consulted after the 
plan--or I believe he was consulted, I guess. I may not know 
for sure. When the plan went to the White House for approval, 
it was transmitted to the White House Counsel's office, and 
there was an e-mail that Mr. Sampson forwarded to me, I think 
on December 4, if I am remembering correctly, that said it had 
been circulated to different offices within the White House and 
that they had all signed off. So I assume that he was one of 
the individuals that signed off as part of that process, but I 
don't know for sure. I think the e-mail just referenced the 
offices.
    Ms. Jackson Lee. But he was certainly in an office in the 
White House?
    Ms. Goodling. He was in an office in the White House. I 
think it said White House Political had signed off. Political 
is actually headed by Sara Taylor, but does report to Mr. Rove, 
so I don't know for sure.
    Ms. Jackson Lee. I thank you. With that in mind, isn't it a 
fact that you cannot give us the full picture about the White 
House involvement in the plan in the removal of the U.S. 
Attorneys, and isn't it a fact that the only way we can get the 
story is if the White House provides documents and makes its 
personnel available to be interviewed by the Congress?
    Ms. Goodling. For me I can say I can't give you the whole 
White House story.
    Ms. Jackson Lee. And I thank you for that. I have to move 
to the next question. But I want the record to be clear the 
only way we can get to the full truth is if Mr. Karl Rove is 
sitting in the very same seat that you are sitting in. And he 
needs to be here. And he needs to be here post-haste. Let me 
ask you very quickly, you testified in response to Mr. Scott 
that someone at DOJ made a comment in a meeting that Senator 
Domenici says that statement Mr. Iglesias doesn't move cases in 
connection with Mr. Iglesias being on the list of fired U.S. 
Attorneys. When did that meeting take place? Who made the 
comment about Senator Domenici? And who else was at the 
meeting?
    Ms. Goodling. The DAG, Kyle Sampson, Mike Elston, and there 
may have been another person, and myself were in the meeting. 
It was after his Senate testimony, but before his private 
briefings, so it was the week before Valentine's Day. I don't 
remember the exact date.
    Ms. Jackson Lee. And the year?
    Ms. Goodling. 2007. It would have been I guess before 
February 12th, or around that period at some point. I don't 
remember who in the meeting made the comment, but I wrote it 
down. And I don't remember what your other question was.
    Ms. Jackson Lee. Who else was at the meeting?
    Ms. Goodling. The meeting was the Deputy Attorney General, 
Kyle Sampson, Mike Elston for at least part of it, and myself, 
and there may have been another person that came in and came 
out, maybe William Moschella, but I don't remember.
    Ms. Jackson Lee. The Deputy Attorney General is? The name, 
please.
    Ms. Goodling. Paul McNulty.
    Ms. Jackson Lee. I thank you very much. I thank the 
distinguished Chairman. I thank the witness. I yield back.
    Mr. Conyers. The Chair is pleased now to recognize the 
gentleman from Florida, Rick Keller.
    Mr. Keller. Thank you, Mr. Chairman. Ms. Goodling, when did 
you first get promoted to the position of Senior Counsel to the 
Attorney General and White House Liaison?
    Ms. Goodling. I started in the Office of the Attorney 
General as Counsel. I became the White House Liaison and was 
given a working title of Senior Counsel in April of 2006.
    Mr. Keller. And before April of 2006 you had worked at the 
Justice Department in a variety of different positions for 
about 4 years?
    Ms. Goodling. Yes.
    Mr. Keller. Okay. I understand from your testimony that 
Kyle Sampson is the one who compiled the list of attorneys to 
be replaced?
    Ms. Goodling. Yes.
    Mr. Keller. And you didn't see that list of potential U.S. 
Attorneys to be replaced, to the best of your recollection, 
until January of '06; is that right?
    Ms. Goodling. Right.
    Mr. Keller. I am going to focus most of my questions on 
Carol Lam-related issues, since that seems to be the most 
controversial. Did you ever speak to anyone within the 
Department of Justice regarding Carol Lam?
    Ms. Goodling. She was a topic of frequent conversation.
    Mr. Keller. Tell me what your communications were and when 
they took place.
    Ms. Goodling. There were a lot. I am not sure I am going to 
remember them all. There were a lot of conversations about her 
work in the gun crime area, which was an area that I worked in. 
And so the people that I worked on in relation to Project Safe 
Neighborhoods would frequently name her district as one that 
they felt was underperforming, and that she just didn't seem to 
be doing as much as they thought she should be.
    Mr. Keller. When do you first remember those conversations 
about the lack of sufficient gun crime prosecutions taking 
place?
    Ms. Goodling. I believe it was while I was in the Office of 
Public Affairs.
    Mr. Keller. What would be the time frame for that?
    Ms. Goodling. Maybe 2003 or 2004 time period.
    Mr. Keller. Okay. Were there any other topics of concern 
that you heard other than gun crimes?
    Ms. Goodling. Immigration was the one that has been most 
frequently discussed in the past year-and-a-half or 2 years.
    Mr. Keller. And so when did you first start hearing about 
the concern about immigration prosecutions?
    Ms. Goodling. I believe while I was maybe in the Executive 
Office for U.S. Attorneys. I am a little tentative on this, but 
I think there may have been some letters from Congress that 
came in, I think, during that time period.
    Mr. Keller. Would that be around the 2004 time period?
    Ms. Goodling. No, I was in the Executive Office in 2005.
    Mr. Keller. The 2005 time period. So to the best of your 
recollection, the first concerns you heard about gun crimes and 
Carol Lam were 2003, 2004, and about immigration enforcement 
around 2004. Is that fair to say?
    Ms. Goodling. I think 2005 probably.
    Mr. Keller. 2005.
    Ms. Goodling. In relation to immigration.
    Mr. Keller. Okay. So 2003-2004 for gun crimes, 2005 for 
immigration crimes?
    Ms. Goodling. To the best of my recollection.
    Mr. Keller. Did anyone at DOJ ever say to you, or did you 
hear or read an e-mail that she should be fired for prosecuting 
Duke Cunningham or any other Republican-related official?
    Ms. Goodling. No, I don't remember anything like that.
    Mr. Keller. Did you ever have any communications with 
anyone at the White House wherein they suggested that Carol Lam 
should be fired for prosecuting Duke Cunningham or any other 
Republican official?
    Ms. Goodling. No, I don't remember anything like that.
    Mr. Keller. Okay. The reason I bring this up is because one 
of the most controversial things, and you just heard it in the 
L.A. Times this week, and I am looking at an article May 18, 
2007, and I will just read you what it says, speaking at Loyola 
Law School in Los Angeles, John McKay, who is a fired U.S. 
Attorney from Washington State, said he suspected that U.S. 
Attorney Carol Lam was removed in San Diego to derail the 
expanding probe of then Rep. Randall ``Duke'' Cunningham. You 
hear that allegation over and over. And yet I have the 
documents here. The first of 20 Members of Congress to complain 
about Carol Lam not prosecuting illegal immigration was 
February 2, 2004, from Darrell Issa, which was circulated to 
the Department of Justice, the White House, and Carol Lam. I 
hear from you that you had heard complaints about not enforcing 
gun crimes in 2003, 2004, and you had heard complaints about 
not enforcing immigration-related prosecutions in 2005, and yet 
the San Diego Tribune did not even break the initial story of 
Duke Cunningham until June 12th, 2005, which is a full 14 
months after Congressman Issa wrote the first of many letters 
complaining about her not enforcing alien immigration laws, 
which makes it literally impossible that she was fired as a 
pretext for Duke Cunningham, because all these problems were 
occurring, as we hear from the documents and your testimony and 
others, before the story even broke about Duke Cunningham. And 
in fact, when I had Carol Lam right here I asked her, do you 
have any evidence whatsoever that you were fired because of 
Duke Cunningham? She said no. When I had the U.S. Attorney 
here, did you fire her because of Duke Cunningham? No. I looked 
at 10,000 documents, e-mails, many witness interviews, 
testimony. Not a shred of evidence. But I still see crap that 
we saw in the L.A. Times this week saying that our Attorney 
General is a criminal because he let Ms. Lam go because she 
prosecuted Duke Cunningham. And I just am happy that we were 
able set the record straight with your testimony that the 
problems that she incurred dealing with illegal immigration and 
gun crimes far pre-dated the breaking of the Duke Cunningham 
story. And I will yield back the balance of my time.
    Mr. Conyers. The Chair is pleased now to recognize the 
gentlelady from California, a distinguished Member of our 
Committee, Maxine Waters.
    Ms. Waters. Thank you very much, Mr. Chairman. This hearing 
is absolutely necessary to continue the vote that we must do to 
determine whether or not the Justice Department is free of 
political influence. So I am very pleased that we have this 
hearing here today.
    I would like to ask our witness here today, why did you 
resign from your position?
    Ms. Goodling. There were several reasons, but the primary 
and most important one to me was that I just felt I couldn't be 
effective in the role anymore. My job required me to work with 
U.S. Attorneys every day. And after being a part of this 
effort, I just--I didn't think that that was realistic.
    Ms. Waters. As I understand it, before you went to the 
Justice Department you worked with the Republican National 
Committee?
    Ms. Goodling. I did.
    Ms. Waters. What did you do there?
    Ms. Goodling. My last position there was to be the Deputy 
Director of Research and Strategic Planning.
    Ms. Waters. Did you do opposition research?
    Ms. Goodling. Yes, we did.
    Ms. Waters. And I understand that you worked with Ms. 
Barbara Comstock?
    Ms. Goodling. Yes.
    Ms. Waters. And she left the Republican National Committee, 
working with you on opposition research, and went over to head 
the press office. Is that right?
    Ms. Goodling. Yes.
    Ms. Waters. And you left about that same time?
    Ms. Goodling. About a month later.
    Ms. Waters. Did you use any of your opposition research 
skills once you were at the Justice Department?
    Ms. Goodling. I think most of what opposition research is, 
and it tends to be a kind of negative term, is really just 
being able to use Westlaw.
    Ms. Waters. I know what it is. I want to know if you used 
the skills that you had developed at the Republican National 
Committee once you had gone over to the Justice Department.
    Ms. Goodling. I certainly used Westlaw and LEXIS.
    Ms. Waters. You used your opposition skills. In what way 
did you use them? Did you use them to do research on U.S. 
Attorneys or anyone else when you were over there?
    Ms. Goodling. I did research people that we were 
considering for hiring, yes.
    Ms. Waters. Did you use them in terms of helping to make 
decisions about who should be retired?
    Ms. Goodling. Retired, no. No. Just you know, we would get 
resumes from a number of sources, and you would Google people 
or Westlaw, do Westlaw checks if you wanted to know if there 
was something negative about someone before you hired them to 
work at the Department.
    Ms. Waters. But do you have a human resources division that 
is primarily responsible for doing that kind of work for you?
    Ms. Goodling. No. No. For political appointees, I and my 
assistant, my deputy were pretty much it. Occasionally, we 
would ask younger staff to help, but we didn't have a staff to 
do that.
    Ms. Waters. So you basically were responsible for doing 
whatever research was necessary and the responsibility that you 
had for hiring. Is that right?
    Ms. Goodling. Yes.
    Ms. Waters. Did you ever discuss any of the research that 
you had done or discovered with Mr. Karl Rove?
    Ms. Goodling. No.
    Ms. Waters. Anyone in his office?
    Ms. Goodling. Research on people? I think I had 
conversations with Scott Jennings or Jane Cherry.
    Ms. Waters. Let's think a little bit deeper. Some of the 
research that you had done where you had used your skills that 
you had developed doing opposition research you may have used 
as you reviewed political appointees.
    Ms. Goodling. Political appointees----
    Ms. Waters. For hiring.
    Ms. Goodling. Yes.
    Ms. Waters. And then did you discuss what you had 
discovered, found out about with Mr. Rove or anybody in his 
office?
    Ms. Goodling. Not Mr. Rove.
    Ms. Waters. Anyone in his office?
    Ms. Goodling. From time to time I would talk to the people 
in the Office of Political Affairs, and they would ask, well, 
what do you think about this candidate, or what do you think 
about this candidate, and I might say, oh, I checked this 
person out and, you know, for whatever reason I really don't 
think they are the best fit for it. I don't----
    Ms. Waters. Did you document your research? Is it on file 
somewhere?
    Ms. Goodling. I didn't really keep that kind of file. 
Normally, if I found something that was negative about someone 
we didn't hire them and I wouldn't have necessarily retained 
that.
    Ms. Waters. Do you have files that may have information in 
it that you gathered during your research using your opposition 
research skills?
    Ms. Goodling. There would be some files, yes.
    Ms. Waters. Where would those files be?
    Ms. Goodling. At the Department of Justice.
    Ms. Waters. Would you support us having access to those 
files?
    Ms. Goodling. That's really not a call for me to make.
    Ms. Waters. Not that your decision would be one to 
determine it. Just in terms of all of the problems that we 
have, do you think it would be helpful for us to understand how 
it operated over there by having those files?
    Ms. Goodling. I don't know that my opinion would be 
relevant in any way, and it certainly wouldn't be my call. That 
would be something I think that the Committee would need to 
take up with the Department.
    Ms. Waters. Your opinion would be very relevant. Let me 
just ask about in preparing for----
    Mr. Conyers. The time of the gentlelady has expired.
    Ms. Waters. Thank you very much.
    Mr. Conyers. Thank you. The Chair recognizes Darrell Issa, 
the gentleman from California.
    Mr. Issa. Thank you, Mr. Chairman, and let me go through 
some areas in which your testimony really is relevant. June 15, 
2006, the letter, the scathing letter about Carol Lam that was 
written by Senator Dianne Feinstein, one of the key appointers 
and confirmers of Carol Lam. Wasn't that relevant to her 
firing?
    Ms. Goodling. I think that the concerns about her 
immigration work certainly were relevant to her firing. And I 
know that the fact that Members of Congress had concerns with 
her on those issues was something that we definitely talked 
about.
    Mr. Issa. So for 3 years there had been a constant drip, 
drip of Carol Lam not supporting the President's stated policy 
of enforcing the Federal gun laws and doing it throughout the 
country. This wasn't something he was asking for in southern 
California. He was asking for and getting it everywhere, 
including other parts of California. The President was seeking, 
and is still seeking, a comprehensive guest worker program that 
requires that there be a belief that there would be valid 
enforcement, and yet Carol Lam was not going after coyotes. 
Just the opposite, she set standards so hard to reach that 
basically the Border Patrol complained to people like myself 
and other Congressmen that they couldn't do their job because 
they couldn't meet the litmus test. Even after somebody was 
arrested 20 times, on the 21st time she still wouldn't 
prosecute. Isn't that a factor in the firing of Carol Lam?
    Ms. Goodling. I believe it was.
    Mr. Issa. Now Carol Lam has, to her credit, some high 
profile cases. But isn't it true that U.S. Attorneys have to 
implement the policy uniformly around the country if they are 
to be effective, that if in fact you can get away with certain 
types of crime in a certain area crime will morph to those 
areas? Isn't that true?
    Ms. Goodling. Uniformity is certainly important.
    Mr. Issa. Now do you know--earlier you were asked about 
opposition research. Isn't it true that when people are being 
put up for confirmation positions that the FBI does an 
intensive search of their background, that opposition research 
isn't even a factor on political appointees because in fact 
there is a thorough vetting through the FBI?
    Ms. Goodling. The FBI is certainly much better at research 
than I am.
    Mr. Issa. Okay. So the whole idea that somebody would go on 
LEXIS-NEXIS to do op research, when in fact you are looking at 
people that are disclosing in voluminous forms their entire 
background, and then having the FBI go through extensive 
checks, that's just pretty preposterous; isn't it?
    Ms. Goodling. I don't know that I would comment on the 
preposterousness----
    Mr. Issa. I will for you in this case.
    Now, Carol Lam, among other things, also chose to prosecute 
not once but twice her own cases, spending weeks in front of 
jury trials. Isn't that a little unusual, a little bit of 
grandstanding when you are talking about somebody who has to 
oversee so many other U.S. attorneys?
    Ms. Goodling. It was fairly unusual in extra large offices, 
where you had hundreds of staff members to supervise, for a 
U.S. Attorney to do so much trial work.
    Mr. Issa. Isn't that also a factor in the firing of Carol 
Lam?
    Ms. Goodling. It was something I heard discussed, yes.
    Mr. Issa. Let's talk about Carol Lam. Because Mr. Keller 
mentioned that Members had made these complaints. Well, I am 
the Member. I am the Member who saw somebody who would not 
enforce stated national policy and brought this to the 
attention of Attorney General Ashcroft and then Attorney 
General Gonzalez; and, quite honestly, I spoke to the President 
directly on my concerns, and I am not ashamed of it.
    But let's go through Carol Lam. Carol Lam is not a 
Republican, isn't that right?
    Ms. Goodling. I actually don't know. Somebody told me she 
was an Independent, but I never checked her voter registration.
    Mr. Issa. I have. It is public in California. So let's go 
through this. She was a career professional assistant U.S. 
Attorney, right?
    Ms. Goodling. Yes.
    Mr. Issa. So this Administration, even though it has the 
absolute right to make political appointments based on party 
registration and party loyalty and loyalty to the President, 
appointed a career professional in San Diego.
    Ms. Goodling. Yes, actually, we did that in a lot of 
districts; and I supported that. In many cases, career 
professionals have the best backgrounds for the job.
    Mr. Issa. So you were looking for people who had an 
obligation to deal with a policy for which the American people 
had chosen, but you looked at career professionals.
    Isn't it also true that when people turned in their 
resignations or left for any reason you also looked very often 
to the existing career professionals inside the U.S. Attorney's 
office?
    Ms. Goodling. Yes.
    Mr. Issa. So here we have an absolute right to make 
political appointments based on the party registration, party 
loyalty and support of the President, and yet you chose to be 
nonpartisan very often, and yet that is not being heard here 
today.
    Ms. Goodling. I am afraid I don't have a comment on that.
    Mr. Issa. Well, I think my comment will stand on that.
    Last but not least, is there any reason that this group of 
Republicans and Democrats--there is not an Independent sitting 
here--should be surprised that the Clinton administration 
appointed Democrats and disproportionately made lifetime 
appointments for Federal judges by people who were Democrats? I 
run into them all the time. Isn't it in fact absolutely the 
right of a President elected by the American people to chose 
people who will support his policies and that, in fact, when 
you did that you were doing what was your right and when you 
chose not to was actually the exception that should be noted 
here today?
    Ms. Goodling. I think Presidents of both parties have the 
right to pick the people who serve them.
    Mr. Issa. Thank you, and hopefully the Chairman will 
respect the fact that perhaps today we have concentrated on 
whether or not the President has a right to choose people in 
his own party when, in fact, that is not the debate here today 
and shouldn't be. Thank you.
    Mr. Conyers. The Chair is pleased to recognize the only 
State prosecutor on the Committee, the gentleman from 
Massachusetts, Bill Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman; and thank you for 
your appearance here today.
    I just want to speak about the process, the hiring process 
and the termination process. It came to me as a surprise that 
someone of your experience--and I say this respectfully--was 
delegated by the Attorney General via an executive order that 
bypassed Mr. McNulty, that was extraordinary in its powers and 
authority to someone of your limited experience in terms of 
your legal experience.
    Were you familiar with that order?
    Ms. Goodling. I was.
    Mr. Delahunt. You answered my question.
    What came to me as a surprise and maybe you can explain to 
us why the executive order by the Attorney General bypassed Mr. 
McNulty, who is the second in command; and as an addendum to 
that order, the so-called control sheet, it was stated that he 
was not to be made aware of the order. I find that disturbing 
in terms of having a professional process that wasn't about 
political appointees but was about career and interim 
appointees. That I find very disturbing.
    Ms. Goodling. I would like to explain to you what the 
reason was.
    Mr. Delahunt. Please.
    Ms. Goodling. This issue came up late in the fall of 2005. 
The Justice Management Division notified me that they had 
determined that the Deputies Attorney General going back many 
years, or at least a long period of time, maybe even into the 
previous Administration, had been signing off on personnel 
actions that had never been delegated to them and in some cases 
had further delegated those decisions to others; and they told 
me that David Margolis was one of those individuals that had 
made those decisions. There had never been a delegation of the 
personnel authority down to the Deputy Attorney General and no 
ability for that individual to further delegate; and they had 
realized that they had a problem. There had been all these 
personnel actions that had been signed off.
    Mr. Delahunt. Let me just interrupt, because my time is 
limited. Why not notify the existence of the executive order to 
Mr. McNulty, who is the second in command of the Attorney 
General? Why a specific statement, a specific statement that 
Mr. McNulty was not to be notified regarding this executive 
order that was vetted and caused considerable controversy, 
considerable controversy within the Department of Justice 
itself, according to a report in the National Journal?
    Ms. Goodling. I actually don't think it did generate 
controversy.
    Mr. Delahunt. Are you familiar with the article I am 
referring to?
    Ms. Goodling. I did read the article, and I found it to be 
not very accurate.
    Mr. Delahunt. That is fair.
    Ms. Goodling. There was not actually a decision not to 
notify him of the Attorney General's order. It actually was an 
Attorney General's order, not an executive order.
    Mr. Delahunt. I meant----
    Ms. Goodling. The decision was made that Mr. Sampson would 
tell him about it personally. But he didn't sign off on it 
because what we were doing, the first part of this chain was to 
delegate to the Deputy Attorney General the authority that 
people had assumed for many years had already been done. People 
didn't think it was right to ask the Deputy to sign off on and 
approve something that would be delegating him authority in 
some cases, and there was a small portion that removed it. It 
just seemed to be odd for the Deputy to be sign off on 
something that was giving himself authority.
    Mr. Delahunt. I will accept that. At the same time, it did 
remove some of the authority from him and conferred it upon you 
and Mr. Sampson.
    Ms. Goodling. No, it actually gave him authority that he 
never had. It gave him personnel authority.
    Mr. Delahunt. Let me accept that answer, and again let me 
just make a comment about the process. You know, Mr. Comey, 
correct?
    Ms. Goodling. Yes, I do.
    Mr. Delahunt. You are aware of his reputation?
    Ms. Goodling. I am.
    Mr. Delahunt. How would you describe his reputation?
    Ms. Goodling. I would describe him as a straight shooter.
    Mr. Delahunt. And in terms of his professional legal 
credentials?
    Ms. Goodling. They are outstanding.
    Mr. Delahunt. They are outstanding. And his testimony 
before the United States Senate was that those prosecutors that 
were terminated were outstanding members of the bar, were 
excellent in terms of their performance. My only inference is 
that the process in which you were implicated was a flawed 
process, given the disparity between the experience of those, 
including yourself, that were involved and that of the true 
professionals in the Department of Justice like Mr. Comey. 
Thank you.
    Mr. Conyers. Thank you. Did you want to respond to that?
    Ms. Goodling. I just wanted to say that it wasn't uncommon 
for one person to have one experience with the U.S. attorney 
and for someone else to have another. Sometimes you might work 
with Mr. Smith on something and find him to be very responsive 
and someone else may have a different experience. It wasn't an 
uncommon thing for people to assess people differently, and 
that sometimes happened.
    Mr. Conyers. But with this Mr. Smith it is always quite 
positive.
    The Chair reminds our Members to allow the witness to 
complete her responses to their questions.
    I am pleased now to recognize Mike Pence of Indiana.
    Mr. Pence. Thank you, Mr. Chairman; and, Ms. Goodling, I 
appreciate very much your testimony today.
    I supported the granting of use immunity in this case 
because I am not afraid of facts, and Abraham Lincoln said it 
best. He said, give the people the facts and the Republic will 
be saved; and I am grateful for your candor coming before this 
Committee today and grateful for your service in that 
testimony.
    I was looking a little bit at your biography. I was piqued 
by a story on April the 8th, and I think the Boston Globe that 
reflected on the harsh spotlight that had been drawn on the 
Administration's tendency--I am quoting now--to hire 
individuals from ``conservative schools with sometimes marginal 
reputations.''
    You are a graduate, I think, cum laude from--is it Regent 
University School of Law and Government, Virginia Beach, 
Virginia?
    Ms. Goodling. I have a master's in public policy and a law 
degree from Regent, yes.
    Mr. Pence. You may know that the Attorney General of the 
State of Virginia is also a graduate of Regent University of 
Virginia Beach, Virginia?
    Ms. Goodling. I have heard that.
    Mr. Pence. And I would assume you are not terribly 
concerned about the tendency of a conservative President to 
hire graduates from conservative graduate schools.
    Ms. Goodling. Not at all.
    Mr. Pence. Nothing that would concern you about that?
    Ms. Goodling. No.
    Mr. Pence. This graduate of a Christian college appreciates 
your sentiment about that, and it really leads me to the--my 
sense of this, and I want to ask you just a couple of yes no 
questions, if I can.
    Ms. Goodling, I still haven't heard any facts or seen any 
facts that show anything illegal about the U.S. Attorney 
firings themselves; and I am trying to focus, as I did when the 
Attorney General was here, on the issue of wrongdoing and of 
illegality. When the Attorney General came before this 
Committee, he was very candid about mismanagement and 
administrative errors that were made. And I understand people's 
harsh criticism of those things. We expected better. We didn't 
get better. That is different, it seems to me, from wrongdoing.
    I am listening very intently, and I am studying this case, 
and I want to explore this issue of illegal behavior with you. 
Because it seems to me so much of this and even something of 
what we have heard today in this otherwise cordial hearing is 
about the criminalization of politics. In a very real sense, it 
seems to be about the attempted criminalization of things that 
are vital to our constitutional system of government, mainly, 
the taking into consideration of politics in the appointment of 
political officials within the government; and I want to speak 
to you about that.
    So let me see if you can, since you got a lot better grades 
than I did in law school. Is there anything illegal about the 
President being served at his pleasure by the people he 
believes would be best?
    Ms. Goodling. No.
    Mr. Pence. Is there anything illegal about the President 
being able to dismiss any of his political appointees for any 
reason or for no reason at all?
    Ms. Goodling. No.
    Mr. Pence. Is there anything illegal under our system about 
the President taking political considerations into account in 
determining who his political officials will be?
    Ms. Goodling. No.
    Mr. Pence. Is there anything illegal about taking those 
considerations into account since they are vital to the 
President being held accountable to the people and especially 
to the people who elected him?
    Ms. Goodling. No.
    Mr. Pence. Lastly, is there anything illegal about taking 
those considerations into account since they are just as vital 
to the President's ability to assure that his officials are 
accountable to him?
    Ms. Goodling. No.
    Mr. Pence. With that, I appreciate those straightforward 
answers.
    Again, I just would say to my colleagues on both sides of 
the aisle on this Committee I am troubled about the fact that 
we seem to be moving ever further down the road of the 
criminalization of politics, and I appreciate the testimony 
that politics can be practiced in political appointments within 
an Administration.
    I yield back the balance of my time.
    Mr. Conyers. I thank the gentleman.
    The Chair is pleased now to recognize Steve Cohen, the 
gentleman from Tennessee, former State Senator.
    Mr. Cohen. Thank you, Mr. Chairman.
    Ms. Goodling, I have read your vitae. It says you grew up 
and you mostly went to public schools. Was that K through 12?
    Ms. Goodling. Yes.
    Mr. Cohen. And it says you want to Christian universities 
in part because of the value they placed on service. What was 
the other part that you chose Christian universities?
    Ms. Goodling. I chose them because I had a faith system, 
and in some cases--I went to American University for my first 
year of law school, and then I transferred, and I enjoyed 
studying with people that shared a similar belief system that I 
did. It didn't mean there wasn't a lot of diversity of 
discussion, because, in some cases, I actually found the debate 
at Regent was much more vigorous than it was at American 
University my first year of law school. But I enjoyed being 
surrounded by people who had the same belief system.
    Mr. Cohen. The mission of the law school you attended, 
Regent, is to bring to bear upon legal education and the legal 
profession the will of Almighty God, our Creator. What is the 
will of Almighty God, the Creator, on the legal profession?
    Ms. Goodling. I am not sure I could define that question 
for you.
    Mr. Cohen. Did you ask people who applied for jobs as AUSAs 
anything about their religion?
    Ms. Goodling. No, I certainly did not.
    Mr. Cohen. Never had religion discussions come up?
    Ms. Goodling. Not to the best of my recollection.
    Mr. Cohen. Is there a type of student, a type of person you 
thought embodied that philosophy of Regent University that you 
sought out at AUSAs?
    Ms. Goodling. In most cases, the people at Regent are good 
people trying to do the right thing who wanted to make a 
difference in the world. If the question is if I was looking 
for people like that, the answer is yes. I wasn't necessarily 
looking for people who shared a particular faith system. I 
don't have any recollection that that entered into my mind at 
any point. But certainly there are a lot of people who applied 
to work for this President because they share his same faith 
system and they did apply for jobs.
    Mr. Cohen. Are there an inordinate number of people from 
Regent University Law School that were hired by the Department 
of Justice while you were there?
    Ms. Goodling. I think we have a lot more people from 
Harvard or Yale.
    Mr. Cohen. That is refreshing.
    Is it a fact--are you aware of the fact that in your 
graduating class 50 to 60 percent of the students failed the 
bar the first time?
    Ms. Goodling. I don't remember the statistics, but I know 
it wasn't good. I was happy I passed the first time.
    Mr. Cohen. You mentioned in your opening statement Mr. 
Charlton was a problem district based on complaints you heard 
about unauthorized discussion with Members of Congress. Who 
told you about the violation of that departmental policy?
    Ms. Goodling. I think I was aware of it in part because I 
was in the executive office and complaints would come to me. I 
don't remember specifically who, but it was something I believe 
that had happened more than once and I heard about it from 
different people at different times.
    Mr. Cohen. What are unauthorized discussions with Members 
of Congress?
    Ms. Goodling. Almost any--we would encourage U.S. 
attorneys, if they knew a Member of Congress personally and 
they got invited to a birthday party or something like that--of 
course, we didn't necessarily care if they went to a birthday 
party. But if it was going to be a discussion about Department 
of Justice, the policy was they would talk to the Department 
before they had those conversations and certainly before they 
asked or made any request or stated any position.
    Mr. Cohen. You also mentioned that Mr. Vines was a problem 
district. He is from the middle district of Tennessee--or was. 
Who gave you that information and what was the reason that was 
a problem district?
    Ms. Goodling. I actually believe I heard most of the 
information from Robin Ashton in the Executive Office of U.S. 
Attorneys. When I got to that office, she told me that that was 
an office that--it had a lot of problems, and they were 
historical problems.
    Mr. Cohen. What were the problems? Define ``problems''.
    Ms. Goodling. There was a lot of turmoil among the staff, 
different camps of people that weren't working together. The 
U.S. attorney, I was told by Ms. Ashton, had actually hired a 
management analyst to come into the office and analyze the 
career people that worked for him; and that involved some of 
the career staff being asked to go to, as she told me--to the 
best of my recollection, anyway--a cabin with the management 
consultant or a psychiatrist for the weekend and be analyzed. 
Then they would come back and send the report to the U.S. 
attorney, and the U.S. attorney thought that this would help 
him understand his staff.
    It was a very bizarre tale, and I may not be remembering it 
correctly. But, in any case, the career staff in that office 
didn't appreciate being asked to be analyzed, and it caused 
some turmoil.
    Mr. Cohen. I understand Mr. Vines was a subject possibly of 
an age discrimination suit. Is that accurate?
    Ms. Goodling. I think there were multiple age 
discrimination suits.
    Mr. Cohen. Do you know what came of that? Is that still 
ongoing?
    Ms. Goodling. I believe I heard that one or two may be 
settled and one may be going to trial, but I don't know. That 
may been resolved by now.
    Mr. Cohen. While you were asked questions that were 
accurate concerning the President's power to hire or fire 
whoever he wanted, isn't it a fact historically before this 
President there were not U.S. attorneys who were asked to leave 
or who were fired during their term or in the terms of the 
President except in times of scandal or performance-related 
disagreements?
    Ms. Goodling. You know Mr. Gerston testified in the Senate, 
and I was there, and he said he did not think it was 
unprecedented. He thought it had happened before. But he didn't 
elaborate, and I never heard that he provided examples.
    You know U.S. Attorneys are confirmed for 4 years, and it 
wouldn't surprise me to find that in the Justice Department's 
long history it has happened, but I can't give you any 
examples.
    Mr. Cohen. Thank you, ma'am.
    Mr. Conyers. The Committee will stand in recess for three 
votes and a lunch, which will require our returning at 2 
o'clock sharp. The room will also be cleared except for 
unauthorized--except for authorized staff so that the room can 
be reset.
    The room will be cleared except for authorized staff.
    [Recess.]
    [2:12 p.m.]
    Mr. Conyers. The witness and her counsel are back. Thank 
you. Before we resume questioning, I would note that while a 
number of Members haven't had the opportunity to question our 
witness, there are a number of questions remaining unanswered, 
I would like to make the best of this opportunity while we have 
Ms. Goodling here, and I will discuss with our Ranking minority 
Member, Mr. Smith, how we might best approach this situation, 
whether by having a second round of questions or a shorter set 
period of extended questioning under House Rules might be the 
better way to go. And these discussions have not begun yet.
    The Committee will resume, and Randy Forbes of Virginia is 
the next person to be recognized.
    Mr. Forbes. Thank you, Mr. Chairman. Ms. Goodling, many of 
us feared this day would come, but we did not realize it would 
arrive so soon. When the fact that someone was a Christian 
would be the subject of a line of questioning as to how someone 
performed their job at the Department of Justice or any other 
agency in the United States Government, it is not a good day, 
nor a good sign of things to come, and I just hope those 
individuals watching this across the country realize the sea 
change that is taking place.
    In addition, since my district is contiguous to Regent 
University, I would like to point out that not only is the 
Attorney General of Virginia a graduate of Regent University, 
but this year Regent University students won the American Bar 
Association's Negotiation Competition on February 11th, not 
only beating out 220 teams, but also beating out the former 
winner, Harvard University. And the American Bar Association, 
not exactly a bastion of conservatism, has chosen Regent 
University to compete internationally in their competition. And 
that Regent has won the ABA's national Appellate Advocacy 
Competition 11 out of the last 14 years, including placing 
first for the best brief.
    Now Ms. Goodling, I know it is sometimes difficult when you 
sit at a table with a hearing like this, when earlier today you 
had dozens of cameras snapping in your face, and trying to 
field questions by 40 Members, some of whom we might 
characterize as, let's say, less than friendly. At some of our 
recent hearings some of our Members, you need to know, of this 
very Committee have said that Members of the Committee have 
turned their words around. And even Members of this Committee 
have been unsure of what they said 5 minutes after they said 
it, much less 5 minutes or 5 months before, as we expect you to 
remember. You have been very gracious in your testimony today, 
and we just thank you.
    You know, we are on a fishing expedition today to see if 
there was any politics involved in making what everybody here 
recognizes as political appointments. As the distinguished 
former Chairman of this Committee stated earlier, ``There just 
are not any fish in the pond.''
    Chairman Conyers stated at the outset of today's hearing 
that its purpose was to get to the bottom of ``any possible'' 
wrongdoing. Not that there is even any alleged wrongdoing. 
Chairman further stated the importance of the Justice 
Department, ``fairly and impartially,'' performing its role. 
The Chairman then talked about making certain employees of the 
Justice Department were not merely, ``pawns in a game of 
politics.'' So far throughout this hearing there not only is no 
evidence of wrongdoing, but there is no allegation of any 
wrongdoing on your part. What puzzles me, and quite honestly 
embarrasses me, is that we do not apply the same standard to 
ourselves.
    Currently we are a Nation at war. As such, one of the most 
important things we can do is to ``fairly and impartially'' 
appropriate taxpayer funds for military projects. It is 
absolutely crucial that these projects not become ``pawns, in a 
game of politics.'' Yet yesterday there was a resolution, this 
resolution on the floor of the House that was not a fishing 
expedition, but rather a specific allegation, that to the best 
of my knowledge has not been refuted, that against the rules of 
this House, which are contained right here, written and adopted 
by the majority, a senior member of the majority and the 
Chairman of the Appropriations Subcommittee on Defense, the 
very Committee that would allocate taxpayer funds to crucial 
military projects, threatened potential earmarks in the Defense 
Appropriation bill of a Member of this House not because they 
were not needed for the defense of this Nation, but merely 
because that Member spoke against and voted against a $23 
million project that Chairman wanted in his own district. Yet 
the same majority that calls these hearings today voted 
yesterday to not even discuss, to not even look at those 
unrefuted allegations.
    I challenge my friends on the other side of the aisle to 
explain how they justify these actions. I challenge my friends 
on the other side of the aisle to explain why it is not as 
important that the American people have confidence when it 
comes to allocating their tax dollars for national defense, 
that the rules of the House should be followed, and those 
allocations made on a ``fair and impartial'' basis, with an 
equal or greater priority than we have for political 
appointees.
    The reason some do not understand the relevance of those 
questions is very simple. We do not apply the same standard to 
ourselves as we apply to you. For that I am sorry. And I wanted 
to say you have succeeded in doing what you set out to do 
today, and that is showing your commitment and your good 
character that led you to a career in public service. And I 
just thank you for the graciousness with which you have been 
here today and for coming and being here this afternoon. And 
with that I yield back, Mr. Chairman.
    Mr. Conyers. The Chair now recognizes the distinguished 
gentleman from Florida, Robert Wexler, for his remarks.
    Mr. Wexler. Thank you very much, Mr. Chairman. Ms. 
Goodling, I very much appreciate how difficult it is to sit 
here for extended periods and answer our questions. With that 
in mind, I would like to ask you a few questions about some of 
the things you either stated earlier or alluded to earlier. You 
spoke about a meeting that you attended in the White House 
where Karl Rove was also in attendance. Was that the meeting at 
the White House on March 5th that you refer to?
    Ms. Goodling. Yes.
    Mr. Wexler. And could you tell us who else was at the 
meeting? I assume you were there, Mr. Rove was there. Who else 
was at that meeting?
    Ms. Goodling. It was a meeting called by the White House 
Counsel's Office. Fred Fielding was there, Bill Kelley was 
there. There were some people from White House Communications, 
Dana Perino, I am not sure of the other. Some people from White 
House Political, I believe, but I am not sure. It might have 
been Scott Jennings, but I am not 100 percent. From the 
Department, well, you may know people from the Department from 
the calendar entries. The other White House people----
    Mr. Wexler. Who from the Department was there?
    Ms. Goodling. Kyle Sampson and then myself. The Deputy, 
Mike Elston, Will Moschella, Brian Roehrkasse from our Public 
Affairs Office. I am not positive of the others. I think there 
were others. And they were on a calendar invite that has been 
released from the Department. Mr. Rove came in late and then 
left early. But he was there.
    Mr. Wexler. Do you recall Mr. Rove at that meeting saying 
that the Department of Justice needed to provide specific 
reasons why the prosecutors were terminated?
    Ms. Goodling. I remember he said something, but I don't 
remember exactly what the comment was. I remember somebody else 
from the White House, I believe it was, made some comment, and 
then he emphasized it or reemphasized it. At least that is what 
I remember. But I don't remember the substance of it. But that 
is certainly something that did come up, so that might have 
been the occasion. I just can't remember.
    Mr. Wexler. How long was Mr. Rove in the meeting?
    Ms. Goodling. You know, I don't--I don't remember, because 
I don't remember how long the meeting was. I guess maybe he was 
there half the time that the rest of us were there.
    Mr. Wexler. M-hm.
    Ms. Goodling. But I didn't fix it in time.
    Mr. Wexler. What happened? What occurred at the meeting? 
Could you tell us?
    Ms. Goodling. There was a discussion about Will Moschella's 
testimony, in particular the position the Department should 
take on the legislation. It was very clear--the White House 
folks made clear that they did not think that the legislation 
should be held up, that they just wanted it to pass. And they 
made clear that we weren't to take a position against the 
legislation in the hearing the next day.
    Mr. Wexler. Was there any discussion about the termination 
of the prosecutors?
    Ms. Goodling. I remember at one point there was a reference 
to when Tim Griffin's name was submitted to the President for 
approval. And I checked my book and said that it was June. I 
think that was the only comment I made in the meeting. And I 
think that is the only reference to a specific individual I 
remember in the meeting. Mr. Sampson had suggested that maybe 
the way to conduct the meeting would be for people to read 
through Mr. Moschella's prepared remarks and then comment on 
them. So part of the meeting was people reading the remarks and 
then talking about them. There was a comment about the 
Department needing to explain its reasons, but I don't remember 
who made it. But it was made.
    Mr. Wexler. There was a comment about the Department 
needing to explain its reasons for----
    Ms. Goodling. I believe there was a reference to the 
Department needed to explain the reasons for the dismissals or 
maybe--it might have been a comment made by the communications 
folks that they just wanted people to be clear in the 
testimony. I can't give you a specific, and I don't remember 
who said it.
    Mr. Wexler. Did you go to many meetings at the White House 
at that time?
    Ms. Goodling. No, not that many.
    Mr. Wexler. Was that your first, second, third, fourth?
    Ms. Goodling. No. I hesitate to guess. Maybe 10 or 15.
    Mr. Wexler. Okay. So the bottom line here is to the best of 
your recollection somebody said the Department of Justice needs 
to come up with its reasons why the prosecutors were 
terminated. It may have been Karl Rove, or he may have just 
reemphasized what someone else said. Correct?
    Ms. Goodling. There was a comment about people needing to 
be clear about what we did, something along that line. It may 
have been by the communication people. I just can't tell you 
any more than that.
    Mr. Wexler. Did Karl Rove say anything else in the meeting, 
or was that the entire purpose why he came?
    Ms. Goodling. I only remember that I feel like he said one 
thing, but that is all that I have in my memory.
    Mr. Wexler. So to the best of your recollection, the reason 
why Karl Rove spent his valuable time was one, and that was to 
tell the Department of Justice to come up with reasons why it 
fired eight or nine prosecutors.
    Ms. Goodling. I don't think anyone said come up with. I 
believe it was more a matter of explain what you have done. But 
again, I don't know that was his comment. I just can't--I can't 
recall. I remember that I felt like he interjected one thing 
into the conversation.
    Mr. Wexler. Thank you very much.
    Mr. Conyers. Thank you, sir. The Ranking Member on the 
Judiciary Immigration Subcommittee, Steve King of Iowa.
    Mr. King. Thank you, Mr. Chairman. Thank you, Ms. Goodling, 
for your testimony here today, and for the poise with which you 
have presented to this Committee. And as I listen carefully to 
the words that you have chosen, I believe it is anything but 
scripted. I think it is a careful analysis of your memory, and 
as truthful as you can possibly be under any circumstances, let 
alone the circumstances with about $50,000 worth of camera 
lenses sitting in front of you. I just first reflect upon 
something that I think was responded to very well by Mr. Forbes 
of Virginia. But I had gone back in the break and took a look 
at the founding documents of Harvard University. And I find 
that Harvard University was founded upon Puritan principles. 
And I would point out that the founder was John Harvard, who 
was a young minister, and that one of the principles was to be 
consistent with the Puritan philosophy of the first colonists. 
Many of its early graduates became ministers in Puritan 
congregations. To advance learning, perpetuate it through 
posterity, quote, dreading to leave an illiterate ministry to 
the churches. So Harvard was founded to supplement the ministry 
itself. And then when I look back on the founding documents of 
Yale, and I find that they wanted to establish--they did 
establish Yale in 1701 as a result of a conservative reaction 
by Congregationalist leaders, worried of what they identified 
as the increasing departure of Harvard College from its 
Calvinistic heritage.
    So then I look at Regent University, which Mr. Forbes has 
so well laid out their credentials, and also your credentials 
simultaneously, whether it was advertent or inadvertent, and 
here I read our students, faculty and administrators share a 
calling founded on Biblical principles, to make a significant 
difference in our communities, our cities and our nations in 
the world. So I would submit Regent is a successor to Yale, 
which is a successor to Harvard in being founded upon religious 
principles. And this Nation was founded upon religious 
principles, as was our Constitution. And so I think it is a 
laudable thing, not a derogatory thing. And we will on this 
side of the aisle stand up for all of our principles, our 
constitutional principles, and our Christian principles 
whenever they are challenged, or whenever we have the 
opportunity without them being challenged. And I thank you for 
representing an opportunity to do that today.
    So I would go into the serious part of this discussion, not 
that that was not, but the more informative part, and that 
would be if I could ask you to more fully explain to us the 
procedures that were adopted and the reasons for them to be 
adopted, your role and that of Kyle Sampson's in selecting new 
officials. What was the reason for that? Could you go into that 
with some more depth? What was the rationale behind that?
    Ms. Goodling. You mean the U.S. Attorney officials or----
    Mr. King. Yes. Between the U.S. Attorney and that 
replacement of U.S. Attorneys. Let me just make it a little 
easier. Was there a legacy from the Clinton administration that 
needed to be addressed?
    Ms. Goodling. Do you mean in terms of process of hiring 
or----
    Mr. King. The process or rules or policy. How about 
regulatory language?
    Ms. Goodling. If you are addressing the delegation and the 
regulation that Mr. Delahunt was asking about earlier, I 
appreciate the opportunity to explain that a little bit more 
fully. There was a discovery that there had not been in fact a 
delegation to the Deputy Attorney General, and that it needed 
to be corrected. So what actually happened was a regulation was 
sent up to the Attorney General. And then I received it as the 
staff person responsible for things that originated from the 
Justice Management Division. And it was really to fix some 
problems. A second piece of that was a ratification of past 
personnel actions to make sure all the decisions that had been 
made by the Deputy Attorney General, and those he had delegated 
to in the past, were ratified and correctly established. So 
that was the second piece of the package.
    The third piece of the package was to do the delegation to 
the Chief of Staff and the White House Liaison. And I actually 
wasn't the White House Liaison at the time. And as I think back 
on it, and I may not be remembering everything, but it was 
essentially housekeeping. And the regulation was actually 
giving authority to the Deputy Attorney General. It did retain 
from the deputy and the associate personnel authority for their 
staffs, which was largely historical, but on a more informal 
basis. The Attorney General's staff had I understood 
historically had some responsibility for working with those 
staffs. But it established that for the first time. So in that 
regard it did withhold some authority. But that is a little bit 
more full explanation of it.
    Mr. King. Thank you. And I appreciate that. And I would 
just quickly point into the record that we have important 
issues before this Congress. One of them was raised by Mr. 
Forbes with regard to the privileged motion that was brought 
yesterday. Another one was raised by the gentleman from 
Wisconsin in a previous hearing that had to do with a gentleman 
who was under investigation, a briber and a bribee as I recall, 
and the briber has been sentenced; the bribee has not been 
addressed. There is another investigation that has to do with 
Chairman of Justice Approps, who is sitting over the 
appropriations of the Justice committee. All of these things 
are far more important than this issue that is before you 
today. And I would say that this is a circus without a cause, 
and it is time to drop this issue. And I thank you for your 
testimony, and I yield back.
    Mr. Conyers. The Chair now recognizes the gentleman from 
Georgia, a magistrate in his former life, Hank Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. Ms. Goodling, I 
noticed you have got three lawyers, fine lawyers who have been 
with you today, and you all have been preparing for this event 
for some time. Who is paying for your lawyers?
    Ms. Goodling. I am paying for them.
    Mr. Johnson. Has anyone agreed to reimburse you for legal 
fees?
    Ms. Goodling. No. I intend to establish a legal defense 
fund at some point, but I haven't had the chance to do that 
yet.
    Mr. Johnson. Well, ma'am, let me ask you this question. On 
March 1, 2006, there was an order, ORDER NO. 2808-2006 entitled 
Delegation of Certain Personnel Authorities to the Chief of 
Staff, to the Attorney General, and the White House Liaison of 
the Department of Justice.
    Were you aware of that order when you were hired as White 
House Liaison.
    Ms. Goodling. Yes. That is the third piece of the 
discussion that I was just having.
    Mr. Johnson. And that order granted broad authority to you 
and the Chief of Staff, who was Kyle Sampson, to take ``final 
action in matters pertaining to the appointment, employment, 
pay, separation and general administration'' of a wide range of 
employees in the Department of Justice, including associate--
assistant U.S. Attorneys. Is that not correct?
    Ms. Goodling. I actually don't believe that delegation 
related to AUSAs.
    Mr. Johnson. Let me ask you this question. You acknowledged 
or you stated in your statement to this Committee that you do 
acknowledge that you may have gone too far in asking political 
questions of applicants for career positions. Correct?
    Ms. Goodling. Yes.
    Mr. Johnson. Did those career positions include assistant 
United States attorneys?
    Ms. Goodling. Yes.
    Mr. Johnson. And about how many times did you exercise that 
authority with respect to assistant U.S. Attorneys?
    Ms. Goodling. I don't recall that I interviewed----
    Mr. Johnson. Would you say that would be 30, 40, 50, or 
more?
    Ms. Goodling. I don't think--I don't know that I could--I 
don't know that I could estimate. I had waiver requests that 
came in from time to time.
    Mr. Johnson. I am speaking just of your assistant U.S. 
Attorneys. How many times did you use political questions in 
your evaluation of assistant U.S. Attorneys?
    Ms. Goodling. I don't know that I could estimate. Sometimes 
people came to the Department, and they were just interested in 
coming to the Department, and they interviewed with me for 
political positions or AUSA positions.
    Mr. Johnson. I am talking about--a U.S. attorney's is not a 
political position, that's a career position, right?
    Ms. Goodling. Right.
    Mr. Johnson. How many times did you use that power that you 
had to hire and fire with respect to hiring of assistant U.S. 
Attorneys and you used political reasons for making a decision 
not to hire? How many times did you do that?
    Ms. Goodling. I can't give you an estimate.
    Mr. Johnson. Would you say less than 50 or more than 50?
    Ms. Goodling. I hesitate to give you a reason, just because 
I--or an estimate, because I can't remember. I don't think that 
I could have done it more than 50 times, but I don't know. I 
just--there were times when people came to the Department and 
they were interested in career positions or political 
positions, and those people I certainly asked political 
questions of.
    Mr. Johnson. Okay. Let me ask you, these people that you 
asked----
    Mr. Dowd. Mr. Chairman, may she finish her answers? That is 
the fourth time he has interrupted her answer, and I would 
appreciate letting her finish her answer.
    Mr. Johnson. Mr. Chairman, if I might respond?
    Mr. Conyers. You may not respond. Just let her just finish 
her answers, please.
    Mr. Johnson. I don't want her to take up all my time, 
though, because I am trying to get forward with some other 
questions.
    Ms. Goodling. I was involved in career hiring in a number 
of different ways. Sometimes because people would come in and 
they would be interested in different sorts of positions at the 
same time, and they would sometimes get asked political 
questions. When I was looking at waiver requests for AUSA 
positions----
    Mr. Johnson. This is not responsive to my question.
    Ms. Goodling [continuing]. I did not normally ask 
questions.
    Mr. Johnson. All right. Thank you. Now, did the Attorney 
General know that you were asking political questions of 
applicants for career positions?
    Ms. Goodling. I don't believe that he knew.
    Mr. Johnson. Did the Deputy Attorney General know that you 
were asking those kinds of questions of career--of applicants 
for career positions?
    Ms. Goodling. I am sorry, it depends on the category. I am 
sorry, I was just involved into too many categories of 
personnel things to give you straight answers that are going to 
apply to each one.
    Mr. Johnson. Well, let me ask you this question then. Who 
knew that you were asking--let me ask it this way. Did you 
discuss the fact that you were asking political questions of 
applicants for career positions with any of the following? The 
Attorney General? Yes or no?
    Ms. Goodling. Discuss it? No. I did receive resumes from 
him of Republicans.
    Mr. Johnson. The Deputy Attorney General? Yes or no?
    Ms. Goodling. I don't know.
    Mr. Johnson. The Associate Attorney General or the Acting 
Associate Attorney General?
    Mr. Conyers. The gentleman's time has expired, but please 
answer the questions.
    Ms. Goodling. I don't know specifically. But I do know that 
I did interview detailees for their offices. And I think that 
they had a sense that I was looking for people that were 
generally Republicans to work on their staffs as detailees. And 
those were people who currently held career positions. So in 
that category, I would think they had a general sense of that.
    Mr. Johnson. Did anybody in the White House know that you 
were asking----
    Mr. Conyers. The gentleman's time has expired.
    Mr. Cannon. Mr. Chairman, may I ask unanimous consent to 
introduce into the record the document----
    Mr. Conyers. Let us finish this first, and I will recognize 
you for introduction. Could I suggest to the gentleman from 
Georgia that he submit any continued line of questioning for 
the record? And we may go into a second round or work out some 
sort of circumstance that you may continue on.
    Mr. Johnson. Thank you, sir.
    Mr. Conyers. You are welcome. The Chair recognizes the 
gentleman from Florida, Mr.--Oh, wait a minute. You have a 
unanimous consent request.
    Mr. Cannon. Thank you, Mr. Chairman. I would just like a 
unanimous consent to introduce into the record the document 
that the gentleman from Georgia was referring to, which by the 
way is very careful and narrow in its delegation.
    Mr. Conyers. Please just introduce the document, please.
    Mr. Cannon. I ask unanimous consent.
    Mr. Conyers. Without objection, so ordered.
    Mr. Cannon. Thank you.
    [The material referred to follows:]
 Order for the Delegation of Certain Personnel Authorities, Office of 
 the Attorney General, March 1, 2006, submitted by the Honorable Chris 
   Cannon, a Representative in Congress from the State of Utah, and 
                   Member, Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Conyers. From Florida, our colleague Tom Feeney is now 
recognized.
    Mr. Feeney. Thank you, Mr. Chairman. Ms. Goodling, just to 
clarify the last point, there were people interested in jobs at 
the Justice Department that were not particularly choosy. They 
would be happy to serve either as a political appointee or in a 
career non-political position. Is that my understanding of the 
testimony that you just gave?
    Ms. Goodling. Yes. Sometimes people just wanted to work at 
the Department because it is a good place.
    Mr. Feeney. And in order to cover the whole realm of 
requirements and considerations, there were times when people 
were applying for more than one position but, including 
political positions, were asked appropriate political 
questions?
    Ms. Goodling. I would interview them as if they were a 
political appointee. But if I didn't have a political position 
I could, you know, recommend them for, then I would sometimes 
pass their resumes on to people for consideration for career 
positions. And certainly there were other cases where the 
Attorney General or the Deputy Attorney General or different 
people gave me resumes of people that they, you know, knew were 
Republicans and said, you know, would you consider passing 
these on, you know, to someone for consideration? So a lot of 
times when somebody sent me a resume, they sent it to me 
because they knew that I was involved in a lot of hiring, 
mostly on the political side. And when they sent me the resume, 
they told me flat out that the person was a Republican. So I 
already knew that. Sometimes when I interviewed people, even if 
I wasn't trying to ask them a political question, they would 
just self-disclose, because they knew I was a Republican, and 
they figured it would help them get the job, I assume. 
Sometimes people just self-disclosed that kind of information 
to me. And the same thing occurred when I did reference calls. 
There were times I crossed the line probably in my reference 
calls by asking, but there were other times I didn't. And 
people just would volunteer the information. So there were a 
lot of times that I received information about someone's 
political affiliation. And I am just not going to sit here and 
tell the Committee that if I knew it I could completely exclude 
it from my brain. Sometimes I knew where they were coming from, 
and I can't say that it didn't play a factor in what I thought 
about someone. I am just being honest. Sometimes it helped 
them.
    Mr. Feeney. Did you have any understanding of how the 
previous Justice Department worked under President Clinton? Was 
political considerations ever considered in either political or 
perhaps career positions to your knowledge?
    Ms. Goodling. I don't know.
    Mr. Feeney. You weren't there at the time. Well, you know, 
I just want to say that under very difficult circumstances you 
have conducted yourself with a lot of class and a lot of 
dignity. Ninety-nine percent of the cameras that were here 
first thing in the morning are gone, and I want to tell you you 
have been a huge disappointment to a lot of people that were 
expecting to find some grand conspiracy of the Justice 
Department to deny justice to the American people. So in that 
sense you have been a huge disappointment. But in another sense 
you have not been. You said that of the perhaps millions of 
people watching us at one point during the day only a few knew 
you personally. You described yourself as a fairly quiet girl, 
tries to do the right thing, tries to treat people kindly along 
the way. I always knew I wanted to grow up and do something to 
serve or help other people. And I would say that millions of 
Americans now know a lot more about you. And they are proud to 
have somebody like you serving in government. And they 
understand that this is a huge sacrifice. And I want to tell 
you that when we have such big issues in front of us it is a 
shame that we have spent so much time and money and resources 
and lawyers and investigators for a bottom line question, and 
that is was politics ever considered in the political 
appointment process or the replacement process of political 
appointees?
    I supported, by the way, issuing a subpoena to you because 
I thought maybe you had the golden answer and could tell this 
Committee that some huge crime had occurred in order to punish 
somebody because of an ongoing investigation or tried to remove 
somebody in order to interfere with an investigation. But in 
all the time that I have spent listening to witnesses and 
reading materials I haven't seen one shred of evidence to 
justify the time that we have taken on this.
    The President announced yesterday that there are ongoing 
terrorist plots to attack us here in the United States. This 
Committee has a lot of work to do fighting terror and crime and 
a number of other issues, and I just hope that Congress and 
this Committee can get on with the real work and stop the 
circus. And I want to thank you for coming today. With that I 
yield back.
    Mr. Conyers. The Chair recognizes Brad Sherman, the 
distinguished gentleman from California.
    Mr. Sherman. Thank you. I would like to talk to you about 
your work in hiring non-political folks. And you indicated just 
to the last questioner that sometimes you crossed the line when 
you were checking their references. And you asked whether, you 
know, they had been involved in politics and on what side. Were 
your superiors at Justice aware that sometimes you crossed the 
line?
    Ms. Goodling. If we are talking about detailees to 
leadership offices, those are kind of confidential policymaking 
positions. I think that people generally had a sense that when 
I was looking for people to work in the leadership offices I 
was looking to bring in people that were going to be working 
side by side with political appointees and would share those 
same views. If you are asking about other categories, like 
immigration judges or BIA members, originally I was told that 
we could, particularly in relation to immigration judges, and I 
assumed it applied to BIA positions as well. I was told that 
those factors could be considered. In relation to----
    Mr. Sherman. So you were told you could ask political 
involvement for the BIA judges and the immigration judges?
    Ms. Goodling. I was told that because they were direct 
appointments by the Attorney General that other factors could 
be considered. But I actually don't remember asking political 
questions of those applicants. I generally----
    Mr. Sherman. Who told you you could ask those questions?
    Ms. Goodling. I don't know anybody told me I could ask the 
questions. They told me I could consider other factors.
    Mr. Sherman. Who told you you could consider those other 
factors?
    Ms. Goodling. Kyle Sampson.
    Mr. Sherman. Okay. Also in looking at the non-political 
appointees, you have talked about doing Web searches. And I 
know that you, you know, used Google or LEXIS-NEXIS to see what 
was in the press. There are also though some particular Web 
sites that just focus on people's political contributions. In 
looking at non-political appointments, did you ever look at 
FEC.com or tray.com or any of the other sites that are pretty 
much focused on political giving?
    Ms. Goodling. Occasionally. Not terribly often. Frankly, it 
wasn't very common to find people in the law enforcement area 
that were active on that side. But yes, we did in some cases 
check those records.
    Mr. Sherman. Even when it was a person who had applied only 
for a non-political position?
    Ms. Goodling. I know we checked them in relation to 
immigration judges, where we thought that we could consider 
other factors. And I think that I did in some cases check them 
for detailees, mostly because I was looking for people that 
would be working in basically political positions. I don't have 
a specific recollection that I did it in an AUSA case, but I 
can't rule it out. I did a lot of research. And sometimes I 
just had a stack of resumes, and I flipped through them. And I 
don't want to rule out that at some point I did that.
    Mr. Sherman. So detailees, BIA judges, immigration judges 
were all subject on occasion, at least even if they hadn't 
applied for any political position, were all perhaps subject to 
an analysis where you were just going to, say, FEC.com or 
tray.com to see their political giving?
    Ms. Goodling. Occasionally. Like I said, I actually was too 
busy to get around to doing it terribly often. And I did 
sometimes direct staff to. I would give them resumes and ask 
them to check them. But frankly, we had a lot of other things 
going on, and it didn't often turn up anything. And it wasn't 
very helpful most of the time anyway, so----
    Mr. Sherman. I understand. There has been a discussion of 
Carol Lam's supposed failings. And I know that there was a 
letter from Senator Feinstein that is in the file of documents 
given to us where the Justice Department responds and says she 
is doing a great job. She is getting--we are on target to be 40 
percent higher on the alien smuggling prosecutions. Why would 
the Justice Department tell Senator Feinstein that these 
criticisms of Carol Lam were inaccurate and that she was doing 
a great job and then go off and fire her supposedly for not 
doing a good job?
    Ms. Goodling. I think the Department tried to address the 
concerns by saying what good things it could. You know, if you 
do two cases and then you change it to four that's a hundred 
percent increase, but four cases in a particular category may 
not actually be all that great. I think, you know, the 
Department tried to provide information to assure the Senator 
that there was some good work being done in this area, but 
maybe not as much good work as the Department wanted to have 
done.
    Mr. Sherman. But it is an extremely convincing letter that 
Justice sent, noting that half the assistant U.S. Attorneys in 
this district prosecute criminal immigration cases. Was there 
some reason you found this letter unpersuasive?
    Ms. Goodling. You know, I am not sure I really had any 
involvement in drafting it. I did hear a lot of discussions 
about Carol Lam's immigration record. And I remember hearing 
people feeling like it was difficult to respond to those 
letters, because they wanted to be able to do more----
    Mr. Conyers. The gentleman's time has expired. You can 
finish.
    Ms. Goodling. I think the Department would have been 
happier to be able to have an even more positive response, but 
provided the best response that it could.
    Mr. Conyers. Thank you. The Chair recognizes the gentleman 
from Texas, Judge Louie Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman, and I do appreciate 
the time. I do think it is noteworthy in all the complaints 
about inquiries or complaints about U.S. Attorneys, for 
example, when an election is won by less than 200 votes, and 
they are concerned that despite all the reports of potential 
voter fraud that the U.S. Attorney doesn't pursue it, that that 
somehow is offensive to inquire about that. Yet when Senator 
Dianne Feinstein writes a letter concerned about the lack of 
prosecutions over the immigration issue, not one person on the 
other side of the aisle has raised any issue about the 
impropriety of Senator Feinstein sending that letter. Why? 
Because it is a good inquiry.
    Why wouldn't it also be a good inquiry when someone is not 
pursuing human smuggling that sometimes results in death? 
Pursuing voter fraud? Now I realize our majority is trying to 
make it easier to vote so nobody is checked and we can't find 
out about voter fraud. That seems to be the direction we are 
headed. But it shouldn't be anything wrong when people are 
wanting that pursued.
    Now, as far as politics playing a role in the appointments, 
I hate to be the bearer of this news, but politics has always 
played a role in appointments. I have known of Democrats who 
were seeking to get Republican appointments, and they would 
call known Republicans and say would you please put in a good 
word for me because I know this will be an issue? And gee, I 
appreciate your testimony today, and you seem to believe you 
may have done something wrong by saying, gee, this person may 
be a liberal Democrat. Do you have any idea how many people 
would have wanted your head and contacted the White House if 
someone like you were put in your position and you thought it 
was a great idea to hire liberal Democrats? The same way that 
if Bill Clinton had put in a right wing conservative Republican 
in a position like yours, his supporters would have had his 
head. Politics is at play.
    Now, I would also like to point my colleagues to the fact 
that I had two good friends from law school who were appointed 
as Federal judges in 1992, early in that year. They got a 
letter from Chairman Biden saying he wouldn't allow politics to 
keep them from having a hearing and confirmation within 3 or 4 
months. Several months later, because of politics, he let those 
qualified judges down the vine. They were later reappointed and 
confirmed, showing how they were good, qualified. When 
President Clinton fired 93 attorneys on the same day, 12 days 
after Janet Reno was hired, there was no investigation. There 
was no quarter of a million dollars. And frankly, Chairman, I 
appreciate--I see the Chair is not here. But when I was a 
judge, if somebody had a requirement to disclose or discover to 
the other side and they presented it 30 minutes before the 
hearing, we were either going to exclude that documentation, 
because that was grossly unfair, or there would be a 
continuance. And I think it is a little unfair to present these 
documents that apparently somebody has had for some time, that 
we got 30 minutes before the hearing and I didn't get until 
over an hour into it because of the copying. So when some of us 
have been concerned about the lack of pursuit of justice, I 
don't see that as a problem.
    And I would also point out when we bring up God and 
Christianity and question somebody's belief for attending a 
religious college, that Harvard itself, we want to refer to 
them, Psalms 8 is on Emerson Hall that houses the Philosophy 
Department. What is a man that thou out art mindful of him? 
Talking to God from Psalm 8. The Latin phrase meant truth for 
Christ and the church. And that was the official motto of 
Harvard in 1692. And the rules and precepts of Harvard in 1646 
said let every student be plainly instructed, and earnestly 
pressed to consider well, whether the main end of his life and 
studies is to know God and Jesus Christ, which is eternal life, 
and therefore to lay Christ as the bottom, and the only 
foundation. It is part of the foundation.
    And I would also submit to my colleagues that the hate 
crime bill passed out of this Committee and taken to the floor 
and passed recently leaves an opening. If someone here seems to 
indicate there is something wrong about being a Christian and 
someone is induced to commit violence against that Christian, 
then the person on this Committee could possibly be charged 
under the hate crime bill as the principal for having committed 
the act of violence. And I would just encourage my colleagues 
to consider well your comments and your votes in this 
Committee.
    I yield back.
    Ms. Jackson Lee. [Presiding.] The gentleman's time has 
expired. I now recognize the gentlelady from Wisconsin, Ms. 
Baldwin, for 5 minutes.
    Ms. Baldwin. Thank you. I am hoping to be able to reach two 
lines of questioning. We will see how far we get. The first 
relates to Attorney General Gonzales's previous acknowledgment 
that for a time Milwaukee U.S. Attorney Steve Biskupic was on 
the list of people to be terminated. Do you have any knowledge 
about who suggested that Mr. Biskupic be placed on this list to 
be terminated in the first place?
    Ms. Goodling. I don't. He wasn't on the January list or the 
September list that I saw.
    Ms. Baldwin. I am aware.
    Ms. Goodling. And those were the only two I can remember 
seeing. And obviously he wasn't on the final list. I don't 
remember hearing anything else about it.
    Ms. Baldwin. Do you have any knowledge about why he was 
placed on that earlier list?
    Ms. Goodling. No.
    Ms. Baldwin. Did you ever hear of any concerns of any kind 
about Mr. Biskupic, whether from someone inside the Department 
of Justice or anywhere else?
    Ms. Goodling. I feel like I would read the press clippings 
every day. And I feel like I did occasionally see stories that 
involved his office, but I can't remember any specifically, and 
I don't remember any discussions about them.
    Ms. Baldwin. Okay. Did you ever hear of or participate in 
any discussion of whether Mr. Biskupic was loyal to the 
President or the Administration?
    Ms. Goodling. I don't remember any.
    Ms. Baldwin. Okay. Did you ever hear of or participate in 
any discussion on whether Mr. Biskupic was sufficiently active 
in prosecuting alleged vote fraud in Wisconsin?
    Ms. Goodling. I just don't remember being a part of any 
discussion about him at all.
    Ms. Baldwin. No discussions at all about Mr. Biskupic?
    Ms. Goodling. I don't recall any. Like I said, I may have 
at some point, but I just don't remember any.
    Ms. Baldwin. Okay. Mr. Sampson testified that after you 
joined the Attorney General's Office, which was before Mr. 
Biskupic was taken off the list, that he likely would have 
spoken to you about Mr. Biskupic.
    Did you ever have any conversation with Kyle Sampson about 
Mr. Biskupic?
    Ms. Goodling. You know, as I sit here today I don't 
remember any, but, you know, I can't rule it out. Sometimes 
what happened with Mr. Sampson is that we would talk about U.S. 
Attorneys in the context of other jobs that were opening up. 
Like for example when the Associate Attorney General position 
opened, when the ATF position opened, when the Office of 
Violence Against Women position opened, sometimes he would say 
let's, you know, take a look at the U.S. Attorneys and see if 
you see any there we should consider. And so sometimes I would 
say, well, what about this one or what about this one? Or I 
don't really know much about this one. And sometimes he would 
say, oh, I like that person. You know, he would have comments. 
It may have been in a context like that. But I just don't 
remember. I just don't remember any conversations about him at 
all.
    Ms. Baldwin. Okay. I am going to turn to a different line 
of questioning then. You have testified today that after Deputy 
Attorney General Paul McNulty's Senate testimony that you were 
concerned about key aspects of his testimony, and you told Kyle 
Sampson and possibly others that part of his testimony was 
inaccurate. Is that correct?
    Ms. Goodling. I said that I was concerned about the 
direction that we were going. I did raise with Mr. Elston the 
caging issue. I said I gave you information the night before, 
and his response was he just didn't think that the Deputy had 
had enough time to absorb it and feel comfortable with it. I 
remember raising that one with Mr. Elston. I believe I raised 
one or two others with Mr. Sampson. But most of my comments to 
people, particularly I think Ms. Scolinos and Mr. Moschella, 
really just related to the fact that I was concerned that we 
were opening a door to saying bad things about people that had 
worked for us. And I just thought--and I understood that 
Congress was very interested in the topic, but I just didn't 
think that it was the right thing to do to say negative things 
about people who had worked for us, you know. Their service had 
ended, and we were trying to--or at least my understanding was 
that we were trying to give them the opportunity to leave 
quietly and peacefully and to have a bright future. And I 
didn't want to do anything to damage that.
    Ms. Baldwin. With regard to Mr. McNulty's Senate testimony, 
you had concerns that key aspects of his testimony were 
inaccurate. Did you tell Mr. McNulty that you had these 
concerns?
    Ms. Goodling. I don't think I did, no.
    Ms. Baldwin. Did you tell the Attorney General that you had 
these concerns?
    Ms. Goodling. No. He was on travel at the time.
    Ms. Baldwin. Okay. And you said that you told Will 
Moschella you thought the testimony would start this issue down 
a bad road. Did you tell Mr. Moschella about the inaccuracies 
that you outlined earlier for our Committee?
    Ms. Goodling. No, I don't think so.
    Ms. Baldwin. If not, why not?
    Ms. Goodling. You know, the conversation I had with him was 
right outside the hearing room. And you know, I was--my focus 
was that I was just thinking that this--I just didn't think 
this was going to be good. I thought it would be bad for the 
U.S. Attorneys involved and bad for the Department. I just 
didn't think it was a good road. And I was--my focus was on 
that. And so I heard other things that I thought weren't quite 
right, but my focus, I was so much more focused on the other 
thought. I did go back to the Department. I mentioned a few 
things to Kyle. But again, my focus was really on the direction 
we were going. And then Kyle had asked me, well, you know what 
does the Deputy think about how the testimony went? And I said 
I don't know. I didn't speak to him. And then the next morning, 
you know, I think my recollection is that the Deputy provided 
feedback at some point that day that he had spoken to some 
folks on the Senate side, and that they had basically indicated 
that they just needed a little bit more information and that 
the issue was going away. And I think we went through a period 
of time that we basically thought that it was over. And I 
think, you know, I think I just moved on to the next thing. I 
think I moved on to getting the Deputy ready for his private 
briefing. And I just--I think we thought we were on the way to 
resolving it. And I just forgot it, I guess. I don't have any 
other explanation other than that.
    Ms. Jackson Lee. The gentlelady's time has expired. Mr. 
Franks of Arizona is next, recognized for 5 minutes.
    Mr. Franks. Well, thank you, Madam Chair. Ms. Goodling, I 
have been so impressed with the way that you have handled 
yourself here today. I think your testimony has been not only 
very credible and sincere, but just reflected a very 
conscientious attitude on your part. And I think we are all 
fortunate to have had your presence in the Justice Department. 
I was struck by your written testimony in that the motivation 
for coming into government and to the place that you came was 
to try to make a better world, to try to make things better for 
your fellow human beings. In a sense that should be the 
motivation for government in general, you know, as a protector 
of people's rights and as someone that is dedicated to justice 
in the human environment.
    With that said, you know, I can't help but hear again and 
again the questions to you related to were some of these 
firings or were some of these considerations based on political 
considerations? Well, you know, I have to repeat what has often 
been repeated here, that that is certainly within the purview 
of the Department, and certainly within the purview of the 
President to do exactly that. And I think that if someone is 
dedicated and believes in what they believe in they actually 
sometimes can believe that it serves the cause of justice to 
appoint people or to maintain people of their persuasion, of 
their belief structure, because they believe that is best for 
humanity. So in a sense you would be doing something against 
your own conscience if you didn't consider their persuasion and 
what they believed in their common pathos with yourself.
    With that said, the critical question for this Committee 
and for your Department is this thing about justice. And the 
real issue, if there is one here--and I have to think that Mr. 
Sensenbrenner is correct, I just don't see any fish in the pond 
here. But the real question is did you at any time at your stay 
at the Justice Department ever seek to prevent or interfere 
with or affect or influence any particular case or any effort 
to change the outcome of justice, that is the predicate for 
your agency, by hiring or firing or threatening to do so any 
person or any of these U.S. Attorneys that are under 
discussion?
    Ms. Goodling. I certainly did not.
    Mr. Franks. Do you know of anyone in your Department or the 
Administration that did?
    Ms. Goodling. I don't recall anybody ever saying anything 
like that. I just don't. I can't say that--I can't testify to 
what other people were thinking. And I can't testify to what 
people may have been thinking that they didn't say. But you 
know, when we--we didn't talk about what the reasons were other 
than Mr. Bogden, at least in conversations I was in, until 
after it was in progress. And I never heard anybody say 
anything like that.
    Mr. Franks. Well, I think again the reason I mentioned the 
questions in such direct terms is because that is really the 
only question that should be before this Committee, even though 
you have received every other kind imaginable. And I certainly 
have seen no evidence of any kind before this Committee that 
says that any of these attorneys were fired because of some 
effort to change the outcome of a case or to influence a case 
or to influence or thwart justice.
    And with that, I just want to thank you for coming, thank 
you for your service to your country, and I hope the very best 
in life for you.
    Ms. Goodling. Thank you.
    Mr. Franks. I yield back.
    Ms. Jackson Lee. The gentleman's time has expired. I 
recognize the distinguished gentleman from California, Mr. 
Schiff, for 5 minutes.
    Mr. Schiff. Ms. Goodling, I would like to ask you about 
some of the criteria that you and others at the Justice 
Department used to put people on the list to be fired. I think 
you testified with respect to Mr. Iglesias that there was a 
discussion about the rationale for his being on the list. 
Someone mentioned he was an absentee landlord. Someone 
mentioned that there was an improper delegation of authority. I 
think the documents reveal that those justifications were not 
learned until after he was placed on the list, but I will cover 
that later. Let me assume for the moment that that is a 
legitimate consideration.
    If a U.S. Attorney delegated too much of his authority to 
the first assistant U.S. Attorney, that might be a reason to 
place him on a list to be fired. Is that right?
    Ms. Goodling. It could be.
    Mr. Schiff. So if he delegated some of the most important 
decisions in the office, decisions over hiring key people, like 
the head of a corruption section, and delegated that away, that 
might be a reason to put him on the list?
    Ms. Goodling. I think that you would look at the totality 
of circumstances in every case. But that might be a factor you 
would consider.
    Mr. Schiff. And if you remove someone who is doing a 
corruption investigation in his office without good reason, in 
a way that interfered with the investigation, that would be a 
good reason to put him on a list to be fired.
    Ms. Goodling. I don't know the specifics of what you may be 
referring to.
    Mr. Schiff. I am just asking you generally. That would be a 
good reason to be put on a list?
    Ms. Goodling. I don't know.
    Mr. Schiff. The U.S. Attorney sets the tone in the office. 
If the U.S. attorney's mismanagement of his office results in 
low morale, and that morale affects the quality of the work 
done by the office, the reputation of the office, that might be 
a legitimate reason to put him on a list to be fired, right?
    Ms. Goodling. In some cases morale can be improved. In some 
cases, you know, you do need to make a change. But again, it is 
going to be the totality of the circumstances.
    Mr. Schiff. If Mr. Iglesias or any other U.S. Attorney came 
before Congress and testified incompletely or inconsistently or 
lacked credibility, that might be a reason to put him on a list 
to be fired. Right? Certainly if someone testifies incompletely 
or inconsistently or not fully truthfully, that would be a 
reason to be fired, wouldn't it?
    Ms. Goodling. I mean I think you would have to look at the 
circumstances. It is not easy to sit here and answer questions 
and try to give you complete answers. But, you know, I don't 
know. It may be--I mean obviously it would be something that 
you would have to look at.
    Mr. Schiff. If in the case of Mr. Iglesias or any other 
U.S. Attorney the Senators from that State, or even Senators of 
the same party expressed a loss of confidence, as the Attorney 
General testified, that might be a reason to place them on the 
list to be fired?
    Ms. Goodling. I think that that could be a factor you would 
consider in some cases.
    Mr. Schiff. And if a U.S. Attorney or any other key Justice 
Department official demonstrated an excess of loyalty, loyalty 
more to the person that hired them or responsible for their job 
than to uphold the laws and faithfully execute their office, 
that might be a reason to put them on a list to be fired, 
right?
    Ms. Goodling. I am not sure that I understand.
    Mr. Schiff. Well, you said the totality. Letus add up the 
totality of circumstances. You have a U.S. Attorney or a top 
law enforcement official at the Department who improperly 
delegates his authority, whose actions cause morale in the 
office to plummet, whose testimony before Congress is 
incomplete and inconsistent, who has lost the confidence of 
Senators of even of his own party, and who creates the 
impression that his loyalty takes a higher priority than his 
duty to uphold the laws and the Constitution. The totality of 
those circumstances would certainly warrant the position on the 
list to be fired, wouldn't it?
    Ms. Goodling. That wouldn't be my call to make.
    Mr. Schiff. By that standard, Ms. Goodling, shouldn't 
someone have placed the Attorney General himself on the list to 
be fired?
    Ms. Goodling. That wouldn't be my decision to make.
    Mr. Schiff. That would be the President's decision, 
correct?
    Ms. Goodling. Yes.
    Mr. Schiff. But morale has plummeted in the Department, 
hasn't it?
    Ms. Goodling. You know, I have left the Department. I am 
not in a position to be able to answer the question.
    Mr. Schiff. The Attorney General's testimony was 
inconsistent with his prior statement that he was not in any 
meeting or involved in any discussion of the firings. Wasn't 
that inconsistent?
    Ms. Goodling. I do think there were some inconsistencies.
    Mr. Schiff. Senators of the Attorney General's own party 
have lost confidence in his performance, haven't they?
    Ms. Goodling. I have seen newspaper accounts, but I have no 
firsthand knowledge other than that.
    Mr. Schiff. The Attorney General has certainly created a 
perception, if not a reality, that his loyalty to the President 
is a higher priority to him than faithfully executing the 
duties of his office. Wouldn't you agree?
    Ms. Goodling. I don't know what my perception of that would 
be. I worked for him, and I thought he was a good man, and I 
thought he tried hard. I just don't know that I can express an 
opinion on that. I just--I don't frankly know what I think 
about the topic.
    Mr. Schiff. I have no further questions.
    Ms. Jackson Lee. The time of the gentleman has expired. I 
recognize the distinguished gentleman from Alabama. The 
gentleman is recognized for 5 minutes.
    Mr. Davis. Thank you, Madam Chairwoman. If the mike will 
work. Ms. Goodling, I apologize for that. Let me pick up on my 
colleague's questions.
    As you know, you are no longer at the Department. Mr. 
McNulty is no longer at the Department. The person who remains 
at the Department is, frankly, Attorney General Gonzales. And 
as you may or may not be aware, Mr. Schiff and I have 
introduced a no confidence resolution for the House to vote on 
considering Mr. Gonzales. As you also may be aware, there is a 
similar resolution in the United States Senate. So I want to 
pick up on his focus on the person who is still there, the 
Attorney General of the United States.
    Going back to your testimony earlier today, Ms. Goodling, 
General Gonzales testified that he never saw the U.S. Attorneys 
list, the list of terminated U.S. Attorneys. Is that accurate 
to your knowledge, Ms. Goodling?
    Ms. Goodling. I believe he did see a list.
    Mr. Davis. So if General Gonzales testified that he didn't 
see the list, you believe that would be inaccurate testimony on 
his part, don't you?
    Ms. Goodling. I believe he saw a list.
    Mr. Davis. So therefore you believe it would be inaccurate 
testimony?
    Ms. Goodling. Yes.
    Mr. Davis. If General Gonzales testified that he had never 
been briefed about the list, do you believe that would be 
accurate or inaccurate testimony?
    Ms. Goodling. I believe it would be inaccurate.
    Mr. Davis. Are there any other inaccuracies in the 
testimony that General Gonzales gave the Senate that you are 
able to share with us?
    Ms. Goodling. I don't know that I saw all of it.
    Mr. Davis. Let me help you a little bit with one other one.
    Ms. Goodling. Yeah.
    Mr. Davis. The Attorney General testified that he was not 
involved in any discussions about the U.S. Attorney firings. Do 
you believe that to be accurate or inaccurate?
    Ms. Goodling. He was certainly at the November 27th 
meeting.
    Mr. Davis. So you believe that to be another piece of 
inaccurate testimony, don't you, Ms. Goodling?
    Ms. Goodling. Yes.
    Mr. Davis. And when did you first become aware that the 
Attorney General had made inaccurate statements to the United 
States Senate?
    Ms. Goodling. Actually, I should clarify. I think those 
were statements that he made in a press conference, not in 
testimony.
    Mr. Davis. Well, I have actually represented to you some of 
it came in testimony. But I don't want to waste valuable time 
quibbling over that. When did you first become aware there were 
inaccuracies in General Gonzales' public account? You mentioned 
three.
    Mr. Dowd. Can she see the testimony?
    Mr. Davis. Mr. Dowd, as I understand, you are not a 
participant in these proceedings. Ms. Goodling, would you like 
me to repeat the question?
    Mr. Lungren. Ms. Chairwoman, he has been asking her 
specific questions about testimony allegedly made by the 
Attorney General. We know he has testified several occasions.
    Mr. Davis. Madam Chairwoman, I would ask for a ruling and I 
be allowed to continue my questions.
    Mr. Lungren. I will make my point of order first. My point 
of order is----
    Ms. Jackson Lee. The gentleman may proceed.
    Mr. Lungren. The point of order is the witness has been 
asked questions purportedly to ask her opinion concerning 
testimony allegedly given by the Attorney General. He has cited 
testimony here in the House and testimony in the Senate. The 
witness has said----
    Mr. Davis. Madam Chairwoman, I ask for a ruling on the 
point of order.
    Mr. Lungren [continuing]. That she was--it was her 
understanding----
    Mr. Davis. Madam Chairwoman, I ask for a ruling on the 
point of order.
    Ms. Jackson Lee. If the gentleman would suspend to allow 
the gentleman to continue.
    Mr. Lungren. She just stated that she believed the comments 
she was referring to went to a press conference that the 
Attorney General made, not in testimony. Now, in the manner of 
fairness, if the gentleman is going to press his question, the 
witness has the right to look at the documents.
    Mr. Davis. Madam Chairwoman, I ask for a ruling or a 
statement of a point of order.
    Ms. Jackson Lee. The gentleman from California has not made 
a parliamentary inquiry. I think the line of questioning of the 
gentleman--on the point of order, the line of questioning of 
the gentleman from Alabama is an appropriate line of 
questioning, and I would allow the gentleman to proceed.
    I would also indicate that I appreciate the role that you 
play, but you are to counsel the witness. You are not a 
participant in the hearing, and I thank the gentleman.
    The gentleman from Alabama may proceed.
    Mr. Davis. Madam Chairwoman, can my time be restored?
    Ms. Jackson Lee. It has been suspended, and your time has 
been restored. The gentleman, Mr. Davis.
    Mr. Davis. Thank you----
    Mr. Lungren. Madam Chairwoman, I appeal the ruling of the 
Chair.
    Ms. Jackson Lee. The ruling of the Chair has been----
    Ms. Goodling. I would like to consult with my attorney.
    Mr. Davis. I move to table.
    Ms. Jackson Lee. The question is on the move to table. 
Question is on the move to table.
    All those in favor, say aye.
    All those opposed, no.
    The ruling of the Chair, the ayes have it.
    Mr. Lungren. I ask for a recorded vote.
    Ms. Jackson Lee. Recorded vote has been called. The Clerk 
is not present. This Committee stands in recess.
    Mr. Lungren. Until what time?
    Ms. Jackson Lee. Until such time as the Chair recalls or 
calls the Committee.
    Mr. Lungren. What do we tell the witness under----
    Ms. Jackson Lee. The witness has asked for consultation 
time with her lawyer. That will be granted at this time, and we 
will call the Committee in recess at this time.
    Mr. Lungren. Well, I object.
    Mr. Davis. Madam Chairwoman, may I proceed with other 
questions and move on and allow the Chair to take up this issue 
and have a separate vote later?
    Ms. Jackson Lee. Gentleman suspends. We have to suspend at 
this time. So the hearing is now in recess.
    Mr. Forbes. Point of parliamentary inquiry, Madam Chairman.
    Mr. Lungren. The motion on the floor is for a recorded vote 
on the motion to table.
    Mr. Forbes. Madam Chair, parliamentary inquiry.
    Ms. Jackson Lee. Yes.
    Mr. Forbes. Madam Chairman, you stated that we are in 
recess, but it is my understanding we couldn't go in recess if 
there was an objection, and there was an objection to the 
recess.
    Ms. Jackson Lee. The Chair has ruled that we are in the 
process of finding the Clerk, and so we are recessing for that 
purpose. I have heard the objection. The objection is heard.
    Mr. Lungren. You cannot recess. Under the rules of this 
house, you cannot recess unilaterally. We can't stop the 
business of the House because a Clerk is not here. Members are 
here. We have asked for a vote on the motion to table.
    Mr. Gohmert. Point of order. This was a recorded vote that 
was requested. You can't recess. That is nondebateable. You go 
to it.
    Ms. Jackson Lee. Is the gentleman seeking recognition? Mr. 
Schiff?
    Mr. Schiff. Yes, Madam Chair.
    Ms. Jackson Lee. Are you seeking recognition?
    Mr. Schiff. I am seeking recognition.
    Ms. Jackson Lee. You are recognized.
    Mr. Schiff. Since there is no one to record the vote----
    Ms. Jackson Lee. The Clerk is now here.
    Mr. Schiff. That answers my question.
    Ms. Jackson Lee. The question is now on the motion to 
table, and the Clerk will call the roll.
    The Clerk. Mr. Conyers.
    [no response.]
    The Clerk. Mr. Berman.
    Mr. Berman. Yes.
    The Clerk. Mr. Berman votes aye.
    Mr. Boucher.
    [no response.]
    The Clerk. Mr. Nadler.
    [no response.]
    The Clerk. Mr. Scott.
    Mr. Scott. Aye.
    The Clerk. Mr. Scott votes aye.
    Mr. Watt.
    Mr. Watt. Aye.
    The Clerk. Mr. Watt votes aye.
    Ms. Lofgren.
    Ms. Lofgren. Aye.
    The Clerk. Ms. Lofgren votes aye.
    Ms. Jackson Lee.
    Ms. Jackson Lee. Aye.
    The Clerk. Ms. Jackson Lee votes aye.
    Ms. Waters.
    Ms. Waters. Aye.
    The Clerk. Ms. Waters votes aye.
    Mr. Meehan.
    [no response.]
    The Clerk. Mr. Delahunt----
    Mr. Lungren. Point of order, Madam Chairman. The 
photographers in the well are interfering with the witness' 
opportunity to consult with counsel. I would ask that we----
    Mr. Davis. Madam Chairman, I ask that the vote continue. I 
would ask that the vote continue.
    Ms. Jackson Lee. I would ask that the gentleman from 
California would suspend, and I would ask that the vote 
continue. And I would ask that if counsel are disturbed by any 
photographers please advise the clerks or officials, and we 
will address that question.
    Would the vote proceed, please? Thank you.
    The Clerk. Mr. Delahunt.
    [no response.]
    The Clerk. Mr. Wexler.
    [no response.]
    The Clerk. Ms. Sanchez.
    Ms. Sanchez. Aye.
    The Clerk. Ms. Sanchez votes aye.
    Mr. Cohen.
    [no response.]
    The Clerk. Mr. Johnson.
    Mr. Johnson. Aye.
    The Clerk. Mr. Johnson votes aye.
    Mr. Gutierrez.
    Mr. Gutierrez. Aye.
    The Clerk. Mr. Gutierrez votes aye.
    Mr. Sherman.
    [no response.]
    The Clerk. Ms. Baldwin.
    [no response.]
    The Clerk. Mr. Weiner.
    [no response.]
    The Clerk. Mr. Schiff.
    Mr. Schiff. Aye.
    The Clerk. Mr. Schiff votes aye.
    Mr. Davis.
    Mr. Davis. Aye.
    The Clerk. Mr. Davis votes aye.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Aye.
    The Clerk. Ms. Wasserman Schultz votes aye.
    Mr. Ellison.
    Mr. Ellison. Aye.
    The Clerk. Mr. Ellison votes aye.
    Mr. Smith.
    [no response.]
    The Clerk. Mr. Sensenbrenner.
    [no response.]
    The Clerk. Mr. Coble.
    Mr. Coble. No.
    The Clerk. Mr. Coble votes no.
    Mr. Gallegly.
    [no response.]
    The Clerk. Mr. Goodlatte.
    [no response.]
    The Clerk. Mr. Chabot.
    [no response.]
    The Clerk. Mr. Lungren.
    Mr. Lungren. No.
    The Clerk. Mr. Lungren votes no.
    Mr. Cannon.
    Mr. Cannon. No.
    The Clerk. Mr. Cannon votes no.
    Mr. Keller.
    Mr. Keller. No.
    The Clerk. Mr. Keller votes no.
    Mr. Issa.
    [no response.]
    The Clerk. Mr. Pence.
    [no response.]
    The Clerk. Mr. Forbes.
    Mr. Forbes. No.
    The Clerk. Mr. Forbes votes no.
    Mr. King.
    Mr. King. No.
    The Clerk. Mr. King votes no.
    Mr. Feeney.
    [no response.]
    The Clerk. Mr. Franks.
    Mr. Franks. No.
    The Clerk. Mr. Franks votes no.
    Mr. Gohmert.
    Mr. Gohmert. No.
    The Clerk. Mr. Gohmert votes no.
    Mr. Jordan.
    [no response.]
    Ms. Jackson Lee. Are there other Members in the chamber who 
wish to cast their vote?
    The gentleman from Florida.
    Mr. Feeney. No.
    Mr. Wexler. She meant this gentleman.
    Ms. Jackson Lee. Gentleman from Florida did you cast----
    The Clerk. Mr. Wexler votes aye.
    Ms. Jackson Lee. Gentleman from California.
    Mr. Gallegly. I vote no.
    The Clerk. Mr. Gallegly votes no.
    Ms. Jackson Lee. The other gentleman from California.
    Mr. Sherman. Votes aye.
    Mr. Delahunt. How am I recorded, Madam Chair?
    Ms. Jackson Lee. Gentleman from Florida.
    That is Mr. Lungren. He gave the wrong information. 
Listening to the Ranking Member--yes, sir.
    Mr. Delahunt. Madam Chair, I am the gentleman from 
Massachusetts; and how am I recorded?
    Ms. Jackson Lee. How is the gentleman recorded?
    The Clerk. Mr. Delahunt is not recorded.
    Mr. Delahunt. I vote aye.
    The Clerk. Mr. Delahunt votes aye.
    Ms. Jackson Lee. Any other Members in the chamber?
    Mr. Meehan. I am the younger gentleman from Massachusetts. 
I vote aye.
    Ms. Jackson Lee. Any other Members wishing to vote that 
have not cast their vote?
    The Clerk will report.
    The Clerk. Seventeen Members voted aye; eight Members voted 
nay.
    Ms. Jackson Lee. And the motion fails.
    The motion to table passes. The gentleman's motion does not 
pass.
    The Clerk. Excuse me, it was 17 aye and 9 nay.
    Ms. Jackson Lee. Thank you. The Clerk has corrected, and 
the motion to table passes.
    Mr. Davis. May I resume, Madam Chairwoman?
    Ms. Jackson Lee. That you may, and your minutes are 2 
minutes and 19 seconds. We suspended the clock.
    Mr. Davis. And that is restored time, Madam Chairwoman?
    Ms. Jackson Lee. That is restored time.
    Mr. Davis. Thank you, Madam Chairwoman.
    Ms. Jackson Lee. Thank you.
    Mr. Davis. Ms. Goodling, I apologize for the interruption. 
Let me get back to you. And I will give the Clerk a chance to 
leave so you can get set up.
    Ms. Goodling, when did you first become aware that the 
Attorney General made public statements that you thought 
weren't accurate?
    Ms. Goodling. I am not sure. I think I saw the press 
conference that day, and it struck me that it wasn't right, but 
I couldn't put my finger on it right away.
    Mr. Davis. Did you communicate to the Attorney General that 
you felt his statements weren't right?
    Ms. Goodling. I don't think I did. I can't remember what 
day it was, but I don't remember that I did.
    Mr. Davis. Did you read any of the newspaper accounts of 
the Attorney General's testimony to the United States Senate?
    Ms. Goodling. I saw some of his Senate testimony, yes.
    Mr. Davis. Were there aspects of his Senate testimony that 
you thought weren't accurate based on what you read?
    Ms. Goodling. I have read so many things trying to prepare 
for today that I am afraid some of it is pretty muddled. If you 
have a particular statement to ask me about, it may help me.
    Mr. Davis. Let me come at it this way. Did you communicate 
to Mr. McNulty that you felt the Attorney General's public 
statements, whether to the press or the Committee, were not 
accurate?
    Ms. Goodling. No, definitely not to Mr. McNulty.
    Mr. Davis. Well, did you communicate to anyone that you 
felt the Attorney General's statements either to the Committee 
or to the public were not accurate?
    Ms. Goodling. No. I think that was right toward the end of 
my time at the Department, and I don't think I was really----
    Mr. Davis. When is the last time you spoke to the Attorney 
General, Ms. Goodling?
    Ms. Goodling. I spoke to him the Thursday or Friday of my 
last full week at the Department, and then I took leave the 
following----
    Mr. Davis. Do you have a good memory of that conversation, 
Ms. Goodling?
    Ms. Goodling. I have a memory of some of it.
    Mr. Davis. Was there any part of that conversation that 
made you uncomfortable?
    Ms. Goodling. Yes.
    Mr. Davis. Would you tell the Committee about it?
    Ms. Goodling. I had decided that I couldn't continue 
working on his staff. Because of the circumstances, I felt that 
I was somewhat paralyzed. I just felt like--I was distraught, 
and I felt that I wanted to make a transfer. So Iwent back to 
ask him if it would be possible for me to transfer out of his 
office.
    He said that he didn't--that he would need to think about 
that; and I think he was, you know, trying to, you know, just 
trying to chat. I was on his staff. But he then proceeded to 
say, let me tell you what I can remember. And he kind of--he 
laid out for me his general recollection.
    Mr. Davis. Recollection of what, Ms. Goodling?
    Ms. Goodling. Of some of the process.
    Mr. Davis. Some of the process regarding what?
    Ms. Goodling. Some of the process regarding the replacement 
of the U.S. attorneys. And he just--he laid out a little bit of 
it, and then he asked me if I thought--if I had any reaction to 
his iteration. And I remember thinking at that point that this 
was something that we were all going to have to talk about, and 
I didn't know that it was--I just--I didn't know that it was 
maybe appropriate for us to talk about that at that point. And 
so I just didn't--as far as I can remember, I just didn't 
respond.
    Ms. Jackson Lee. The time of the gentleman has expired.
    We now recognize the distinguished gentleman from Illinois, 
Mr. Gutierrez, for 5 minutes.
    Mr. Gutierrez. Thank you very much. I would like to yield 
my time to Mr. Davis.
    Mr. Davis. Thank you, Mr. Gutierrez.
    Had you finished your answer, Ms. Goodling, regarding your 
conversation with the Attorney General?
    Ms. Goodling. I think there was a little bit more to the 
discussion, but I am having trouble remembering it.
    Mr. Davis. Let me try to help you a little bit. I know it 
has been a long day. So let me try to help you a little bit.
    You said that you thought part of the conversation was 
inappropriate with the Attorney General? Did you say that, Ms. 
Goodling.
    Ms. Goodling. I don't know if I said--if I meant to say 
``inappropriate''. I said it made me a little uncomfortable.
    Mr. Davis. What was it that made you uncomfortable about 
your conversation with the Attorney General, Mr. Gonzalez?
    Ms. Goodling. I just did not know if it was appropriate for 
us to both be discussing our recollections of what had 
happened. I just thought maybe we shouldn't have that 
conversation, and so I didn't respond to what he said.
    Mr. Davis. Why did you think it might be inappropriate for 
you to have this conversation with the Attorney General?
    Ms. Goodling. I just knew that at some point we would 
probably all have to talk about our conversations, and I just--
I am not saying that--I am not saying that I definitely thought 
it was inappropriate. I think, in all fairness, that he was 
just talking to someone on his staff. And I was distraught, and 
I was asking for a transfer. And I think, you know, he was--he 
was being kind. He is a very kind man. But I just didn't know 
that--I thought that maybe this was a conversation that we 
shouldn't be having.
    Mr. Davis. Ms. Goodling, did you tell the Attorney General 
that you felt that part of his testimony or part of his public 
statements were not fully accurate?
    Ms. Goodling. No, I didn't.
    Mr. Davis. And was there a reason why you didn't share with 
the Attorney General that part of what he has said to the 
Committee or the public might not be accurate?
    Ms. Goodling. I just--I feel like it--I feel like after he 
had the press conference people came out fairly soon and said 
that they thought the statements were inaccurate. I don't think 
that I needed to do that. I think that other people had already 
raised questions about that.
    Mr. Davis. Do you think the Attorney General appreciated 
that he had made statements that were not accurate?
    Ms. Goodling. I don't know.
    Mr. Davis. Did you ask him?
    Ms. Goodling. No, I didn't.
    Mr. Davis. Do you think the Attorney General would have 
been concerned about making public statements that were not 
accurate?
    Ms. Goodling. I don't know what he--I know that he--I know 
that he testified before the Senate and he clarified his 
remarks from his press conference, so I believe he cared about 
the fact that he didn't express everything in the best way that 
he could. And I think he has already apologized for that and 
tried to clarify that.
    Mr. Davis. Let me ask you this, Ms. Goodling. During the 
conversation that you said made you somewhat uncomfortable with 
the Attorney General, did the Attorney General discuss the 
circumstances around any of the terminations of the U.S. 
attorneys?
    Ms. Goodling. He discussed a little bit. As I recall, he 
just said that he thought that everybody that was on the list 
was on the list for a performance-related reason and that he 
had been upset with the Deputy because he thought that the 
Deputy had indicated that, by testifying about Mr. Cummins, 
that there was--that the only reason there was to relieve him 
was in order to give Mr. Griffin a chance to serve. He said 
that he thought, when he heard that, that that was wrong, that 
he really thought that Mr. Cummins was on the list because 
there was a performance reason there, too.
    And I think there was more to the discussion. That is the 
part I am remembering right now. But I think he just kind of 
laid out what he remembered and what he thought and then he 
asked me if I had any reaction to it.
    Mr. Davis. Do you know--let me ask it this way. You say the 
Attorney General asked if you had any reaction to what he said. 
Do you think, Ms. Goodling, the Attorney General was trying to 
shape your recollection?
    Ms. Goodling. No. I think he was just asking if I had any 
different----
    Mr. Davis. But it made you uncomfortable.
    Ms. Goodling. I just did not know if it was a conversation 
that we should be having, and so I just--just didn't say 
anything.
    Mr. Davis, I don't know that I have anything to add to that 
point, but I do want to clarify to the extent that, at the 
beginning of your questioning, I indicated answers based on 
testimony. I want to be--I want to clarify that I think that 
the statements you were referencing were press accounts, and I 
didn't mean to indicate that----
    Mr. Davis. Well, Ms. Goodling, if you notice what I have 
done in my questions, I have consistently said ``either or''. I 
have referred either to public statements or to testimony.
    Let me ask you one final question in my limited time about 
the Attorney General. Do you think that it is important that 
the Attorney General of the United States give truthful, 
accurate, complete testimony to the United States Congress?
    Ms. Goodling. Of course.
    Mr. Davis. And if you were to discover, Ms. Goodling, that 
you left something out of your testimony inadvertently today, 
would you come back and correct it to the Committee?
    Ms. Goodling. I certainly would try to.
    Mr. Davis. Would that be a good practice for a witness who 
discovered that----
    Ms. Jackson Lee. The gentleman's time has expired. The 
gentleman's time has expired.
    Let me recognize the gentlelady from Florida, Ms. Wasserman 
Schultz, for 5 minutes.
    Ms. Wasserman Schultz. Madam Chair, I would like to yield 1 
minute of my time to Mr. Davis.
    Ms. Jackson Lee. Gentleman is recognized 1 minute.
    Mr. Davis. Let me repeat the question, Ms. Goodling. You 
said that if you discovered there was something incomplete or 
not accurate about your testimony, you would come back and 
correct it, is that correct?
    Ms. Goodling. I will need to consult with counsel on a 
question like that.
    Mr. Davis. Would it be a good practice for any witness who 
discovered that he had made an inaccurate statement before the 
Congress to come back and correct it?
    Mr. Lungren. Madam Chair, she asked to consult with 
counsel. The Chairman said that she would have the right to 
consult----
    Ms. Jackson Lee. This is not a point of order----
    Mr. Lungren. Point of order----
    Ms. Jackson Lee. The gentleman is out of order.
    Mr. Lungren. Point of order. The Chairman said at the 
beginning of the hearings that she would have a chance to 
confer with counsel.
    Ms. Jackson Lee. If the gentleman would suspend. If the 
witness wishes to consult with counsel, she has the opportunity 
to ask----
    Mr. Lungren. Madam Chair, she just said she did. She just 
said she did, and she's been interrupted.
    Mr. Davis. Madam Chairwoman, the witness said that----
    Ms. Jackson Lee. If the gentleman from Alabama would 
suspend, Ms. Goodling, could you state for the record, do you 
need to consult with counsel at this time?
    Ms. Goodling. I wasn't asking to consult at this second. I 
was saying that if when I go back and review this transcript I 
think that there will be a lot of things that maybe I didn't 
get the opportunity to address, but----
    Ms. Jackson Lee. I thank the gentlelady. So your answer is 
you are proceeding with your answer to Mr. Davis' question. 
Therefore, you have answered Mr. Lungren's question that you 
did not ask to consult at this time.
    Gentleman may proceed.
    Mr. Davis. Thank you.
    One question about Mr. McNulty. Did Mr. McNulty make any 
attempt to go back and correct the record regarding any aspects 
of his testimony to the Senate, to your knowledge?
    Ms. Goodling. I don't know.
    Mr. Davis. Do you know of any?
    Ms. Goodling. I don't know of any.
    Mr. Davis. And did Mr. McNulty, to your knowledge, make any 
attempt to correct the record regarding any aspects of his 
statements and closed briefings with the United States Senate?
    Ms. Goodling. I don't know of any.
    I remember at the end of my time at the Department, I 
remember there was a discussion that the Department was going 
to prepare answers to address statements that may not have been 
accurate. So I remember hearing that the Department was going 
to work on answers to do that. But I don't know if it occurred.
    Mr. Davis. My time has expired, Madam Chairwoman.
    Ms. Wasserman Schultz. Madam Chair, I yield 2 additional 
minutes of my time to Mr. Davis.
    Ms. Jackson Lee. Gentlelady is recognized.
    Mr. Davis. Thank you, Ms. Wasserman Schultz.
    Let me shift to another area, Ms. Goodling. You have been 
an assistant U.S. attorney for a period of time in your own 
career, is that right?
    Ms. Goodling. I was a special assistant U.S. attorney, yes.
    Mr. Davis. Did you prosecute cases at some point?
    Ms. Goodling. I did some cases. Actually, I did not end up 
doing any felony trials. They all pleaded out. But I did some 
work.
    Mr. Davis. Are you familiar with the rules and professional 
rules of responsibility that govern U.S. attorneys and members 
of the Department of Justice?
    Ms. Goodling. I am familiar with some of them. I wouldn't 
claim to be an expert.
    Mr. Davis. Let me ask you a few questions about it. In your 
opinion, from what you know of the professional rules of 
responsibility, would it be appropriate for a United States 
Senator to contact a prosecutor about a specific case?
    Ms. Goodling. The Department got inquiries about cases all 
the time, and there was an appropriate--there is an appropriate 
way to address them.
    Mr. Davis. Would it be appropriate for a Senator to call 
the U.S. Attorney and ask about the specifics of a particular 
case?
    Ms. Goodling. In some cases, it may be okay. If they were 
just calling to ask something that is in the public record, it 
might be okay. Although, of course, the Department protocol 
would be that that question would go to the Office of 
Legislative Affairs.
    Mr. Davis. What if they weren't calling about the public 
record but they were calling about information known only to 
the U.S. attorney and the Department of Justice? Would that be 
appropriate?
    Ms. Goodling. I don't really know the rules in this area 
very well----
    Mr. Davis. Do you know of any circumstance, Ms. Goodling, 
in which it would be appropriate for a United States Senator to 
call a United States attorney to ask about information known 
only to that U.S. Attorney's office?
    Ms. Goodling. I can't think of one, but, again, I am not an 
expert in this area.
    Mr. Davis. Similar question. Would it be appropriate for a 
Member of the United States House to call the United States 
attorney to ask questions about the specifics of a particular 
case involving facts known only to the U.S. Attorney?
    Ms. Goodling. I am not an expert in this area, Mr. Davis; 
and I hesitate to answer questions that I don't know the 
answer.
    Mr. Davis. Let me ask another question. Do you know of any 
instance in which it would be appropriate for a politician to 
call a U.S. Attorney to ask him or her to prosecute anyone?
    Ms. Goodling. I don't think that would be appropriate. 
Unless, of course, the person had evidence of wrongdoing, in 
which case they should take it to the FBI----
    Mr. Davis. And if person didn't have evidence of wrongdoing 
and simply called and made the inquiry, you agree that would be 
inappropriate, wouldn't it?
    Ms. Goodling. If someone called and said go prosecute this 
person because I don't like them and didn't have evidence, that 
would clearly be a problem.
    Mr. Davis. Let me ask you a question about that. To your 
knowledge, based on everything that you have learned about 
these facts in your previous position, was there a phone call 
from a Member of the United States Senate to David Iglesias 
regarding prosecution of particular cases?
    Ms. Goodling. I have seen press accounts, but----
    Mr. Davis. Would that be appropriate for Senator Domenici 
to call----
    Ms. Jackson Lee. The Chair would remind Members that they 
must allow the witness to answer the question and--I ask the 
Members be reminded that witnesses must be able to answer the 
question.
    Ms. Goodling. I don't know if the call happened, and I 
don't know the specifics of the call if it did. And I can't 
address a hypothetical or something that I don't know anything 
about. I am not an expert in this area. I just--frankly, I 
think it raises questions, but I don't know the rules in this 
area well enough to say.
    Mr. Davis. Final question, Ms. Goodling. During your 
briefing session with Mr. McNulty for his testimony, did the 
Domenici call to Iglesias come up?
    Ms. Goodling. I don't think that--I am trying to remember 
the date of the call. Do you remember the date of the call?
    Mr. Davis. Well, I am asking you, Ms. Goodling. You 
participated in the briefing.
    Ms. Jackson Lee. Gentleman's time has expired.
    Ms. Goodling. I can't remember the time sequence. I am 
sorry. I did address the call, or the call was something that 
was discussed in the Deputy Attorney General's Office. But I 
don't remember when that was.
    Ms. Jackson Lee. I now recognize the gentleman from 
Minnesota, Mr. Ellison, for 5 minutes.
    Mr. Ellison. Do you know Thomas Heffelfinger, ma'am?
    Ms. Goodling. I have met him, yes.
    Mr. Ellison. Before he resigned, was there any conversation 
about problems with his performance?
    Ms. Goodling. I believe I did hear a few.
    Mr. Ellison. What were they?
    Ms. Goodling. There were some concerns that he spent an 
extraordinary amount of time as the leader of the Native 
American Subcommittee of the AGAC. And clearly people thought 
that was important work, but I think there was some concern----
    Mr. Ellison. Excuse me. Thank you. You have answered.
    Mr. Lungren. Madam Chair, she is answering the question----
    Mr. Ellison. Ma'am, excuse me, can you tell me, please, Was 
there concerns about whether or not he was allowing members of 
Native American tribes to use tribal IDs in order to vote?
    Ms. Goodling. I don't remember anything subject specific. 
The concern that I heard raised was just that he spent an 
extraordinary amount of time on the Subcommittee business.
    Mr. Ellison. Did anything about voter tribal IDs ever come 
in up in that discussion with problems about Thomas 
Heffelfinger?
    Ms. Goodling. I don't have any recollection of it.
    Mr. Ellison. Did you receive any communications from 
Secretary of State Mary Kiffmeyer regarding Thomas 
Heffelfinger?
    Ms. Goodling. I don't have any recollection of ever seeing 
anything like that.
    Mr. Ellison. Did you have--interview Joan Humes?
    Ms. Goodling. Yes.
    Mr. Ellison. When did you interview her?
    Ms. Goodling. It would have been--it would have been after 
Tom Heffelfinger notified us he was going to leave.
    Mr. Ellison. Now you know she was a 1990 graduate of the 
University of Minnesota right?
    Ms. Goodling. I don't remember her resume.
    Mr. Ellison. Do you recall she is chief of civil in the 
U.S. attorney's office in Minnesota?
    Ms. Goodling. Yes.
    Mr. Ellison. And you understand that she had clerked for 
Judge Rosenbaum, who was a Minnesota Federal judge, right?
    Ms. Goodling. I don't remember her resume.
    Mr. Ellison. Do you recall that she at least had a good 
solid resume, had worked for the U.S. attorney's office and had 
been practicing law for some 15, 16 years? You know that?
    Ms. Goodling. I remember she was the civil chief. That was 
my recollection.
    Mr. Ellison. She didn't get the job, did she?
    Ms. Goodling. No, she didn't.
    Mr. Ellison. You knew she was Democrat, right?
    Ms. Goodling. I actually didn't hear she was a Democrat. I 
heard she was a liberal.
    Mr. Ellison. You heard she was a liberal. Was that a factor 
in your decision to bypass her?
    Ms. Goodling. I think it was a factor in some ways, but it 
wasn't the overarching factor.
    Mr. Ellison. Now the person you did hire was Rachel 
Paulose, is that right?
    Ms. Goodling. There was a panel of people involved, but, 
yes.
    Mr. Ellison. Rachel Paulose was hired. Now you know that 
four assistant U.S. attorneys have quit because she is so 
inadequate in management in the U.S. attorney's office in 
Minnesota. You know that today, right?
    Ms. Goodling. I read press accounts that they went back to 
AUSA----
    Mr. Ellison. You know that is true, don't you?
    Ms. Goodling. I don't believe they resigned. I believe they 
went back to their positions as AUSA----
    Mr. Ellison. No, they quit their----
    Mr. Lungren. Let her answer the question.
    Mr. Ellison. They quit their leadership positions.
    Ms. Jackson Lee. Gentleman will suspend. Gentleman will 
suspend. Remind Members to please allow the witness to answer 
the question.
    Mr. Ellison. They quit their leadership positions, is that 
right?
    Ms. Goodling. Yes, then----
    Mr. Ellison. Then went back to line positions, is that 
right?
    Ms. Goodling. That is what I understand from the paper.
    Mr. Ellison. So Ms. Paulose--and you know Ms. Paulose 
personally, is that right?
    Ms. Goodling. I met her during the interview process.
    Mr. Ellison. She described you as a friend of hers. Would 
you use that term ``friend'' as well?
    Ms. Goodling. We became friends after the hiring process.
    Mr. Ellison. And you are friends today, right?
    Ms. Goodling. I haven't spoken to her in some time, but, 
yes.
    Mr. Ellison. How much time have you--how much time has gone 
by since you spoke to her?
    Ms. Goodling. Maybe February--February, maybe early March.
    Mr. Ellison. So you spoke to her as early as March '07?
    Ms. Goodling. Maybe. Maybe. Maybe the first week of March. 
I can't recall.
    Mr. Ellison. Did you ask Ms. Humes if she was a member of 
the Federalist Society?
    Ms. Goodling. No.
    Mr. Ellison. Did you ask her about her religious 
affiliation?
    Ms. Goodling. No.
    Mr. Ellison. Did you ask her specifically about her party 
affiliation?
    Ms. Goodling. I don't believe that we did. The interview 
was conducted by Mr. Margolis, Mike Battle and myself----
    Mr. Ellison. Excuse me.
    Ms. Goodling. All three of us were in the room----
    Mr. Ellison. That is not responsive to my question, but we 
will move ahead.
    Did Ms. Paulose ever lead a department in any office of the 
U.S. attorney?
    Ms. Goodling. I don't believe she had.
    Mr. Ellison. And Ms. Joan Humes had led the Civil Division, 
is that right?
    Ms. Goodling. Yes.
    Mr. Ellison. So you all bypassed a chief of civil and went 
to somebody who had no experience in management simply because 
they were a liberal.
    Ms. Goodling. No, not at all. There were other----
    Mr. Ellison. Now----
    Ms. Goodling [continuing]. Reasons involved in the 
decision.
    Ms. Jackson Lee. I remind the witness's being allowed to 
answer the question.
    Mr. Ellison. Now----
    Ms. Goodling. To clarify, we----
    Mr. Ellison. I don't need a clarification.
    Ms. Goodling. I would like to complete my answer.
    Mr. Ellison. I don't need an answer.
    Mr. Lungren. Parliament inquiry, the rules we started 
with----
    Mr. Ellison. Madam Chair----
    Ms. Jackson Lee. Would the Member suspend?
    Mr. Ellison. I have the authority to control my question. I 
got an answer to my question, and I would like to proceed----
    Mr. Lungren. You are a Member of this Committee, and 
those----
    Mr. Ellison. Madam Chair----
    Mr. Lungren [continuing]. Are not the rules----
    Mr. Ellison [continuing]. This deleterious--
    Mr. Lungren [continuing]. The Chairman announced----
    Mr. Ellison [continuing]. Tactic----
    Mr. Lungren [continuing]. At the beginning----
    Ms. Jackson Lee. Point of order----
    Mr. Lungren [continuing]. Of this hearing.
    Ms. Jackson Lee. I ask the gentleman to suspend.
    I am very, very sensitive and sympathetic to the lawyers 
that are on this Committee in their questioning form, but it is 
the rules of this Committee that Members allow witnesses to 
answer the question. You can ask them to abbreviate.
    Ms. Goodling, because of the shortness of the time, I would 
ask you to be more precise in your answers to the gentleman. 
The gentleman may continue.
    Mr. Ellison. Madam Chair, I would like to ask for at lead 2 
minutes of my time to be restored. I have been interrupted 
here.
    Mr. Lungren. I object.
    Ms. Jackson Lee. The time has been suspended on each of the 
times. I thank the gentleman.
    Mr. Ellison. Thank you, Madam Chair.
    Ms. Goodling. Could I complete----
    Mr. Ellison. Now----
    Ms. Goodling [continuing]. My answer?
    Mr. Ellison [continuing]. Did you ask----
    Ms. Jackson Lee. Will the gentleman proceed?
    Mr. Ellison. There is no question before the witness.
    Ms. Goodling. I didn't finish my answer.
    Mr. Lungren. There is a question before the witness. She 
should be permitted to answer.
    Ms. Jackson Lee. Regular order. Regular order.
    The Chair will rule. The gentleman will proceed. You can 
include your answer that you want to complete as the gentleman 
finishes his other question. Would the gentleman proceed?
    Mr. Ellison. Did Rachel Paulose's political affiliation 
play any role in her hiring?
    Ms. Goodling. Yes, it did.
    Mr. Ellison. And that would be that she is a Republican?
    Ms. Goodling. Yes.
    Mr. Ellison. Did her religious affiliation play a role in 
her hiring?
    Ms. Goodling. No, it did not.
    Mr. Ellison. Do her membership in the Federalist Society 
play a role in her hiring?
    Ms. Goodling. I don't remember that was something we talked 
about.
    Mr. Ellison. Did the fact she never tried a case to a jury 
impact your thinking on her hiring?
    Ms. Goodling. She had 2 to 3 years prosecution experience 
as an AUSA, which is a lot more than some of the U.S. attorneys 
that we hire. And that was significant experience and----
    Mr. Ellison. How did that experience compare to Joan Hume's 
experience?
    Mr. Lungren. The time of the gentleman has expired.
    Ms. Jackson Lee. Chairman will suspend.
    Ms. Goodling. As I recall, Rachel's experience was some 
civil and some criminal.
    Ms. Jackson Lee. Gentleman's time has expired, and she can 
complete her answer.
    Ms. Goodling. Rachel Paulose was selected based on her 
qualifications overall, and we did include the fact that she 
might be able to be a candidate for the Presidential 
nomination. We sometimes thought if we had somebody that we 
could put into to be an interim U.S. Attorney who also had the 
opportunity to be a considered both a Presidential nomination 
then that was a factor.
    Mr. Ellison. Nonresponsive.
    Ms. Jackson Lee. The gentleman's time has been expired. We 
have been summoned to the House floor for votes. We will take a 
short recess and reconvene as promptly as we can after we vote 
for a second round of questioning.
    The Committee stands in recess.
    [Recess.]
    Mr. Conyers. [Presiding.] Members of the Committee, our 
first round of questioning, our first round of questioning has 
concluded.
    There is one exception. As we have discussed with Lamar 
Smith, rather than have an entire second round of questioning, 
we have decided to move, pursuant to clause (j)(2)(b) of Rule 
11, for 30 minutes of extended questioning by Members, to be 
divided equally between the majority and the minority. First, 
one Member of the minority, who will be recognized by the 
Ranking Member for 15 minutes or more--or more people, not more 
minutes; and then one Member of the majority will be recognized 
for 15 minutes to recognize other Members.
    Without objection, the motion is agreed to.
    So we will suspend for a moment until our witness and her 
counsel arrive, and we will begin.
    We conclude the afternoon by offering our deepest thanks 
for the cooperation of Monica Goodling and her counsel for the 
length of time that this has taken. As you see, we have been 
interrupted by requests for recorded votes on the floor, but we 
are grateful to you, and we can assure you we will not keep you 
very long at all.
    We have already--we have discussed with Lamar Smith and 
myself, and rather than have a second round of questioning we 
have decided to dispense with that and move, pursuant to clause 
(j)(2)(b), Rule 11, to have questioning for the last 30 minutes 
to be divided between the majority and the minority.
    Each will be recognized for 15 minutes, and without--first, 
one Member of the minority whom the Ranking minority Member may 
designate will be recognized for 15 minutes, then one Member of 
the majority will be recognized for 15 minutes.
    Without objection, so ordered.
    To begin the questioning, I recognize the Ranking Member, 
Lamar Smith, to designate a Member on his side for 15 minutes 
of questioning; and I yield to the gentleman.
    Mr. Smith. Thank you, Mr. Chairman. I am glad we were able 
to come to agreement on how to divide the time and how much 
time to divide, and our time will be--the person I am going to 
designate for our time is going to be Chris Cannon, the 
gentleman from Utah and Ranking Member of the Administrative 
Law Subcommittee.
    Mr. Conyers. Thank you. We will designate Adam Schiff, the 
gentleman from California, to control our 15 minutes; and, 
obviously, whoever is controlling time can yield to others if 
he so chooses.
    I would ask the gentleman from Utah, Mr. Chris Cannon, to 
begin his 15 minutes, please.
    Mr. Cannon. Thank you, Mr. Chairman. I thank the Ranking 
Member as well.
    And I would just like to say on the record, Mr. Chairman, 
that I appreciate the way you handled the lobby reform bill and 
my amendment that I spent some time with the Rules Committee 
just before coming down here. They have that all straight and 
appreciate your involvement in that.
    We would like to begin by yielding so much time as he may 
consume to the gentleman, Mr. Keller.
    Mr. Keller. I thank the gentleman for yielding.
    Ms. Goodling, I have been here and listened to you 
carefully all day; and I believe the gist of all your testimony 
can be summarized as follows:
    You had no major role in assembling the list or firing the 
U.S. attorneys, you wish there were some questions you hadn't 
asked of Civil Service employees on a political level, and 
while you agree with Mr. McNulty that the firings by the 
Attorney General were not for an illegal or improper purpose 
you have some disagreement with other aspects of his testimony. 
Is that a fair summary?
    Ms. Goodling. I wouldn't want to say I didn't have a major 
role, because certainly I was a part of the circle of people 
that reviewed the list and made recommendations, and I was a 
part of that. I wouldn't want to say I wasn't a major part. I 
certainly was part of the core.
    I think I would summarize just by saying that, as far as I 
know, the dismissals were made for appropriate reasons. But the 
handling of it and the explanation of it was poorly managed and 
not always as accurate as it could have been.
    Mr. Keller. So you agree with two of my three summaries, 
but you would say you had a major role.
    Let's turn, if you would, to your packet of documents 
there, Number 5, which is tabbed; and that is an e-mail. At the 
top of this--and this is for those following--this is tab 
Number 5, Office of Attorney General, number 22 Bates stamp. 
That is an e-mail dated May 11, 2006, from Kyle Sampson to 
William Kelly. Do you see that?
    Ms. Goodling. Yes, I do.
    Mr. Keller. And you were, in fact, the senior counsel and 
White House Liaison at that time, right?
    Ms. Goodling. Yes, I was.
    Mr. Keller. Were you even aware of this e-mail at that 
time?
    Ms. Goodling. I don't remember learning about it at the 
time, no.
    Mr. Keller. And the reason I say that is because I think 
your testimony to me earlier was you weren't even aware of a 
particular list until January of 2006. And here is a list from 
May 11, 2006, from Kyle Sampson. So that is how I get the point 
that you really weren't a major player in all the--because here 
you were liaison at the time, and you weren't even aware that 
this list was starting to be compiled.
    Ms. Goodling. The list I saw I believe was January, 2006, 
so it would have predated this e-mail.
    Mr. Keller. This e-mail here is what the other side and 
some have called the ``smoking gun''. As you see, it says, 
among other things, the real problem we have right now with 
Carol Lam leads me to conclude that we should have somebody 
ready to be nominated on November the 18th, the day after her 
4-year term expires.
    Now according to comments made by John McKay and the Los 
Angeles Times on May 18, 2007, that is powerful circumstantial 
evidence of a crime. I believe we will see a criminal 
investigation, he says, because the day before, May 10th, Carol 
Lam supposedly sent some notice to the Justice Department that 
she was going to be seeking certain search warrants related to 
the Duke Cunningham investigation; and that must be what 
triggered it, this particular document. This is their smoking 
gun, this memo dated May 11th.
    So I would like you to look at the bottom of this same 
memo; and is it in fact true that there is also a memo on the 
same page dated April 14, 2006, from Kyle Sampson saying that a 
month before that one of the people DOJ recommends terminating 
is Carol Lam, is that correct?
    Ms. Goodling. Yes, and I believe she was on the January 
memo as well.
    Mr. Keller. That is right.
    And one final point, just in case anyone is not clear about 
where the Attorney General stood on this issue. He testified 
before this Committee on April the 6th--and I specifically 
brought up the situation to Carol Lam with him, and the 
Attorney General said to me--I am looking for his testimony--
that he was aware of the problem in San Diego and that they 
were taking steps to do something about it.
    And I don't have his testimony right in front of me, but 
the gist of it is he knew then that there was a problem and in 
April of 2006. And I believe your testimony earlier today is 
that you had heard conversations back in 2003, 2004, that there 
were concerns within the Justice Department relating to Carol 
Lam's failure to prosecute certain gun crimes and as early as 
2005 regarding concern about certain immigration crimes 
prosecution, is that true?
    Ms. Goodling. Yes, that is true.
    Mr. Keller. And I would yield the gentleman the balance of 
my time.
    Mr. Cannon. Mr. Chairman, how much time do we have 
remaining? Counsel might be----
    Mr. Conyers. Nine minutes and 59 seconds.
    Mr. Cannon. I yield 4 minutes to Mr. Lungren and would 
appreciate if the Chair would let me know when that time----
    Mr. Conyers. Your time has--oh no, you have 4 minutes.
    Mr. Lungren. Thank you, Mr. Chairman.
    Ms. Goodling, you mentioned in your testimony that you were 
concerned about statements that might come out that might hurt 
the U.S. attorneys that were to be relieved, correct?
    Ms. Goodling. Yes.
    Mr. Lungren. And as I understand it, your feeling was that 
even though there were justifiable reasons for letting these 
people go, they are otherwise honorable folks who had done good 
jobs in some areas of the law, and there was no reason to hurt 
their reputation as they went off to pursue another job, is 
that correct?
    Ms. Goodling. That's correct. They had served, you know, 
more than their 4-year terms in most cases; and although the 
decision was made that maybe a change would be appropriate, I 
didn't think that we needed to do anything to damage their 
reputations.
    Mr. Lungren. There has been cited a report from the 
Congressional Reference Service that never in the history of 
United States have we let people go for performance, and yet I 
am personally aware of at least one occasion in which that 
occurred somewhere in California while I was an Attorney 
General. But every effort was made not to penalize the person 
who was leaving, not to articulate the reasons why the 
individual was gone, not to make a big deal about it, but to 
make that change.
    And I guess my question is to you, was that part of how you 
viewed it in the situation that you were a part of in this 
particular matter, that is, with the eight who were being 
relieved of their positions?
    Ms. Goodling. I thought it was within the President's 
authority to make those personnel changes if he wanted to do 
so.
    Mr. Lungren. Now some things have been said about Mr. 
Iglesias. Were you aware of any complaints from local law 
enforcement, including prosecutors at the local level or 
sheriffs, of what they thought was a failure to timely respond 
to their requests for assistance by Mr. Iglesias and his 
office?
    Ms. Goodling. I don't remember hearing anything like that.
    Mr. Lungren. Someone said a little earlier about whether 
you ever considered that secret society called the Federalist 
Society. Are you aware of the Federalist Society?
    Ms. Goodling. Yes.
    Mr. Lungren. Who are they?
    Ms. Goodling. It is an organization based in Washington, 
D.C., that advocates open debate, but they are largely 
comprised of conservatives.
    Mr. Lungren. And they believe in a study of the 
Constitution?
    Ms. Goodling. I believe they do.
    Mr. Lungren. And they believe that perhaps like-minded 
individuals who have a constant--a view of the Constitution and 
fidelity to the Constitution might practice law, be in our 
court systems, be even assistant U.S. attorneys and U.S. 
attorneys?
    Ms. Goodling. Yes.
    Mr. Lungren. Do you find it any problem with learning 
whether or not someone is in the Federal Society when you were 
considering whether they ought to be hired at the Justice 
Department?
    Ms. Goodling. No.
    Mr. Lungren. Excuse me, I have so many more questions, but 
I have to yield back.
    Mr. Cannon. I think the Chairman has since forgotten us 
over here in the time.
    Mr. Conyers. The yellow light goes on when 3 minutes have 
been--oh, wait a minute, you now have 26 seconds. It was 27.
    Mr. Cannon. I yield. So we have a total of--what--5 minutes 
left, Mr. Chairman, now?
    Mr. Conyers. Six.
    Mr. Cannon. I interrupted a long stream of questions. I 
apologized a half a minute early, and I thank the Chairman for 
his diligence in this regard.
    Following up on the Federalist Society, I note you have 
been a career-long member of that left-leaning organization, 
the American Bar Association.
    Ms. Goodling. I have been a member of the American Bar 
Association longer than I have been a member of the Federalist 
Society.
    Mr. Cannon. Has that impeded your career at the Department 
of Justice?
    Ms. Goodling. It hasn't seemed to, at least while I was 
there.
    Mr. Cannon. Thank you. I jest, having been a member myself 
of that organization.
    Mr. Davis raised questions about Senate referrals of legal 
matters in connection to an investigation, and it goes too far 
to say that Members shouldn't or can't communicate with Federal 
prosecutors who refer matters for prosecution. Rule 19 of the 
Senate Subcommittee on Investigations explicitly states a 
referral methodology, and Senator Feinstein and Representative 
Issa both encouraged Carol Lam to engage in certain activities 
with regard to immigration in particular and those referrals.
    So, as we said numerous times, referrals themselves or 
discussions are not inappropriate with Federal prosecutors, but 
it really is the responsibility of the U.S. attorney to 
communicate that communication to the Department, is it not?
    Ms. Goodling. Yes. As I mentioned, it was a Department 
policy that contacts with Members should be reported to the 
Department for appropriate handling for everyone's protection.
    Mr. Cannon. Are you familiar with Mr. Iglesias's failure to 
communicate with the Department about the contacts that had 
been made to his office?
    Ms. Goodling. I understand he confirmed that he didn't 
report the contact.
    Mr. Cannon. Actually, no, he told this Committee that he 
did report the contact using not the telephone or e-mail but 
through the medium of the press. I don't know if you are aware 
of that or not, but, personally, I think that the reasons for 
his replacement are self-manifest and probably don't need to be 
gone into much more.
    But we will discuss the President's power, involvement of 
appointing these really at will employees.
    I would like to read into the record a succinct description 
of the job security for U.S. attorneys by Mr. David Margolis. I 
love this line.
    If Senator Kerry were elected after the 2004 election these 
people would be out on the street anyway, so it is not like we 
are, you know, taking the jobs out from under them.
    Do you think that is a fair representation of the 
expectations of tenure by U.S. attorneys?
    Ms. Goodling. It certainly is an accurate statement.
    Mr. Cannon. Thank you.
    Now there has been some question about the importance of 
your role in all of these activities, Ms. Goodling. Referring 
back again to Mr. Iglesias, who said to Mr. Matthews, on 
Hardball, I think Monica Goodling holds the keys to the 
kingdom. I think if they get her to testify under oath with a 
transcript and have her describe the process between--the 
information flow between the White House counsel, the White 
House and the Justice Department, I believe the picture becomes 
a lot clearer.
    Now we have a transcript being developed today. You have 
been here with us quite a while and answered many questions and 
only a few more, we would hope. I want you to know that in this 
particular and very narrow case I agree with Mr. Iglesias that 
it couldn't be clearer. You don't have much to show or you are 
not a link to--what someone called it--the political 
corruption, the partisan political corruption that is going on. 
That just does not seem to be here. At least I haven't seen any 
evidence of that.
    And I suspect that at the end of this hearing the only 
thing we are going to hear more about is where all the momentum 
from this investigation dissipated to, using none other than 
our hero, Mr. Iglesias, to guide us through there, that----
    Oh, Mr. Gohmert, would you like to take a--what time 
remains?
    Mr. Gohmert. If you don't mind.
    Mr. Cannon. How much time do we have remaining, Mr. 
Chairman?
    Mr. Conyers. There is 2 minutes and 20 seconds remaining, 
sir.
    Mr. Cannon. I yield to the gentleman the 2 minutes that 
remain.
    Mr. Gohmert. I thank the gentleman from Utah.
    We have heard our friend from California mention about 
other U.S. attorneys who may have departed perhaps not 
completely voluntarily, but it is my understanding from people 
who have worked the system and have seen U.S. attorneys come 
and go that before this Attorney General's office this was 
normally handled by letting people know it might be a good idea 
to find other employment, we'll give you time, but we want to 
replace you.
    As you have indicated, you said, I thought it was the 
President's power to make such changes. Isn't it true? It is 
the President's power to make such changes, correct?
    Ms. Goodling. Yes.
    Mr. Gohmert. It is. And you can do it for political 
purposes.
    When Bill Clinton fired 93 U.S. attorneys, it was all for 
political purposes, and they said that. But they had the good 
judgment to say, you guys did a good job, fine, this is purely 
political purposes. We want our own people in there, people 
that think like we do. So, goodbye. We will help you any way we 
can. And that is what most attorneys general have done until 
this one.
    So it seems to be more of a political witch hunt we are 
about, when really what is at the bottom of it all is bad 
personnel management by this Attorney General's office. Instead 
of quietly saying find other employment, they said, and we 
think it is job related, it relates to job performance. As a 
result, they had people that lashed back, that naturally they 
are going to have to defend themselves in their job 
performance, which gave fuel to the political debate to come 
into here. So that now we have polls indicating a majority of 
Americans think that this was done for political purposes.
    Well, hello, that is why they--Bill Clinton changed his--
that is why----
    Mr. Cannon. Will the gentleman yield back?
    Mr. Gohmert. Yes.
    Mr. Cannon. I would like to make a point in the last few 
seconds. That while Bill Clinton--President Clinton did this to 
93 U.S. Attorneys, one of them was investigating the Clintons 
at the time; and there is certainly the odor of corruption in 
that circumstance.
    Now, Ms. Goodling, we are done on our side pretty much. We 
appreciate your testimony and your being here.
    Mr. Schiff I think is going to take the time from here. You 
have 15 more grueling minutes, and we will see if he can come 
up with something worthy of the hours and hours that we have 
spent on the subject up until now and the money and the 
$250,000, et cetera.
    Thank you, Mr. Chairman. I yield back.
    Ms. Lofgren. Mr. Chairman.
    Mr. Chairman? Mr. Chairman.
    Mr. Conyers. Who seeks recognition?
    Ms. Lofgren. Ms. Lofgren. If I could just interrupt for a 
brief announcement. The minority has asked under the rules for 
a separate hearing on an immigration matter that was noticed 
for 5:30 upstairs, and I would just like to notice that that 
hearing will begin after we have concluded here. And I thank 
the gentleman for recognizing me.
    Mr. Conyers. I thank the gentlelady, and I thank the 
gentleman from Utah. The Chair now recognizes the distinguished 
gentleman from California, Mr. Adam Schiff, to conclude the 
hearings.
    Mr. Schiff. Thank you, Mr. Chairman. I am going to begin by 
yielding myself 10 minutes. So if you would let me know when 
that elapses.
    Mr. Conyers. I will.
    Mr. Schiff. Ms. Goodling, you testified about a meeting you 
had with the Attorney General in which you felt uncomfortable. 
When did that meeting take place?
    Ms. Goodling. It was the Thursday before the Monday that I 
took leave. I can't remember the date. But it would have been 
in March.
    Mr. Schiff. And where was the meeting?
    Ms. Goodling. It was in his office.
    Mr. Schiff. Who was present during the meeting?
    Ms. Goodling. It was just him and I. It wasn't scheduled. I 
had just called back and asked if I could see him for a few 
minutes.
    Mr. Schiff. And during the course of the meeting he raised 
his thoughts on the firing of some of the U.S. Attorneys with 
you?
    Ms. Goodling. He did.
    Mr. Schiff. And you felt uncomfortable about this. Is that 
right?
    Ms. Goodling. Yes.
    Mr. Schiff. In part because you realized this would be the 
subject of some controversy or dispute later?
    Ms. Goodling. I thought it was likely, based upon where we 
were at that point.
    Mr. Schiff. And that you might be asked to testify and he 
might be asked to testify?
    Ms. Goodling. Yes.
    Mr. Schiff. And you felt uncomfortable about being put in a 
situation where your testimony might be compromised?
    Ms. Goodling. I just didn't know if it was a good idea for 
the two of us to be discussing it. I don't know that I thought 
it was inappropriate. I just remember feeling I don't know if 
we should be having this discussion.
    Mr. Schiff. But the top law enforcement official in the 
country didn't raise any concern about the propriety of your 
discussing this issue?
    Ms. Goodling. No.
    Mr. Schiff. Was part of what made you uncomfortable the 
fact that the Attorney General's statement about why certain 
U.S. Attorneys were fired was not consistent with your 
understanding of the facts?
    Ms. Goodling. No. I don't think I was thinking that at the 
time.
    Mr. Schiff. Did the Attorney General tell you that he 
thought that Mr. Cummins, the U.S. Attorney in Arkansas, was 
fired for a reason owing to his performance?
    Ms. Goodling. I am sorry, can you repeat that?
    Mr. Schiff. Did the Attorney General tell you in this 
conversation that he thought that Mr. Cummins had been fired 
for good reason, that his performance was somehow 
unsatisfactory?
    Ms. Goodling. Yes. He thought that they were all in the 
same category, that there was some reason--I don't know if he 
used the word ``performance''--but there was a reason.
    Mr. Schiff. You understood that the reason Mr. Cummins was 
placed on the list to be fired was because there was a desire 
to make room for Mr. Griffin. Is that right?
    Ms. Goodling. Yes. Yes.
    Mr. Schiff. So what the Attorney General told you was not 
consistent with the facts as you know them?
    Ms. Goodling. Right.
    Mr. Schiff. Didn't that make you uncomfortable?
    Mr. Schiff. No. In some cases, we--where we moved other 
U.S. Attorneys on, obviously the downstream effect of that is 
to allow someone else to serve. The fact that we wanted Mr. 
Griffin to serve in Arkansas was not necessarily exclusive of 
the fact that Mr. Cummins may have been rated one way or the 
other.
    Mr. Schiff. But you understood that what the Attorney 
General was telling you, that there was a cause reason owing to 
the performance of Mr. Cummins, and that was the reason he was 
being fired, you understood that that was not true?
    Ms. Goodling. I think what he was saying was that he 
thought Kyle put Mr. Cummins on the list because there was a 
performance-related reason. And so when he heard that there 
wasn't, or that the Deputy had said that there wasn't, he was 
surprised by that. What he was trying to say was I thought Kyle 
put him on the list because there was a reason. And so I 
didn't----
    Mr. Schiff. More than that, he was angry with Mr. McNulty 
for suggesting that someone was fired who was doing a good job, 
wasn't he?
    Ms. Goodling. He said he was upset with the Deputy.
    Mr. Schiff. Now, you also mentioned a staff meeting--and I 
want to see if I heard you correctly--with the Deputy AG, I 
thought you said the AG as well, in which a question was asked 
about how Iglesias was put on the list. Did I understand your 
testimony correctly about that?
    Ms. Goodling. Yes. And in one of the last 2 weeks that I 
was at the Department the group of people that had been working 
on this issue had a meeting. And I think it was after Mr. 
Sampson left. I think that is about as close as I can get it in 
time.
    Mr. Schiff. And the Attorney General was present for that 
meeting?
    Ms. Goodling. To the best of my recollection I think 
everybody involved was in the room. I just remember feeling 
like the room was full, and that meant everybody was there, but 
I don't--I don't remember any particular seat being empty.
    Mr. Schiff. And someone during the course of that meeting 
asked how did Mr. Iglesias get on the firing list, correct?
    Ms. Goodling. I asked.
    Mr. Schiff. You asked the question?
    Ms. Goodling. Yes.
    Mr. Schiff. And then somebody responded that has been 
addressed?
    Ms. Goodling. Yes.
    Mr. Schiff. Who was it that said that?
    Ms. Goodling. I don't remember.
    Mr. Schiff. Were you there for the whole meeting?
    Ms. Goodling. I came in a few minutes late, I think.
    Mr. Schiff. Was it your sense that it had been addressed in 
that meeting or it had been addressed privately?
    Ms. Goodling. I don't know.
    Mr. Schiff. Well, Mr. McNulty, when you were preparing for 
testimony, struck the reference that Mr. Iglesias didn't move 
cases from the document you prepared, didn't he?
    Ms. Goodling. He didn't strike it from the document I 
prepared. It was--he asked that--or said that he didn't think 
it should be included on a chart that I had prepared for his 
private briefing on the Senate side. So it was a comment 
someone made in a prep session in his office, but then he 
indicated he didn't think it should be included because he 
thought the Senator would prefer to address those concerns 
privately with his colleagues. And he wanted to give him the 
opportunity to do that.
    Mr. Schiff. So then if the Deputy Attorney General was 
asked about why Mr. Iglesias was put on the list to be fired, 
the primary reason that the Attorney General testified about, 
the calls he got from Senator Domenici wouldn't appear 
anywhere, would it?
    Ms. Goodling. I am not familiar with what the Attorney 
General testified to. Could I see that?
    Mr. Schiff. Well, we will be happy to supply that to you 
later. But Mr. McNulty made it clear he was not going to 
discuss with the Senate, even if he was asked, the reasons why 
Mr. Iglesias was fired. He was not going to discuss the 
Domenici calls or the comment about moving cases, was he?
    Ms. Goodling. There was a little bit more to the 
conversation. What he said was--or somebody else in the room I 
think made the suggestion--there was a conversation back and 
forth between the DAG and one other person, and I don't 
remember who the other person was, but the conversation was 
that maybe somebody should place a call to his Chief of Staff 
and see if he wanted to address the concerns with his 
colleagues before the briefing took place. So presumably, if 
the Chief of Staff had indicated that he didn't mind the 
Department briefing it, then, you know, the DAG may have done 
so. But all I heard was the discussion about maybe we shouldn't 
put that--shouldn't brief that because it is really the 
Senator's place to do that privately. And somebody suggested a 
phone call be made to the Chief of Staff to see if they wanted 
to do that on their own.
    Mr. Schiff. You testified about a meeting in which Mr. Rove 
was present where someone said we need to have a reason why all 
these people were fired, or something to that effect. Correct?
    Ms. Goodling. I believe someone made a comment more along 
the lines of you need to be clear in explaining your decisions 
or what you did or something. It was more a matter of being 
clear in explaining, not necessarily----
    Mr. Schiff. And then someone at that meeting said, yes, 
that's right, and--well, you said that Karl Rove at some point 
emphasized the point someone earlier had made. Is the best of 
your recollection what he was emphasizing was the point that 
they needed to have a good explanation for why people were 
fired?
    Ms. Goodling. I can't remember what it was that he said. To 
the best of my recollection, he only spoke one time. And that 
is my memory, and I don't even know if it is right, but my 
memory is he spoke one time. And it was kind of a follow-on 
comment to someone else. But I don't remember what the 
originating comment or his was.
    Mr. Schiff. But someone emphasized that there needed to be 
a clear explanation for why these people got fired?
    Ms. Goodling. To the best of my recollection, yes, that was 
something----
    Mr. Schiff. And then during your conversation with the 
Attorney General, that private conversation, he was trying to 
supply a reason why Mr. Cummins got fired?
    Ms. Goodling. No, he wasn't trying to--he wasn't trying 
to----
    Mr. Schiff. Well, he was emphasizing to you his belief that 
everyone had been fired for a good reason, that is for cause, 
right?
    Ms. Goodling. He was just saying this is what I remember. 
And it was in the course of that stream.
    Mr. Schiff. Now, Mr. McNulty testified in answer to Senator 
Schumer, when Senator Schumer asked, can you give us some 
information about how it came to be that Tim Griffin got his 
interim appointment? Who recommended him? Was it someone within 
the U.S. Attorney's office in Arkansas? Was it someone within 
the Justice Department? Mr. McNulty answered under oath, yeah, 
I don't know the answer to those questions. That was a false 
statement, wasn't it?
    Ms. Goodling. I believe that he had some information. I 
don't know if he remembered it at that point. But I believe he 
had some information.
    Mr. Schiff. So when he was asked further, did anyone from 
outside the Justice Department, including Karl Rove, recommend 
Mr. Griffin for the job? Again, I am not saying there is 
anything illegal about that, but I think we ought to know. And 
McNulty said, okay, and Senator Schumer said, okay, but you 
don't have any knowledge of this right now, and Mr. McNulty 
testified under an oath, I don't. That was a false statement, 
too, wasn't it?
    Ms. Goodling. I believe that he had some information on it. 
Or that he had been given some information. I can't speak to 
what he knew or remembered that day.
    Mr. Schiff. And when he was further asked----
    Mr. Conyers. The gentleman has how many seconds left? 4:50. 
So you have nearly used your 10 minutes.
    Mr. Schiff. Thank you. I will now yield the remaining 4:50 
to Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. Mr. Chairman, may I 
proceed?
    Ms. Goodling, this is the final 5 minutes of the testimony 
today, so we will try to get through it quickly. On behalf of 
this side of the Committee, let me thank you for your courtesy 
today and let me thank you for your candor today.
    Mr. Conyers. Mr. Davis, could I just remind you to please 
let the witness finish her questions?
    Mr. Davis. Certainly.
    Mr. Conyers. Okay.
    Mr. Davis. I am going to put in front of you a document, 
Ms. Goodling, that is a transcript of the Attorney General's 
testimony to the United States House based on a hearing that 
occurred a short time ago, May 10th. Would you look at page 18 
of the document and let me know when you found it, Ms. 
Goodling?
    Ms. Goodling. I am on page 18.
    Mr. Davis. Look, if you would, at the portion that is 
marked Attorney General Gonzales. And I am going to read it for 
the record. And if you would follow along with me. This is a 
statement on page 18 of the transcript from Attorney General 
Gonzales:
    Mr. Chairman, if I may respond to that, as I have 
indicated, I have not gone back and spoken directly with Mr. 
Sampson and others who are involved in this process in order to 
protect the integrity of this investigation and the 
investigation of the Office of Professional Responsibility and 
the Office of Inspector General. I am a fact witness. They are 
fact witnesses. In order to preserve the integrity of those 
investigations, I have not asked these specific questions. What 
I am here today, and then there is a hyphen as he stops.
    Ms. Goodling, based on your knowledge, is that statement by 
Attorney General Gonzales, is that testimony sworn under oath 
by Attorney General Gonzales fully accurate?
    Ms. Goodling. I don't know what period he is referencing. 
Certainly earlier in this process there were a lot of 
conversations between a lot of people who were involved in this 
process. At some point it is clear that the Attorney General 
stopped talking to people, but it must have been--I assume that 
it is after the point that I left the Department or took leave.
    Mr. Davis. Do you agree that this says I am a fact witness, 
they are fact witnesses, and in order to preserve the integrity 
of those investigations I have not asked those specific 
questions? You agree that it says that, Ms. Goodling?
    Ms. Goodling. I agree that it says that. I don't know what 
specific questions----
    Mr. Davis. Ms. Goodling, did the Attorney General have a 
conversation with you regarding the terminations of the United 
States Attorneys?
    Ms. Goodling. Yes, he did.
    Mr. Davis. And when did this conversation happen?
    Ms. Goodling. It was in March, before I left the 
Department.
    Mr. Davis. Did you know you might be a fact witness at that 
point, Ms. Goodling?
    Ms. Goodling. Yes.
    Mr. Davis. Had there been substantial news coverage, Ms. 
Goodling, about the eventuality of your being a fact witness?
    Ms. Goodling. Yes.
    Mr. Davis. Do you believe the Attorney General knew you 
were going to be a fact witness?
    Ms. Goodling. I think he knew it was likely. At that point 
actually he had told me that they were having conversations to 
see if I would need to be a witness, because he said that he 
understood my involvement was much more limited. He was going 
to see if he and Kyle Sampson could address the Congress, and 
he said perhaps I wouldn't need to.
    Mr. Davis. Did the Attorney General indicate he would take 
steps to help prevent you from being a witness?
    Ms. Goodling. No. He just said that the Office of 
Legislative Affairs was talking to the Hill at that point, and 
that there were discussions that were ongoing about who they 
would actually need and when.
    Mr. Davis. Let me direct you to page 17 of the transcript 
in front of you. If you would look at the portion, Chairman 
Conyers. I am going to read what Chairman Conyers said, page 
17, line 341, Ms. Goodling.
    You are the one that we talked to, as the Judiciary 
Committee regularly communicates with the head of the 
Department of Justice. I approve and congratulate you on all 
those hearings and investigation, but just tell me how the U.S. 
Attorney termination list came to be and who suggested putting 
most of these U.S. Attorneys on the list and why. Now that 
should take about three sentences, but take more, but tell me 
something.
    Answer from Attorney General Gonzales. Mr. Chairman, it is 
my understanding that what Mr. Sampson engaged in was a process 
of consulting with the senior leadership in the Department 
about the performance of specific individuals, and that toward 
the end of that process and in the fall of 2006 what was 
presented to me was a recommendation that I understood to be 
the consensus recommendation of the senior leadership of that 
Department.
    Was that sworn testimony under oath by the Attorney General 
fully complete with respect to Mr. Gonzales's role, Ms. 
Goodling?
    Ms. Goodling. I don't know that I see anything inaccurate 
in it.
    Mr. Davis. What did you understand the Attorney General's 
role to be? Was he briefed by Mr. Sampson, for example, about 
the preparation of the list? Did you understand the Attorney 
General to have been briefed by Mr. Sampson about the 
preparation of the list?
    Ms. Goodling. I don't know that I knew about briefings, but 
he was in the November 27th meeting.
    Mr. Davis. Was that referenced in the portions of the sworn 
statement that I just identified?
    Mr. Conyers. The gentleman has 6 seconds remaining.
    Mr. Davis. Was the Attorney General's presence at the 
November meeting referenced in the sworn testimony I just 
identified, Ms. Goodling? Yes or no.
    Ms. Goodling. Yes, he said it was presented to him. It 
doesn't say the date. But it says it was presented to him in 
the fall. I can take that to be that November date.
    Mr. Conyers. The time of the gentleman has expired. You may 
finish your answer, Ms. Goodling, if you choose. Is there 
anything further you would like to add?
    Ms. Goodling. It doesn't identify a date. It says--he says 
that it was presented to him, or that the list was presented to 
him. So that could be a reference to that meeting. I don't 
really know. I can't explain it more fully than what is there.
    Mr. Conyers. The time of the gentleman has expired. All 
time has expired. And our morning and afternoon and almost 
evening questioning of Ms. Goodling comes to a conclusion.
    I would like to thank you on behalf of the Committee, and 
many Members have already, and your counsel, Mr. Dowd, for 
being with us today. Your testimony has been of help in getting 
us closer to the truth of the serious matters we have been 
investigating, both what you have been able to tell us about 
what you know and what you have told us about the matters that 
you don't know.
    And without objection, Members will have 5 legislative days 
to submit any additional written questions for you, which will 
be requested that you promptly return your answers. And the 
record, without objection, will remain open for 5 legislative 
days.
    Members of the Committee, the matters we are investigating 
are of the utmost seriousness, and today's hearings have been 
beneficial. There remain basic unanswered questions about how 
and why the termination list was created, how it was compiled, 
how it was revised, and how it was finalized. But Ms. 
Goodling's testimony will enable us to clarify our focus as we 
move forward to find answers. We thank you for your 
cooperation, and I would yield to the counsel for a remark.
    Mr. Dowd. Mr. Chairman, thank you. Do I understand that any 
answers to the questions submitted by Members of the Committee 
would be of the same compulsion of the subpoena and the order 
that you have given the witness? Is that correct?
    Mr. Conyers. Yes. The questions and the answers will still 
be under those same concerns.
    Mr. Dowd. Mr. Chairman, I also want to thank you for your 
courtesy and how you treated us, and the staff of both the 
majority and minority. We appreciate the accommodations. Thank 
you.
    Mr. Conyers. Well, Lamar Smith and I and all the Members of 
this Committee have only one purpose in mind, and that is to 
get to as thorough an understanding as is humanly possible 
about these circumstances. Again, my thanks to you. And this 
hearing is adjourned.
    [Whereupon, at 5:38 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions Submitted for the Record by the Honorable John Conyers, Jr., 
a Representative in Congress from the State of Michigan, and Chairman, 
   Committee on the Judiciary, and the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and Member, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Letter to the Honorable John Conyers, Jr., dated June 28, 2007, from 
    John M. Dowd, Attorney for Monica Goodling regarding Answers to 
                   Questions Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
